<html>
<title> - TSUNAMI RESPONSE: LESSONS LEARNED</title>
<body><pre>[Senate Hearing 109-153]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-153
 
                   TSUNAMI RESPONSE: LESSONS LEARNED

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED NINETH CONGRESS



                             FIRST SESSION



                               __________

                           FEBRUARY 10, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
23-942                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, BG John, U.S. Marine Corps................................    59
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........    15
Frist, Hon. Bill, U.S. Senator from Tenessee.....................    18
Larson, Hon. Alan, Under Secretary for Economic, Business and 
  Agricultural Affairs, Department of State, Washington, DC......    22
    Prepared statement...........................................    24
    Responses to questions submitted for the record by Senator 
      Lugar......................................................   123
Lindborg, Nancy, president, Mercy Corps, Washington, DC..........    96
    Prepared statement...........................................    99
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
    Committee tsunami trip reports:
        Blank, Jonah, professional staff member..................     2
        Rubin, Nilmini, professional staff member................     7
McClymont, Mary, president and CEO, Interaction, Washington, DC..    81
    Prepared statement...........................................    84
Natsios, Hon. Andrew S., Administrator, U.S. Agency for 
  International Development, Washington, DC......................    35
    Slides presented.............................................    40
    Prepared statement...........................................    53
    Response to question submitted for the record by Senator 
      Lugar......................................................   128
Toole, Daniel, Director, Office of Emergency Programs, UNICEF, 
  New York, NY...................................................    88
    Prepared statement...........................................    91
Wolfowitz, Hon. Paul, Deputy Secretary, Department of Defense, 
  Washington, DC.................................................    29
    Prepared statement...........................................    32
    Responses to questions submitted for the record by Senator 
      Lugar......................................................   123

  Additional Prepared Statements and Other Material Submitted for the 
                                 Record

Human Rights First, prepared statement...........................   108
Indian Ocean--Earthquake and Tsunamis............................   129
International Organization for Migration (IOM) Briefing to Staff 
  of the Senate Foreign Relations Committee......................   117
Siddharth, Veena, Washington director, Human Rights Watch/Asia, 
  prepared statement.............................................   116
Yuan, Nancy, vice president, director, the Asia Foundation, 
  Washington, DC, prepared statement.............................   120

                                 (iii)

  


                   TSUNAMI RESPONSE: LESSONS LEARNED

                              ----------                              


                      THURSDAY, FEBRUARY 10, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 9:32 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Richard G. Lugar, chairman of the 
committee, presiding.
    Present: Senators Lugar, Chafee, Coleman, Murkowski, Biden, 
Sarbanes, Feingold, and Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Today the committee meets to discuss our Nation's response 
to the tsunami that struck on December 26, 2004, causing death 
and destruction in at least 12 countries. The tsunami created a 
humanitarian tragedy of incredible proportions. According to 
the U.S. Agency for International Development, more than 
160,000 people are confirmed dead; 140,000 people are still 
missing; and countless people were injured. More than 1 million 
people remain homeless.
    Beyond the comprehensive casualty figures, the tsunami has 
left deep scars on the societies of the Indian Ocean region. 
For example, the Government of Indonesia estimates that 700 to 
1,100 of its schools were destroyed and that 1,750 primary 
school teachers are dead or missing. Nearly 180,000 students 
have no schools to attend.
    The United Nations International Labor Office estimates 
that the tsunami wiped out jobs for 600,000 people in Indonesia 
alone, and more than 400,000 in Sri Lanka. An additional 
100,000 are thought to be out of work in Thailand. Many of the 
people who lost their jobs were fishermen, farmers, 
shopkeepers, or workers in the tourism industry. The tsunami 
destroyed fishing boats and nets, and wiped out acres of 
farmland, leaving behind high concentrations of sea salt that 
must be washed out before crops can grow again.
    Statistics, however, cannot quantify the psychological 
impact of the disaster. They cannot convey the grief of the 
fisherman who has lost his family and his livelihood. They 
cannot explain the defeat of an elderly woman who has lost 
everything she has worked her whole life to earn. They cannot 
capture the fear and disorientation of children who experienced 
this disaster.
    On behalf of the Foreign Relations Committee of the Senate, 
I want to express our deepest sympathy to the victims of this 
tragedy. While financial and in-kind assistance cannot 
compensate for the huge loss of life that countries in the 
region have suffered, the contributions of the United States 
and many other nations can help stabilize the region and assist 
survivors in rebuilding their lives. As the world leader in 
international disaster assistance, the United States is working 
closely with the international community to implement the most 
effective response possible in the coming months. In addition, 
American citizens, businesses, and organizations have donated 
an estimated $700 million directly to international relief 
efforts.
    Beyond the compelling humanitarian reasons for swift 
action, a stable and prosperous Asia is essential to the global 
effort on a range of shared challenges, including weapons 
proliferation, terrorism, narcotics, and contagious diseases. 
The economic and political consequences of this natural 
disaster could be even more severe unless we commit ourselves 
to advancing a strong recovery in the region.
    President Bush has requested $950 million in tsunami 
disaster relief. I am confident that Congress will come to an 
agreement on this aid package. We also must ensure that the 
United States contribution to tsunami relief does not come at 
the expense of our other international commitments, including 
those related to poverty-stricken Africa.
    The Foreign Relations Committee has been working with the 
executive branch to develop legislative initiatives that will 
assist in the tsunami recovery. Committee staff members have 
traveled to Indonesia and Sri Lanka to observe the United 
States and international relief response firsthand. Their 
reports will be included in this hearing record.
    [The committee travel reports follow:]

Tsunami Trip Report Submitted by Jonah Blank, Senate Foreign Relations 
                  Committee Professional Staff Member

    The following is a brief summary of activities during my recent 
StaffDel to Indonesia, Sri Lanka, and Maldives. More detailed findings 
have been presented to the ranking member, and staff members of both 
minority and majority sides.

                            SUMMARY OF TRIP

    From August 2-16, 2005, I conducted a fact-finding trip to 
Indonesia, Sri Lanka, and Maldives. The primary focus was post-tsunami 
reconstruction efforts, with secondary focus on political issues 
including Aceh peace accords (Indonesia) and counterterrorism (all 
three countries). During a brief stopover in London (August 16), I 
consulted with British Foreign Office officials on counterterrorism 
issues, particularly focused on alleged linkages between the July 7 
Underground bombings and the Pakistani terrorist group Lashkar-e Taiba.

                              KEY FINDINGS

INDONESIA
    Tsunami reconstruction: In meetings in Medan (base for much of the 
post-tsunami reconstruction effort for Aceh, as well as nearly all 
reconstruction effort in Nias), local NGO workers, government 
officials, journalists, and civil society representatives made broadly 
congruent points:

  <bullet> The U.S. naval assets and other military personnel deployed 
        to the region had a tremendously positive impact on local 
        sentiment regarding America. U.S. military personnel were 
        described as very efficient, very effective, and excellent 
        good-will ambassadors. The efforts of the U.S. military had a 
        ripple effect, in that they prompted the Indonesian military 
        (TNI) to become more effective in order to avoid being shamed 
        by comparison. Moreover, the human touch brought by U.S. 
        military personnel helped put a new face on the image of 
        America generally presented to the Indonesian public by news 
        from Iraq and elsewhere: Pictures of servicemen and 
        servicewomen playing with children, helping rescue elderly 
        people, digging wells, etc., provided better public diplomacy 
        than any effort currently underway.
  <bullet> In general, however, reconstruction efforts are not 
        proceeding quickly enough to satisfy the hundreds of thousands 
        of displaced citizens. Acehnese interlocutors said that as of 
        August, only 10 percent of the post-tsunami promises regarding 
        reconstruction projects had been kept; they warned that a 
        failure to meet the expectations of the populace could cause 
        the agreement between the government and GAM (the Acehnese 
        rebel group), signed August 15, to fall apart. Journalists 
        agreed that popular dissatisfaction with the pace of 
        reconstruction was growing. There was also concern about 
        possible relocation of fishing communities to inland sites, 
        where they would be forced to live on handouts rather than 
        being able to earn a living. According to several 
        interlocutors, the Multidonor Trust Fund (MDTF) had significant 
        amounts of money available for projects, but access was delayed 
        by Ministry of Finance redtape, and by poor coordination 
        between the various ministries, donor countries, and NGOs. The 
        BRR (government coordinating branch) is well-intentioned, but 
        hasn't yet done sufficient coordination. More local government 
        input and local autonomy was advocated.
  <bullet> Religious issues were raised regarding certain foreign NGOs, 
        with some Christian groups accused of proselytization or 
        attempts to place Muslim orphans with Christian families 
        abroad. Some 300 orphans were reportedly flown to a Christian-
        run orphanage in Jakarta during the early days of the crisis, 
        leading to a new federal instruction that all orphans be given 
        to the charge only of Muslim groups. The hardline Islamist 
        Islamic Defenders Front (FDI) was working in Aceh and Medan 
        with the Islamist political party PKS, but extremist groups 
        like Laskar Jihad and Laskar Mujaheddin are said to failed in 
        their efforts to establish a foothold in Aceh. Despite concerns 
        about the motives of certain Christian NGOs, foreign NGOs in 
        general were seen in a more favorable light than local groups. 
        ``Local NGOs want to enrich themselves,'' said one 
        interlocutor. Among the foreign NGOs and other organizations 
        cited as being most widely appreciated were IOM, the United 
        Nations, the Red Cross/Red Crescent, Oxfam, Mercy Corps, and 
        Save the Children.

            Site visits in and around Banda Aceh
    Over the course of 3 days (Friday, August 5-Sunday, August 7) I 
visited various sites within the city of Banda Aceh, and at several 
villages in the vicinity. The purpose was to see a representative 
sample of the devestation wreaked by the tsunami, and the 
reconstruction efforts underway. My hosts were the personnel of the 
USAID mission, accompanied by implementing partners from the NGO 
subcontractors.

  <bullet> Village of Gurah: This prosperous seaside community was 
        almost entirely obliterated by the first wave. The cupola of a 
        mosque was carried approximately 2 kilometers inland by the 
        water, and deposited (intact) in the middle of a rice paddy. 
        The village had about 650 inhabitants before the tsunami, of 
        whom only 155 survived. The economy of the village was based on 
        rice farming and fishing.
  <bullet> Bazaar around Grand Mosque in Banda Aceh: This site, the 
        economic and religious center of Aceh's capital, had been a 
        scene of devastation broadcast around the world in December and 
        January. Now, the sight was far more benign. The mosque itself 
        sustained little major damage, with the most enduring damage 
        limited to a freestanding minaret. The debris that had 
        blanketed the mosque grounds and all surrounding streets after 
        the tsunami has been largely cleared away. The bazaar, located 
        very close to the masjid, has been moved from a two-storey 
        building into a set of stalls directly abutting the mosque. The 
        site of the old bazaar remains ruined: The lower level is still 
        full of waterlogged debris, while the upper level is filled 
        with incinerated waste (trash on the upper level dried out and 
        could be incinerated, but there was no easy way of disposing of 
        the waste at ground-level). Throughout the city of Banda Aceh, 
        much of the worst-afflicted buildings have been destroyed or 
        rebuilt. Many, however, remain unrepaired: Often this is due to 
        legal challenges regarding ownership (owners deceased, or 
        documents establishing ownership destroyed and courts unable to 
        render quick judgements among various claimants).
  <bullet> Village of UI Lee Lee: More than 7 months after the tsunami, 
        this (like many villages) remains virtually a wasteland. 
        According to USAID staff, 85 percent of population here were 
        killed, and 80 percent of houses destroyed.
  <bullet> Village of Lapunk: According to USAID staff, this village 
        suffered devestation similar to that of UI Lee Lee. About 80 
        percent of the houses were destroyed, and about 855 inhabitants 
        were killed. The local mosque was left standing--giving rise to 
        varying interpretations (either supernatural causes, or 
        superior building materials).

            Meetings in Jakarta
    My meetings with Indonesian legislators focused on a recently 
passed House bill, requesting a State Department report on legality of 
Indonesian control of West Papua. This issue caused considerable 
concern among Indonesian parliamentarians of all political parties. My 
discussions and statements backed up the message being put forward by 
the U.S. Embassy and other administration officials.
    I also had meetings with U.S. Government personnel on a variety of 
topics. Appropriately cleared staff are encouraged to seek a detailed 
debrief.

SRI LANKA

            Tsunami reconstruction site visits
    On a 2-day trip outside the capital, I visited sites in the region 
around Galle, Mathura, and Dondra. USAID and NGO staff emphasized that 
these southern sites had not been as badly affected as sites in the 
north and northeast, which suffered from the direct tsunami wave rather 
than the washback.

  <bullet> CHF transitional housing site. Houses here have concrete 
        foundation and wall-base, with metal frame and plywood walls 
        covered by USAID plastic sheeting, topped by an aluminum roof. 
        Houses are laid out at angles, rather than like rows of 
        barracks or trailer parks: This provides more privacy (not 
        staring right into neighbor's house), and also avoids the 
        stigma of resembling barracks set up for plantation workers 
        during colonial times. This last point is of great cultural 
        significance, since the local Sinhalese population maintains 
        significant cultural taboos regarding association with the 
        Tamil plantation workers. In the days immediately after the 
        tsunami, a local political party (the JVP) set up barracks-type 
        housing, and it was shunned as soon as the inhabitants were 
        able to find alternate places to camp.
  <bullet> Transitional housing built by Irish NGO GOAL. Here the 
        structures were similar to those of CHF, but with wooden frame 
        substituted for metal ones, and sited in rows rather than at 
        angles. Locations were sometimes problematic: One camp was 
        located so far from the ocean that the residents (members of a 
        fishing community) would have to take a bus to reach their 
        fishing boats every morning.
  <bullet> Saw, but did not visit, transitional housing built by 
        WorldVision (between Colombo and Galle). According to local 
        interlocutors, these structures were not well designed: The 
        combination of small size and corrugated tin walls made them 
        into ``convection ovens.'' Moreover, WorldVision's evangelical 
        outlook (and policy of mandating staff attendance at daily 
        prayer meetings) was cited as an irritant with the local 
        (predominantly Buddhist) population. Catholic Relief Service, 
        by contrast, was described as a good model of a religiously 
        affiliated organization that managed to keep its doctrinal 
        identity strictly segregated from its humanitarian mission.

    In discussions with NGO workers at these sites, several common 
threads of comment emerged:

  <bullet> Where to put the displaced people? Land is scarce, and 
        almost all of it is already occupied by other families. Fishing 
        communities can't be relocated inland.
  <bullet> Government-mandated setbacks are problematic. On the 
        southern coasts, no new construction is permitted within 100 
        meters of the high-water mark. In the north and northeast, the 
        setback is 200 meters. These restrictions puts an enormous 
        amount of scarce land off limits. It also raises equity issues, 
        and the suspicion that the government is favoring Sinhalese 
        (who predominate the southern areas) over Tamils and Muslims 
        (who predominate in the north and northeastern areas). There is 
        also suspicion that the setback ordinance is a ploy, in order 
        to clear fishing communities from prime seafront land in order 
        to clear the way for development of tourist resorts.
  <bullet> Equity issues with other poor people. IDPs from the long-
        running civil war have been displaced for years, even decades--
        yet they get leapfrogged by tsunami IDPs. And ordinary poor 
        people, who are often equally destitute, get nothing at all 
        from the new aid influx.
  <bullet> Unneeded material aid is a burden. Well-meaning, but 
        unprofessional, donors have sent vast amounts of material to 
        Sri Lanka--everything from tinned food to children's toys to 
        clothing. Much of this material is culturally or climatically 
        inappropriate (even ski parkas have been received by this 
        tropical nation). Uncoordinated donations of goods and services 
        by a raft of miscellaneous groups often does more harm than 
        good: The professional NGOs not only must spend significant 
        time sorting out the useful from the useless donations, but it 
        finds the planning and carrying out of reconstruction projects 
        impeded by ad-hoc efforts of amateurs. When an amateur group 
        slaps up a dangerously substandard housing or well project (for 
        example), this causes popular resentment against professionals 
        who must work more slowly, and who may have to tear down a 
        poorly built structure in order to rebuild it correctly.

            Meeting in Colombo with Foreign Minister Lakhsman 
                    Kadirgamar
    On Thursday, August 11, I met (together with Charge d'Affaires 
James Entwhistle) with Sri Lankan Foreign Minister Lakhsman Kadirgamar. 
We had a productive discussion on a variety of topics, including 
tsunami reconstruction, government-LTTE ceasefire, and other political 
issues. When I asked the Foreign Minister what he considered the most 
important message he would like me to take back to Washington, he cited 
the importance of keeping the LTTE on the FTO list, and of pressuring 
our European, Asian, and Canadian allies to join in cutting off foreign 
sources of LTTE support. He noted that his own residence had been 
aggressively surveilled by LTTE cadres, apparently bent on 
assassination.
    On Friday, August 12, Foreign Minister Kadirgamar was shot and 
killed while swimming at his personal residence. The sniper (according 
to public accounts) had carried out the operation with great 
professionalism, staking out the residence for a long period from a 
neighboring building, and targeting the Foreign Minister with a barrage 
of 7.62mm bullets fired from an automatic rifle equipped with a custom-
built tripod, a silencer, and a night-vision scope. Sri Lankan and 
international observers have attributed the action to the LTTE.

MALDIVES
    Program in the Maldives centered around two issues: Tsunami 
reconstruction, and the threat of Islamist extremism.
            Tsunami reconstruction
  <bullet> Site visit to tsunami-hit island, Kaf Guraidhoo. At the 
        height of the tsunami, approximately 80 percent of the nation 
        of the Maldives was submerged. Some islands were hit worse than 
        others, and many of the worst-affected are located too far from 
        the international airport on Male to be reached in a visit as 
        brief as the one I was able to make. Kaf Guraidhoo was chosen 
        as a site visit not for the intensity of its damage so much as 
        for the logistics: It could be visited from Male by speedboat, 
        rather than chartering an expensive seaplane.
  <bullet> On Kaf Guraidhoo, a very small community, 43 houses were 
        destroyed, four people were killed, and 400 individuals were 
        (and still are) displaced. The housing is being rebuilt by the 
        UNDP, but progress is going slowly. During our visit, the 
        frustration of the inhabitants was readily visible: We 
        witnessed an angry tirade by the village headman, directed at 
        the Maldives Government officials who accompanied us. He 
        demanded to know why, 7 months on, the community members still 
        were living in tents that provide little shelter from the 
        sweltering heat and monsoon rain.
  <bullet> Traditional building material on the atolls is coral, and 
        the older buildings still use this as their wall material. It 
        has the advantage of being light, airy, and free--but has been 
        banned by the government in an attempt to preserve the nation's 
        one irreplaceable natural resource (without vibrant coral 
        reefs, the Maldives would lose its vital tourist revenue). 
        Logistical challenges of getting substitute material (concrete 
        for cinderblocks) out to the remote, far-flung atolls, however, 
        are not insubstantial.
  <bullet> A UNDP team was visiting Kaf Guraidhoo during our site 
        visit, and we consulted with them about the difficulties they 
        faced. They were well aware of the popular discontent at the 
        pace of reconstruction, but noted that this was only one among 
        an enormous number of sites to be rebuilt. During the tsunami, 
        this entire island had been submerged, up to the level of a 
        person's knees. The primary UNDP effort was the building of a 
        community center. In the meantime, inhabitants took what 
        shelter they could beneath the plastic sheeting bearing the 
        symbol of USAID--and of the Saudi relief agency.
  <bullet> Flooding was not limited to the smaller islands. According 
        to government interlocutors, the capital city of Male was 
        entirely flooded as soon as the wave hit at about 9:20 a.m.

            Impact of Islamist ideology
    The Maldives is an overwhelmingly (indeed, constitutionally) Muslim 
nation, but has traditionally been socially and religiously moderate. 
Several official interlocutors expressed concern at the rise of 
Islamist ideology, and worried about the impact this might have upon 
the nation's fledgling move toward democratization.

  <bullet> Minister of Atolls Development Mohamed Waheed Deen 
        (essentially the Minister of Interior for islands beyond Male) 
        noted that many wealthy gulf residents came to Maldives on 
        holiday. While this provides jobs and income, it also fuels 
        resentment at the disparities of wealth evident between the 
        local inhabitants and their neighbors from the Middle East.
  <bullet> Minister of Defense and National Security Ismail Shafeeu 
        noted the problem of drugs, which was closely tied to the rapid 
        opening of the Maldives to visitors from South Asia and the 
        Middle East. Unprocessed heroin is a major threat, he noted, 
        with the adult addict population estimated by some studies as 
        high as 200,000-500,000 (about 10 percent of overall 
        population). Due to the Maldives' open economy, it is easy to 
        launder money here: ``We're in a bad spiral now, fighting it, 
        but not making headway.'' This issue is linked with the 
        extremist threat, since various groups have used criminal 
        enterprises to raise money for terrorism in other parts of the 
        world. During the 1980s and 1990s, many Maldivian boys went to 
        Pakistani madrasas, often sponsored and funded by Saudi 
        charities. Many have now come back home, and retained the 
        ideology of their ``sponsoring agencies.'' This is a potential 
        threat for the future, he said.

UNITED KINGDOM
    On August 16, en route from Sri Lanka back to Washington, I had 
discussions in London with officials from the British Foreign Office 
who specialize on South Asia and counterterrorism issues. The focus of 
these discussions was putative linkage between the July 7 bombings in 
the London Underground and the Pakistan-based terrorist group Lashkar-e 
Taiba.
    These discussions were informative and useful. Due to the sensitive 
nature of the topic, appropriately cleared staff are encouraged to seek 
a detailed debrief from me in an appropriately secure setting.
                               itinerary

August 2............................  Depart Washington.
August 4............................  Arrive Medan, Indonesia.
                                      Meeting at U.S. consulate, on
                                       logistics of tsunami/earthquake
                                       aid provision via Medan and other
                                       parts of Sumatra.
                                      Participants: R. Simanjuntak, Abo
                                       Mutalib Lugus.
                                      Meeting at U.S. Consulate:
                                       Acehnese elders.
August 5............................  Meeting with journalists and NGO
                                       workers.
                                      Afternoon: Transit to Banda Aceh.
August 6............................  Aceh: Site tours of USAID projects
                                       and NGO sites in Banda Aceh and
                                       environs. Visit to village of
                                       Gurah.
                                      Meeting with subcontractor
                                       Muhammad Najib.
                                      Meeting with Asia foundation's
                                       Human Hamid.
August 7............................  Site tours in Banda Aceh and
                                       villages:
                                        Village of UI Lee Lee,
                                        Village of Lapunk,
                                        Transit to Jakarta.
August 8............................  Jakarta: Embassy brief, meeting
                                       with Amb Pascoe, and meetings
                                       with Indonesian Government
                                       officials (Sudjadnan
                                       Parnohadiningrat and others).
August 9............................  Transit to Sri Lanka.
August 10...........................  Site visits between Colombo and
                                       Mathura (CHF and GOAL).
August 11...........................  Site visits between Galle and
                                       Colombo (Mercy Corps and others).
                                      Meeting with Foreign Minister
                                       Lakshman Kadirgamar.
August 12...........................  Transit to Maldives.
                                      Meeting with Atolls Minister
                                       Mohamed Waheed Deen and other
                                       Maldivian officials.
August 13...........................  Site visit to tsunami-hit Kaf
                                       Guraidhoo.
August 14...........................  Meetings with Maldives Government
                                       officials, including Minister of
                                       Defense and National Security
                                       Ismail Shafeeu.
                                      Transit to Sri Lanka.
August 15...........................  Depart Sri Lanka. Transit to U.K.
August 16...........................  Meetings at British Foreign
                                       Office. Transit to Washington.

End Mission


                                 ______
                                 

    Tsunami Trip Report Submitted by Nilmini Rubin, Senate Foreign 
             Relations Committee Professional Staff Member

    From January 8-17, 2005, SFRC staffer Nilmini Rubin traveled to Sri 
Lanka to observe the impact of the December 26, 2004, tsunami and the 
effectiveness of the relief and aid response. As part of Congressman 
Leach's delegation \1\ for 2 days, I traveled to the south of the 
island and participated in official meetings. Afterward, I traveled to 
the mid-eastern part of Sri Lanka with CARE USA President Peter Bell to 
observe relief operations and then joined USAID staff to look at 
recovery in the southeast part of the island. I made a point to observe 
the impact on affected people in Sinhalese, Tamil, Muslim and Burgher 
towns and neighborhoods.
---------------------------------------------------------------------------
    \1\ Congressman Leach's delegation included Senators Brownback and 
Corzine, Representatives Blumenauer, Faleomavaega, Ferguson, Flake, 
Garrett, Gilchrest, Shays, Smith, Watson, Pallone, as well as staffers 
Jamie McCormick, Doug Anderson, Landon Fulmer, and Evan Gottesman.
---------------------------------------------------------------------------
    The tsunami affected most of Sri Lanka's coastline, killing more 
than 30,000 people and destroying more than 100,000 homes leaving 
nearly 600,000 displaced.\2\ This disaster hit 2 years after the 
ceasefire between the Liberation Tigers of Tamil Eelam (LTTE) and the 
Sri Lankan Government which stopped the violence, mainly in the north 
and east, that had resulted in more than 64,000 deaths since 1983.\3\ 
In addition, the country was recovering from the loss of between 25,000 
and 50,000 people as a result of the Marxist Janatha Vimukthi Peramuna 
(JVP) insurrection in the south in the 1970s and 1980s.\4\
---------------------------------------------------------------------------
    \2\ Sri Lanka and Maldives Tsunami Disaster Action Response Plan: 
USAID/OFDA: Bringing Hope to People.
    \3\ Bruce Vaughn, ``Sri Lanka: Background and U.S. Relations,'' 
Congressional Research Service, February 11, 2004.
    \4\ Europa World Year Book, page 3934.
---------------------------------------------------------------------------
                       SUMMARY OF RECOMMENDATIONS

  <bullet> Special Envoy. The creation of a Special Envoy could 
        maintain pressure on both sides to wage peace.
  <bullet> Financial Controls. Insistence that all World Bank-proposed 
        financial controls are accepted by the Sri Lankan Government 
        and that the central Sri Lankan Government set up a system to 
        consult with the district governments on spending could thwart 
        corruption.
  <bullet> Housing and land titling. Permanent housing should become 
        the main development focus as it was in terrible need. Land 
        issues are very difficult and Sri Lanka is a very densely 
        populated country with serious titling problems.
  <bullet> Early Warning System. An early warning system for tsunamis 
        and other types of danger should be established. It would have 
        saved lives in Sri Lanka. As the destruction was in a ring less 
        than a mile wide around the island, even a 15-minute warning 
        would have allowed people to move to a safe area.

                              IMPRESSIONS

    I learned that there are three levels of response to this and other 
disasters: Immediate relief; intermediate rehabilitation; and long-term 
recovery. While there has been a tremendous focus on immediate relief, 
the major challenge will be long-term recovery. One aid worker stated 
``we need to do more than restore people to their impoverished state.'' 
He asserted that economic development is, in part, disaster mitigation 
as the poor tend to be inordinately affected by natural disasters. Most 
observers agreed that the tsunami hit the poorest.
    There are a number of complexities in Sri Lanka. Housing and land 
for internally displaced people from the ongoing ethnic conflict is 
still pending--many of them have been living for years in shacks. Also, 
many of the villages near the affected areas are very poor and there 
are concerns about the fairness of helping the tsunami victims and not 
their poor neighbors.
    The Sri Lankan Government and Sri Lankan civil society were the 
first responders to the tsunami disaster before the international 
community was in place. While many acknowledged that the Sri Lankan 
Government was doing the best it could to respond to the tsunami 
disaster, there was concern that Sri Lanka was taxing aid provided to 
the victims. According to Tara de Mel, National Operations Coordinator, 
the Government of Sri Lanka continues to impose duties (averaging 18 
percent) on private donations that are sent directly to Sri Lanka, 
rather than going through international NGOs or governments.
    Reportedly, U.N. agencies held a meeting 2 hours after the tsunami 
hit Sri Lanka. The United Nations helped with information gathering 
mechanisms and helped the government establish the National Operations 
Center. UNICEF had already been working in many of the affected areas 
to address the impact of the civil conflict.

                                  NGOS

    I found international NGOs like Save the Children partnering with 
local NGOs to provide assistance. Similarly, CARE, which has been in 
Sri Lanka since 1956, used its relationships with the communities to 
provide assistance. I met a number of new international NGOs to Sri 
Lanka that were trying to help but have no sense of the political 
situation which makes them vulnerable and could result in unintended 
consequences. Established NGOs referred to the new international NGOs 
as ``parachuters.''

                            U.S. GOVERNMENT

    Shortly after the tsunami, USAID/OFDA provided more than $23.3 
million to support emergency relief supplies, health, water and 
sanitation, cash-for-work, transitional shelters, psycho-social 
support, and child protection activities.\5\
---------------------------------------------------------------------------
    \5\ Sri Lanka and Maldives Tsunami Disaster Action Response Plan: 
USAID/OFDA: Bringing Hope to People.
---------------------------------------------------------------------------
    USAID has a base of operations in Ampara, where more than 10,000 
died as a result of the tsunami. Along those lines, USAID was one of 
the few official donors with offices outside of Colombo (in Trincomalee 
and Ampara) and it has allowed USAID to become a nerve center, 
providing information to the new groups. USAID had previously worked 
with fishing communities, so reaching back out to replace boats will be 
quite easy for them. I saw USAID boats being used to ferrying people in 
an area where a bridge had been washed out. On the other side of the 
bridge was a badly affected community.
    In Ampara, USAID gave grants in kind and did not distribute any 
cash so as to impede the misuse of funds. I was very impressed with the 
USAID staff and the local hires. They were an important resource for 
other NGOs, had a good understanding of the sensitivities in Sri Lanka 
and were highly professional.
    I also saw U.S. Marines assisting in the recovery, clearing 
destroyed buildings in preparation for rebuilding.

                     POLITICIZATION OF THE RECOVERY

    According to Peter Harrold of the World Bank, two-thirds of the 
damage from the tsunami was in the northeast provinces where many Tamil 
people live. So, the nature of collaboration between the government and 
the LTTE adds a complicating factor that has to be addressed with care. 
The World Bank official added that the disaster occurred when the peace 
process was at its lowest ebb since the ceasefire in October 2002. At 
first, many were optimistic that the disaster would lead to renewed 
interest, by both sides, in peace; but worry was setting in.
    The politicization of the recovery was clear. The government seemed 
to be consolidating power--rather than devolving--in the wake of this 
crisis. I saw internally displaced peoples (IDP) camps that were funded 
by the Tamil Rehabilitation Organization (allegedly linked to the LTTE) 
and by the JVP (a socialist nationalist political party). The JVP and 
the TRO were separately setting up their own camps. The JVP was driving 
around passing out rice, lentils, spices, and pumpkins for people to 
cook. They were cleaning up debris as well.
    There was concern about the relief reaching all affected people in 
Sri Lanka--both in the government-held areas and the LTTE controlled 
areas. In the East, the Sinhalese (majority) tend to live more inland 
and the Tamils and Muslims live closer to the coast. Some felt that it 
was possible that the inflow of tsunami relief would inflame ethnic 
tensions because some--who may be very poor regardless of their impact 
by the tsunami--would be left out.
    Ampara was the part of Sri Lanka most destroyed by the tsunami--
more than 10,000 have died here. However, it was the area where I saw 
the least help. It takes about 10 hours from Colombo to get to some of 
the villages that I visited in Ampara. There was a minimal 
international presence there. Temporary shelter consisted of plastic 
sheeting on sticks. There was food and water. There was serious and 
obvious depression--many were afraid to move back to where they lived. 
The sanitary facilities were poor.

                   RESPONSE OF THE DEVELOPMENT BANKS

    The most critical financing issue to watch was that of the 
multilateral development banks (MDBs) as the MDBs make up a significant 
portion of the government's budget. The World Bank and Asian 
Development Bank are currently conducting needs assessments in Sri 
Lanka. The World Bank has announced it will provide $100 million in 
initial financial support to Sri Lanka with additional funding for 
longer term reconstruction efforts.\6\ The Asian Development Bank 
announced that between $100 million and $150 million in new operations 
could be processed in the short to medium term, devoted to the 
reconstruction effort in Sri Lanka.\7\
---------------------------------------------------------------------------
    \6\ World Bank website: http://web.worldbank.org/WBSITE/EXTERNAL/
NEWS/0,,contentMDK: 
20318541menuPK:34463pagePK:64003015piPK:64003012theSitePK:4607,00.ht
ml.
    \7\ Asian Development Bank website: http://www.adb.org/Media/
Articles/2005/6619_tsunami_ impact_Sri_Lanka/default.asp.
---------------------------------------------------------------------------
    The World Bank Representative, Peter Harrold, explained that the 
World Bank was pushing for accountability structures for the tsunami 
relief money. He said the World Bank has asked the Sri Lankan 
Government to (1) create a web-based system so it is easy to track the 
money; (2) continue to follow procurement rules and competitive 
procedures even in the disaster environment; (3) require an 
international audit; and (4) have citizen accounting system so the 
people can say if the money has translated into impacts on the ground. 
The Sri Lankan Government has not yet agreed to this system, Mr. 
Harrold added.
    One accountability structure not mentioned, specifically, by the 
World Bank in our meeting that was very important according to Nilan 
Fernando of the Asia Foundation, was the consultation and involvement 
of local and provincial governments. Some others report that the 
government was trying to secure direct budget support with minimal 
controls.

                INTERNALLY DISPLACED PEOPLE (IDP) CAMPS

    I visited a number of camps, with varying design, for people 
displaced by the tsunami. Many IDPs were in schools and temples where 
the bathroom facilities are not adequate. I saw one of their camps in a 
Buddhist temple with more than 800 people and 2 toilets. They were 
planning to dig more latrines but were inundated with needs.
    Most women I spoke to felt safe--the Sri Lankan military has posted 
officers at some of the camps. Yet still, domestic violence was a 
problem in the camps. Even though most villages were kept together, 
domestic violence continues. Statistics do not exist, but CARE 
responded to 4 domestic violence complaints on the one day that I was 
traveling with them.

                                SHELTER

    Most of the affected people that I spoke to said that they lost 
everything they owned. They invested all of their money into the 
building of their homes. The women purchased gold jewelry as a store of 
value. I did not meet anyone who had insurance to cover their loss.
    Each affected person that I talked to said that they wanted a new 
home and land. They did not know where the land would come from. Land 
in Sri Lanka, an island the size of West Virginia, is scarce and the 
affected area has a concentrated population. Another major problem in 
Sri Lanka is titling. Many affected people did not have legal title to 
their homes and some of those who did lost their deeds in the wave.
    A significant complication was that many of the people who lost 
their homes were ``fisherfolk'' who need to be near the coast. The 
government's revised regulation on how close to the coast structures 
could be rebuilt was in dispute during my visit.

                                 HEALTH

    Disease incidence was lower than initially expected because of high 
immunization rates and successful cholera prevention programs in Sri 
Lanka according to the World Health Organization representative.
    During my 1-week stay in Sri Lanka, I did not observe any public 
information on HIV/AIDS. I discussed AIDS with a number of Sri Lankans 
who, despite their ethnic and class differences, all asserted that AIDS 
was not a problem in Sri Lanka as it was in other countries. Given risk 
factors in Sri Lanka such as conflict, displacement, tourism, and 
prostitution, I would be surprised if this assertion was true.

                                ELDERLY

    I did not see any tsunami-relief programs targeted to the needs of 
the elderly nor did I meet anyone who knew of any programs for the 
elderly. My concern was that the elderly who are unable to work and 
have lost family members may fall through the cracks.
    During my trip, I was deeply moved by my conversations with elderly 
people. In Batticaloa, I met an elderly lady named Padida Ismael who 
asked me what she should do. For years, she had maintained a small 
corner shop. It was lost in the tsunami, as was her home and all her 
possessions, including all of her clothes. Mrs. Isamael was wearing a 
donated sari. She said that ``it is too late for me. My whole life's 
work is gone.'' Then, she cried.
    I met two elderly ladies in Ampara who sat by the rubble that was 
once their home. They mourned the loss of their community and said they 
had ``no place to go.'' One woman said that her children are now 
homeless, too, so she could not depend on them. The other woman said 
that she lost her son and had no other means of support. They were in 
profound grief.
    Microenterprise and other employment generation mechanisms don't 
help the infirm--who may worked their whole lives for the little they 
had. I was deeply touched by the elderly women that I met. Many of them 
shared a story--she doesn't know what she can do, she is too old to 
work, and she has no one left to take care of her.

                           WOMEN AND CHILDREN

    In Batticaloa, I saw Muslim, Tamil, and Burgher villages erased by 
the wave. Women repeatedly approached me to tell me their stories. They 
often sobbed. They clearly wanted to be heard and to get help.
    The National Child Protection Authority was in the process of 
determining the number of children that are orphaned. They will try to 
trace family members, then will turn to fostering, adoption, and 
orphanages according to the UNICEF representative. According to the 
UNICEF representative, since the tsunami hit on a Sunday, most families 
were together. According to Tammie Wilcuts of Save the Children, more 
parents are missing children than children are orphaned.

                                SCHOOLS

    As I visited villages in Ampara with staff from USAID's Office of 
Transition Initiatives, I could see that a significant percentage of 
the coastal schools were damaged completely or partially. Some schools 
can be salvaged but others cannot.
    UNICEF was helping some set up temporary schools. UNICEF provides 
the plastic sheeting for the roof and the parents are scrounging for 
wood to make frames. UNICEF also provides school kits--a box with a 
blackboard, notebooks, pencils, etc.--almost everything you need to 
start classes. However, these temporary schools will be wholly 
inadequate in the rain. And everyone thinks the temporary schools will 
be in place for at least 6 months. The Canadian Disaster Assistance 
Response Team was looking at how they can provide engineering expertise 
to rebuild some of the schools, USAID was coordinating masons and 
providing tools for volunteers.

                        ENVIRONMENT AND FISHING

    Many argued that the destruction from the tsunami was aggravated by 
the destruction of coral and mangroves in Sri Lanka.
    Reportedly, more than half of the 28,000 vessels in Sri Lanka were 
damaged or lost in the tsunami. As most of the fishing boats on Sri 
Lanka are made of fiberglass, repairs are costly. Fishing is an 
important industry on the island. Not only does it provide the economic 
base to coastal villages, the industry provides the main source of 
protein in the common Sri Lankan's diet. The economic ripple effect of 
the loss of so many seacraft was very evident at camps around the 
country. Resurrecting this important industry is vital to the interests 
of the nation's coastal areas.
    One problem in Sri Lanka before the tsunami was overfishing--
especially near the coast because people here had (and will have again) 
small boats (40 ft.) that don't allow them to go out far. The FAO was 
working with people to get them to pool to buy bigger boats that can go 
out farther and mitigate the coastal problem. The Sri Lankan Prime 
Minster asserted that fishermen from other countries fish in Sri Lankan 
waters.
    The following persons met with me in Sri Lanka:
U.S. Embassy
Jeffrey Lunstead, Ambassador to Sri Lanka and the Maldives
David Willams, Vice Consul
Dean Thompson, Foreign Service Officer
Patricia Mahoney, Foreign Service Officer
Prasad Gajaweera, Political Specialist, U.S. Embassy
U.S. Agency for International Development (USAID)
Carol Becker, Mission Director
Bill Berger, Disaster Assistance Response Team (DART)
Justin Sherman, Country Representative, Office of Transition 
        Initiatives
Benjamin Kauffeld, Health & Humanitarian Assistance Program Manager
Solita Muthukrishna, Project Management Assistant
Lionel Jayaratne
Wayne Brook, Regional Program Manager (Ampara) for Office of Transition 
        Initiatives
Vani Nalayanee, Grants Specialist for Office of Transition Initiatives
Al Sadath, Office of Transition Initiatives
Other U.S. Government
Brigadier General Panter, U.S. Marine Corps
Sri Lankan Government
Prime Minister Rajapakse
Tara de Mel, National Operations Center Coordinator
U.L. Hashim, Director of Education, Zonal Education
Commanding Officer Wickrameratne, Air Force Squadron Leader
M.K. Pathmanathan, Minister of Parliament
International Organizations
Peter Harrold, Country Director, World Bank
Jeremy Carter, Senior Resident Representative, IMF
Miguel Bermeo, Resident Representative, UNDP
Wallaya Pura, Acting Representative, U.N. High Commission for Refugees
Edward Chaiban, Head of Mission/Representative, UNICEF
Dr. Denham Paul, Consultant, World Health Organization
Jeff Taft-Dick, Country Director, World Food Program
Mazlan Jusoh, Representative, Food and Agricultural Organization
Non-Governmental Organizations
Kushil Gunasekera, Unconditional Compassion
Peter Bell, President, CARE USA
Scott Faiia, Country Director, CARE Sri Lanka
Robert Go, Media Adviser, CARE Sri Lanka
Vasuki Jayashankar, Project Director, Prevention of Gender-based 
        Violence, CARE Sri Lanka
Jose Ravano, Emergency Coordinator, CARE Sri Lanka
Nilan Fernando, Representative in Sri Lanka, The Asia Foundation
Tammie Wilcuts, Save the Children
Matthew Parry, Regional Associate, International Disaster Response 
        Unit, American Red Cross
Lynne Robinson, Mercy Corps
Sri Lankans affected by the Tsunami
P.H. Punayasiri
Sedhu Segeruma
Megeni Avama
Rosalyn Peralya
M.H. Susilawathie
K. Punyawathie
K. Somawathie
L. Neel Samantha Silva
R.E. Ganatilaka
Manel Galage
D.P. Upasiri
Alageiedh Sarasinamam
Padidah Ismael
Palliani
Other Sri Lankans
P. Perera, KPMG
A. de Silva, volunteer coordinator of Taiwanese doctors
S. de Silva, tourist industry
M. Mahendrajah, retired
S. Weerasinghe, retired
D. Weerasinghe, homemaker
Canadian Disaster Assistance Response Team
Bill Wyman, coordinates Canadian Military with NGOs
Mr. Gilbert, volunteer coordinator
Mr. Yergeau, field engineer
Mr. D'arcangelo, water and sanitation
Mr. Bettis, construction
My Trip Schedule

1/8                                Departed D.C.
1/9                                En route to Colombo, Sri Lanka.
1/10                               Arrived in Colombo, met with
                                    Ambassador Lunstead and USAID
                                    Mission Director Carol Becker.
1/11                               Toured tsunami-affected areas in
                                    Galle, Hikkaduwa, and Seenigama,
                                    witnessed U.S. Marines clearing
                                    rubble at a school, a cleanup
                                    project with local volunteers, the
                                    distribution of aid at a relief
                                    center for displaced persons, and a
                                    damaged tourist hotel. Observed
                                    National Operations Center.
1/12                               Met with international organizations
                                    including the World Bank, UNICEF,
                                    U.N. Development Program, the World
                                    Health Organization, and the World
                                    Food Program.
1/13                               Toured tsunami-affected areas in
                                    Batticaloa, Kattankudy,
                                    Kurukkalmadam, Dutch Bar, and
                                    Navalady, met with CARE staff,
                                    observed a relief distribution in
                                    affected community.
1/14                               Toured tsunami-affected areas in
                                    southern Ampara including Oluvil,
                                    Palamanai, Akkarapatu, Tirrukkovil,
                                    Komari, and Pottuvil. Observed
                                    damaged public schools and saw
                                    temporary schools supported in part
                                    by UNICEF. Visited IDP camps.
1/15                               Toured tsunami-affected areas in
                                    northern Ampara including Kalmunai,
                                    Karaitivu, and Nitavur. Saw
                                    political groups providing relief.
1/16                               Meetings with individuals and
                                    organizations in Colombo.
1/17                               Returned to D.C.


Background on Sri Lanka \8\
    The Democratic Socialist Republic of Sri Lanka (formerly known as 
Ceylon) is an island in the Indian Ocean with a population of about 19 
million.
---------------------------------------------------------------------------
    \8\ Drawn mainly from State Department http://www.state.gov/r/pa/
ei/bgn/5249.htm.

  <bullet> Sinhalese make up 74 percent of the population and are 
        concentrated in the densely populated southwest.
  <bullet> Ceylon Tamils, citizens whose South Indian ancestors have 
        lived on the island for centuries, total about 12 percent and 
        live predominantly in the north and east.
  <bullet> Indian Tamils, a distinct ethnic group, represent about 5 
        percent of the population. The British brought them to Sri 
        Lanka in the 19th century as tea and rubber plantation workers, 
        and they remain concentrated in the ``tea country'' of south-
        central Sri Lanka.

  <bullet> Other minorities include:

    <bullet> Muslims, about 7 percent of the population;
    <bullet> Burghers, who are descendants of European colonists, 
            principally from the Netherlands and the United Kingdom 
            (U.K.); and
    <bullet> Aboriginal Veddahs.

  <bullet> Most Sinhalese are Buddhist; most Tamils are Hindu. The 
        majority of Sri Lanka's Muslims practice Sunni Islam. Sizable 
        minorities of both Sinhalese and Tamils are Christians, most of 
        whom are Roman Catholic.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    The Chairman. This disaster has taken an incredible toll on 
children. The United Nations Children's Fund estimates that 
children comprise more than one-third of all deaths. Tens of 
thousands of children have lost family members and friends and 
are coping with unspeakable trauma. Nearly 35,000 children have 
been orphaned, and many more have been separated from their 
families. In addition to facing the risks of disease, hunger, 
and exposure, these children are vulnerable to being trafficked 
for sexual exploitation, forced labor, conscription, and other 
purposes.
    I would like to highlight three initiatives undertaken by 
this committee that deal specifically with the problems faced 
by children and other vulnerable populations.
    First, today I am introducing a resolution urging the 
United States to ratify ``The Protocol to Prevent, Suppress, 
and Punish Trafficking in Persons, Especially Women and 
Children,'' and the underlying ``U.N. Convention Against 
Transnational Organized Crime.'' U.S. ratification of these 
agreements would improve our ability to coordinate law 
enforcement efforts designed to protect children and vulnerable 
populations. We also must encourage other nations to ratify 
these agreements, which require parties to criminalize 
trafficking in persons and to cooperate with international law 
enforcement responses to trafficking.
    Second, today I will reintroduce ``The Assistance for 
Orphans and Other Vulnerable Children in Developing Countries 
Act of 2005.'' I originally introduced this bill in 2004. It 
would help address the consequences of the catastrophic growth 
in the number of children orphaned by AIDS and other causes. In 
sub-Saharan Africa alone, an estimated 14 million children have 
been orphaned by AIDS, and this number is projected to soar to 
more than 25 million by 2010. The bill would support community-
based organizations assisting these children, reaffirm our 
commitment to the international school lunch program, and 
develop ways to reduce school fees so that orphans are not 
forced to leave school because of cost, and promote the 
establishment and enforcement of inheritance rights for women 
and children. Although the bill is aimed at the AIDS orphan 
crisis, it would be applicable to the orphans who lost their 
families in the tsunami disaster.
    I want to thank the five cosponsors of this bill: Senators 
Boxer, Chafee, Coleman, Feingold, and Smith. They have been 
active in the bill's development and they have demonstrated an 
unwavering commitment to achieving bipartisan success on this 
important bill.
    Third, Senator Biden and I are working on a bipartisan 
legislative effort targeted at providing greater protection to 
women, children, and other vulnerable populations in the 
context of war or disaster. This is an issue of longstanding 
interest to Senator Biden, and he introduced the original 
``Women and Children in Conflict Protection Act'' during the 
last Congress. We are consulting closely on how to craft a bill 
that would gain broad support within the Senate so it could be 
passed in this session.
    The tsunami disaster has provided a tragic model of what 
can happen to women, children, the elderly, and the disabled in 
the aftermath of disaster or conflict. These vulnerable 
populations face extreme risks during periods of instability or 
upheaval. In addition to threats from trafficking, abuse, and 
other predatory activities, vulnerable populations are 
sometimes blocked from assistance flowing to disaster areas by 
stronger or more politically connected groups. Our staffs 
witnessed this problem while traveling in the Indian Ocean 
region.
    And I appreciate Senator Biden's steadfast leadership on 
this issue and his commitment to getting this bill passed. I am 
hopeful that our hearing today will provide additional insights 
that can be applied to perfecting this legislation.
    Today we are joined by three distinguished panels. They 
will discuss the United States and international responses to 
the tsunami.
    On the first panel, we welcome our friend, the 
distinguished Senator, Majority Leader Bill Frist, who has 
traveled to the Indian Ocean region to personally review relief 
efforts.
    On the second panel, we welcome Alan Larson, Under 
Secretary of State for Economic, Business and Agricultural 
Affairs; Paul Wolfowitz, Deputy Secretary of Defense; and 
Andrew Natsios, Administrator of the U.S. Agency for 
International Development. We look forward to the insights of 
these three friends of the committee and to hearing how their 
respective agencies are contributing to the relief effort.
    On our third panel, we welcome Daniel Toole, Director of 
the Office of Emergency Programs at UNICEF; Mary McClymont, 
President and CEO of InterAction; and Nancy Lindborg, President 
of Mercy Corps. They will provide us with perspectives on the 
role of the United Nations and the NGO community.
    We thank all of these witnesses for joining us today and 
for sharing their thoughts on what has been done in response to 
the disaster and what can be done better in the future.
    I recognize now our distinguished ranking member, Senator 
Biden.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Thank you very much, Mr. Chairman.
    You listed the witnesses we are about to have. One of the 
witnesses we are going to hear today is a man who has been 
before this committee many times and a man whose judgment we 
relied on over the years in both Republican and Democratic 
administrations, Alan Larson. He is going to be leaving 
Government service shortly, and I just want to publicly 
acknowledge what an incredibly fine job he has done, how well 
he has served the committee when he has been here, how well he 
has served the country. He is a model of the professionalism 
that exists in many places in our Government. I want to 
publicly acknowledge that at this time.
    I also want to explain at the outset, Mr. Chairman, at 
10:15 I will have to leave. I am also a member of the Judiciary 
Committee. It is hard to believe, but 8 years ago I helped 
draft a bankruptcy bill that I think is rational. We have 
passed it repeatedly with overwhelming majorities: 89 and 87 
and 91 votes, and it is still not in play. It is being marked 
up again today. So I apologize to the witnesses that because of 
my long, long investment in this piece of legislation, which I 
am blamed for having written and I must take part of the blame 
for, I will be leaving.
    The third point I would like to make, before I read my 
brief statement, is that I have taken out of the statement any 
of the references that you made about the humanitarian 
disaster. I do it not to deemphasize how startling and of what 
biblical proportions this disaster was, but just in the 
interest of time.
    Mr. Chairman, I want to begin by commending you not only 
for calling this hearing but for your continued leadership. The 
list of legislation that you have listed today is a testament 
to how seriously you take your oversight responsibility and how 
clearly you understand what the core remaining problems are. 
The idea that we are going to have millions of homeless 
children in Africa, that we have the devastation and the 
homelessness of the young children in this region of South Asia 
has not only humanitarian impact, it has phenomenal 
consequences for the development of those countries and 
phenomenal consequences, quite frankly, for our ultimate 
security. So I compliment you.
    Six weeks ago, to state the obvious, the people of 
Indonesia, Sri Lanka, India, Thailand, and at least a half a 
dozen other countries were struck by a disaster, as I said, of 
biblical proportions. The scale of the devastation was 
literally beyond comprehension. I recall when the first reports 
came by that, maybe, there were 30,000 dead and how absolutely 
shocked we were and the world was. But, my Lord, we are now 
talking about something between 160,000 and 180,000, maybe as 
many as above 200,000 dead. These numbers are mind-numbing, but 
every single one of these numbers is an individual that 
represents a dreadful, unique loss for their families and for 
humanity.
    Americans, like people all over the globe, were 
heartbroken, and like people around the world, we responded 
with generosity and dedication. The outpouring of private 
charitable contributions was something wonderful to behold, a 
sense of commitment that will, I hope--I always hope when these 
things happen--carry over to other humanitarian crises 
elsewhere in the world and maybe begin to change our attitudes 
slightly about how we look at one another.
    But I want to just take a moment to comment on our 
military, the sailors and marines, along with a number of other 
services, who have earned the deep gratitude not only of the 
people of the tsunami-hit nations, but all of the world. The 
deployment of the USS Abraham Lincoln carrier group and the 
military assets demonstrated a point that is of tremendous 
value: America's military might enables us to be a formidable 
enemy but also a very, very, very powerful friend. This is a 
point that, I think, is too often unrecognized. We have shown 
from Afghanistan to Iraq to the Balkans that our fighting men 
and women are second to none. We do not always have the 
opportunity to demonstrate the other side of the coin: Our 
military's enormous capacity for saving and serving human 
lives.
    I came to this body, not unlike you, Mr. Chairman, a long 
time ago, a product of the Vietnam generation and not 
particularly enamored with our military when I arrived in 1972. 
But I must tell you, in my travels around the world--and I have 
made it a point, as many of you have, including our first 
witness, of going to every place of conflict that we have men 
and women in war, in battle, risking their lives, since I have 
been a Senator. And without fail, the single most competent 
people at restoring life--at restoring life--not just taking 
life, restoring life--have been our military.
    I was giving Mr. Natsios a little bit of grief earlier 
today, in a private meeting here, about why we have not been 
able to disseminate more of the aid that we voted for for Iraq, 
the $18.4 billion. He accurately pointed out AID has done their 
job well. And I said, what about Fallujah? I said I go over 
there and talk to the military guys and they say, give me some 
money, we can help get this done. He said it is being done. We 
are working with them.
    But it is astounding. I just think it is important that our 
people know that our military--they are the same kids, the 
second lieutenant who stands there in Brcko in northern Bosnia, 
that as you see a group of 25 people carrying axes and sickles, 
literally walking down a street of a neighborhood about to 
reclaim a home that was theirs, that was a Bosniak home, from a 
Serb who may be living there. And it is a young second 
lieutenant standing in the middle of the street, going whoa, 
wait a minute, fellows, and peacefully taking care of it.
    Or the second cavalry in Sadr City, led by Corelli, a 
general who can shoot straight and kill if he has to, but who 
stands there and he says, give me PVC pipe and let me run it 
out of the back of these homes into the Tigris so the sewage 
does not pile up in their front streets, and when he does it, 
the incidents of conflict diminish.
    So it is not a mere afterthought, that I point out today, 
that our military is involved in saving lives, as well as 
defending us and necessarily sometimes taking lives of bad 
guys.
    As a two-star admiral, in command of the USS Abraham 
Lincoln carrier group, told a visiting congressional 
delegation--and I am paraphrasing because I was not on that 
delegation. Someone apparently asked him, was this a 
distraction from all the strains on the military in terms of 
fighting the wars we have to fight today. And he said, I am 
told the quote was, this is not a distraction from our job, it 
is our job.
    In humanitarian terms, there is simply no other institution 
in the world that could have delivered the assets and 
capabilities of the U.S. military. From helicopters to water 
desalinization plants, the Navy had it all and they got it on 
the scene within 1 week of an initial call.
    In political terms--and it may not be politically correct 
to raise this--this represents an example of supremely 
effective and cost effective public diplomacy in the extreme. 
It demonstrated a simple, yet often-overlooked point: Good 
deeds breed good will.
    I would suggest, Mr. Chairman, as I try to shorten this 
statement, that some of the questions that we should explore 
include--yesterday the administration announced it will 
increase our pledge for relief and reconstruction to $950 
million, in other words, an additional $600 million over the 
$350 million already committed and basically spent. I applaud 
the President for that. But the questions I have are: What can 
we do to ensure full transparency for our pledge so Americans 
and the world know that we are spending this money wisely?
    What can we do to assure equal transparency on the part of 
the governments with whom we are working? To be blunt, some of 
the governments in the affected countries have a history of 
endemic corruption, and some of their militaries have a poor 
record with respect to human rights.
    What can we do to ensure that our money gets to the 
affected people themselves long after news cameras have 
decamped from four other sites?
    And what can we do to ensure that our funding does not help 
fuel civil conflicts rather than resolve them?
    Mr. Chairman, this tragedy is a challenge to the United 
States, a challenge to demonstrate to the world just how 
generous and open-hearted the American people are and the 
American Government can be; a challenge to engage in 
cooperation with the world community, to show the world, and 
particularly the Muslim world, just what sort of powerful 
friend we can be. We must meet this challenge, and I believe 
the administration should be complimented for the way in which 
they have approached this challenge.
    I want to make it clear about accountability. Given the 
option between taking a risk on not having sufficient 
accountability but potentially saving thousands of lives or 
altering the circumstance of the people in the region, I am 
willing to take that risk. But nonetheless, we still should 
have transparency, as best we can, as it relates to the use of 
these moneys by the governments to whom we are providing the 
money.
    Again, I thank you for your leadership. I apologize for 
delaying the majority leader who has a busy schedule. As I used 
to tell his predecessor, the job is not worth the car, but I am 
glad he has it. Thank you.
    The Chairman. Well, I thank the distinguished ranking 
member. I compliment him on his conscientious attendance over 
in Judiciary for his important work, even as he does the Lord's 
work here in this committee.
    It is a real privilege to welcome my friend and our 
distinguished Republican leader, Bill Frist, a gifted physician 
who has, in fact, throughout his public career, been on the 
scene to minister to people. Once again, he has done so in this 
case. We look forward to your testimony. Thank you for coming. 
Please proceed.

   STATEMENT OF HON. BILL FRIST, U.S. SENATOR FROM TENNESSEE

    Senator Frist. Thank you, Mr. Chairman. It is a pleasure to 
be back in this room with you and your members. I will be 
brief. You have an outstanding series of panels to follow, but 
I do appreciate the opportunity to share some experiences that 
I had when I and Senator Mary Landrieu went to South Asia 
several days after the tsunami struck.
    Right up front, from that first day that we set foot in Sri 
Lanka, it was apparent that the United States was leading in 
terms of providing relief, assisting with recovery, and the 
rebuilding of that part of the world. We must all be thankful 
for and commend our Government agencies, especially the 
military personnel who Senator Biden so appropriately commented 
on, and the American people, and all who responded in a timely 
and immediate way. It was apparent on the ground that the 
United States was leading that effort.
    The death and destruction is not exactly as you see on 
television and have read about, but actually much worse. The 
human face of this tragedy is terrible: Over 35,000 orphans; 
the fact that more than a third of the people who died were 
children; the fact that the more than 1 million people who have 
lost their homes are still homeless, now a month and a half 
later.
    I do want to stress the compassion that we saw on the 
ground: The aid workers, the military men and women, the 
doctors that came in, the engineers that arrived from the 
United States to clear the roads and, indeed, from all over the 
world. Our friends around the world, as we saw, also 
contributed generously.
    I know you will be talking a lot about the sum of money 
that the administration has requested, and that I encourage us 
all to be strongly supportive of. For every dollar that has 
been requested, there has been a dollar matched by our private 
charities, by charitable giving in this country. It is totally 
different when we compare our private sector aid and giving to 
official assistance from around the world; the degree of 
generosity and compassion expressed by individual citizens--
that outpouring--is somewhere between $800 million and $900 
million thus far.
    Mr. Chairman, I want to take the opportunity to focus on 
one element that we responded to well, and introduces the 
success of the short-term response, but what I would encourage 
this committee to focus on in the future. It involves the 
absence of clean water and access to clean water and 
sanitation.
    In the tsunami area, lack of clean water emerges as one of 
the most pressing problems. As the tsunami came in, the salt 
water contaminated, immediately, the wells along the coast, and 
water containers that had been held in the homes all along the 
coast. You would fly for hundreds of miles along this coast 
with this unending destruction. But water containers were 
washed away and, of course, shelter and homes were washed away 
as well.
    We visited the refugee camps. Many of them were local 
schools that were taken over, and clearly not equipped from a 
sanitation standpoint, or a water supply standpoint, to provide 
for the people.
    Our military response was superb; over 400,000 gallons of 
fresh water were shipped in. Senator Landrieu and I 
participated in the delivery of USAID supplies, which focused 
on water availability, whether it was chlorine or whether it 
was private sector sachets to clean water, or whether it was 
infant solution called Pedialyte, where an immediate response 
of nutrition and water could be provided.
    As you flew over the beaches in Sri Lanka, water would come 
in and large pools would collect--a real potential breeding 
ground for mosquito-borne diseases: malaria, dengue fever, and 
the like. An immediate response to prevent disease would be to 
dredge and remove those pools of water so that we did not have 
these water-borne illnesses: cholera, dysentery, typhoid fever, 
and the like. We did not see outbreaks, however, because of the 
immediacy of that response in a number of other areas.
    Now, I bring this issue to the attention of this committee 
in part to applaud this coming together, almost symphonic 
approach by our military, by our USAID personnel, by the 
private sector in those first couple of weeks because it 
prevented what could have been the No. 1 killer after the 
tsunami itself. I bring to this committee the real challenge--
that we have to look at long-term solutions that were 
highlighted by the tsunami crisis regarding access to clean 
water. The facts are this.
    One million, six hundred thousand children die every year 
because of lack of access to clean water; 1.6 million children. 
Lack of clean water is the No. 1 killer of children in the 
world because of water-borne diseases.
    One billion, two hundred million people in the world do not 
have access to clean water, and this refers back to the bills 
that the chairman talked about introducing in terms of our 
focus on relief, and a much broader response to global poverty 
and overall development.
    Two billion, four hundred thousand people in the world do 
not have access to basic sanitation. Worldwide, in the next 15 
years, 135 million people likely will die--135 million people 
will die in the next 15 years--because of water-borne 
illnesses.
    Now, there are three points I want to make. First, clean 
water should become a major priority in our development 
programs. Today, it is not a focus. It is not a major priority. 
Right now the United States spends about $600 million a year on 
clean water programs. That is only about 3 percent of our $20 
billion international aid budget. That proportion is simply not 
enough as we look at the impact of what prevention can do in 
terms of limiting water-borne illnesses, the No. 1 killer of 
children in the world today.
    I will be continuing to work with members on this committee 
and their staff to introduce legislation that will make access 
to clean water one of our major foreign aid objectives. The 
legislation will coordinate and focus our clean water efforts. 
It will establish partnerships with a wide variety of 
governmental agencies, NGOs, and international bodies. It will 
require our aid and development agencies to develop an annual 
strategy to meet specific goals.
    Second, I believe that we should leverage private dollars 
to develop water infrastructure around the world. We know that 
it would have an impact. Ultimately it is going to be the 
private companies, not state entities, who will do the hard 
work in developing infrastructure to deliver clean and abundant 
water. We saw it in the tsunami ravaged regions. It is the 
private sector that is coming in, building on the immediate 
response of the government sector, that ultimately will address 
long-term issues like housing and, in this case, clean water.
    The third point and the last point that I will make, Mr. 
Chairman, is an issue that really plays out in the three bills 
that you mentioned, and I commend you for all three of those 
bills. And it also reflects on the comments of Senator Biden. 
That is, as we look at diplomacy, issues of health and public 
health and medicine can be used as a currency of peace. I am 
absolutely convinced of this. That is why I bring up this issue 
of water because for the investment up front, the outcome, the 
influence on peace, I am absolutely convinced there is great 
promise.
    Several things can be done that really center on this 
personal contact of addressing public health, of addressing 
medicine as a currency of peace. One would be a piece of 
legislation that I am working on, again with members on this 
committee, and that is to establish a global health corps. A 
global health corps that can be mobilized very quickly to go 
into areas like the tsunami region; that can be on the ground 
within hours, but also a global health corps that can take 
advantage of the compassion, the outpouring of support by my 
colleagues today who, as physicians, do want to be able to 
participate on an ongoing basis. Public diplomacy, I believe, 
can greatly be improved and heightened by focusing on providing 
public health services abroad.
    This global health corps concept is one that I hope to be 
introducing shortly. An element of that would be having a Peace 
Corps-like global health corps available for immediate 
response, like in the tsunami, but on an ongoing basis.
    Mr. Chairman, in closing, I do believe that increasing the 
number of people with access to clean water will take time and 
commitment. The long-term goals are bold. It can be approached 
with incremental steps, and I would encourage this committee to 
do just that. The demographic, social, and environmental trends 
are grim. Over 130 million people will die because of lack of 
access to clean water. It is totally preventable. It offers a 
currency of peace that we are all looking for.
    So, for the benefit of humanity and for the peace of the 
world, I think we need to take this challenge head on over the 
coming weeks and coming months. I do ask my colleagues to 
support these proposals, to embrace them, to build on them, and 
to make them work. By doing so, we can save millions of lives 
and give millions more the opportunity to live healthier, more 
fulfilling lives.
    Mr. Chairman, again, thank you for the opportunity to 
participate in this very important hearing, and I commend you 
for the legislation that you and the ranking member are 
introducing to further these causes.
    The Chairman. Well, thank you very much, Dr. Frist, for 
these very important ideas and for your pledge to work on 
legislation. I know you will find many supporters in this 
committee. We look forward to working with you and our 
colleagues on the health corps idea and likewise on the need to 
provide water that is clean and sanitary to millions of people. 
We thank you for using this forum to outline these ideas today.
    The chair now calls upon a distinguished panel that will be 
composed of the Honorable Alan Larson, Under Secretary for 
Economic, Business and Agricultural Affairs of the Department 
of State; the Honorable Paul Wolfowitz, Deputy Secretary, 
Department of Defense; the Honorable Andrew Natsios, 
Administrator, U.S. Agency for International Development. 
Gentlemen, we welcome you once again as friends of the 
committee and thank you for coming to offer testimony today in 
this important hearing.
    Let me suggest that you try to bring your comments into a 
10-minute framework. The chair will not be excessively rigorous 
about this, but to the extent that we start in that framework, 
there will be ample time for questions from members.
    I will call upon you in the way that I introduced you to 
begin with, and that will be, first of all, Secretary Larson, 
then Secretary Wolfowitz, and then Administrator Natsios. Would 
you please proceed.
    Let me compliment you, along with our distinguished ranking 
member, for your distinguished service. We hope this will not 
be your last testimony before our committee, but we thank you 
for your particular contributions in this current office that 
you now hold.

 STATEMENT OF HON. ALAN LARSON, UNDER SECRETARY FOR ECONOMIC, 
    BUSINESS AND AGRICULTURAL AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Larson. Thank you very much, Mr. Chairman. I want to 
thank Senator Biden and all the distinguished members of this 
committee for your leadership and for holding this hearing.
    I appreciate very much the opportunity to brief you on the 
administration's response to the devastating Indian Ocean 
tsunami, but also and more importantly, I would like to sketch 
out some of the actions and issues that we must face in the 
future. With your permission, I would summarize my longer 
written statement which I would like to see submitted.
    The Chairman. It will be made a part of the record in full.
    Mr. Larson. Wonderful.
    In our written testimonies, my colleagues and I have 
outlined how the United States, our military, our foreign 
assistance officials, and our ambassadors and diplomats worked 
together quickly, collaboratively, and effectively to save 
lives and to begin the process of rebuilding.
    The President's request for a $950 million supplemental 
appropriation will not only replenish the costs incurred to 
date, but it will also position the United States to continue 
to play a leading role in rebuilding infrastructure and in 
helping the victims of this disaster restore their livelihoods. 
It will also enable the United States to lead in international 
efforts to create an expanded and improved early warning system 
for natural disasters and to participate in any debt deferrals, 
as may be appropriate. We do ask for the support of the 
Congress in quickly approving the President's request.
    Going forward, the State Department will work very closely 
with all agencies, and particularly with USAID, to establish 
policy on tsunami relief and recovery funding, and the United 
States will work closely with host governments, with the United 
Nations, and with other donors to make sure that our funding is 
part of a well-coordinated and effective effort.
    From the very first hours, our embassies in the field were 
working with local officials to identify needs, to disburse 
emergency assistance, to obtain overflight clearances, and 
otherwise facilitate the work of our military and USAID 
colleagues.
    Here in Washington, the State Department stood up an 
interagency policy task force, and my colleague, Under 
Secretary Marc Grossman, called together an ad hoc 
international core group to coordinate the first essential 
stages of the international response.
    At the same time, the State Department's consular affairs 
officials immediately began responding to over 30,000 requests 
about the welfare and whereabouts of Americans who could 
possibly have been affected by the tsunami. We have now 
narrowed down to 12 the number of unresolved cases. At the 
moment there are 18 Americans confirmed dead and 15 presumed 
dead.
    If I were to draw, Mr. Chairman, some preliminary lessons 
today that we have learned and that we want to apply going 
forward, they would include the following. The ability of all 
of us--but I will speak specifically of the State Department, 
our embassies and our consular affairs officials--to respond 
strongly and effectively was greatly enhanced by our diplomatic 
readiness program that increased our surge capacity. We thank 
the Congress for its support of this diplomatic readiness 
program and want to work with you to be able to maintain it in 
the future.
    Second, quick, ad hoc, informal, collaborative 
coordination, both within the U.S. Government and between the 
U.S. Government and other international players, is crucial at 
the early stage of a complex emergency.
    Third, military-to-military cooperation is critical. For 
example, our cooperation with the Indonesian military was 
excellent, but former Secretary Powell commented that it could 
have been even better if there had been more opportunities for 
training, interaction, and cooperation through military-to-
military cooperative programs.
    Fourth, the United Nations organizations, including the 
Emergency Relief Coordinator, the World Food Program, UNICEF, 
the World Health Organization, and others, played a crucial 
role in the international response. We do not see a need for a 
new international disaster assistance body separate from the 
Emergency Relief Coordinator. We do believe, however, that the 
lines of authority and communication within the U.N. system 
could be strengthened.
    Fifth, in an era where Americans travel throughout the 
world, we are going to need to clarify to the authorities that 
we need to extend forensic identification and mortuary services 
to countries that experience natural disasters.
    Sixth, as has been commented already, the outpouring of 
over $800 million of private contributions has demonstrated the 
compassion of the American people, and the capabilities that 
the private sector has, to contributing to disaster relief and 
to longer term development. And we are going to need to work 
somewhat more systematically with the private sector through 
organizations like the Chamber of Commerce to put in place the 
mechanisms to ensure that this assistance is well channeled and 
well targeted.
    Seventh, perhaps the most important step we can take going 
forward, is to work with other countries to improve their 
capacity to respond to natural and manmade disasters. This 
includes sharing best practices, training first responders, 
sharing technology. In fact, that is exactly what we are going 
to be doing as we work to expand and strengthen the 
international early warning systems for natural disasters such 
as tsunamis.
    In 1993, the General Accounting Office, looking at the 
United States noted that--and I am quoting here--``fewer 
Federal resources are needed to respond to a catastrophic 
disaster if State and local governments are integral parts of 
an effective national disaster response system.'' That ends the 
quote.
    I think looking internationally and looking into the 
future, a critical challenge is to improve the capacity of 
other nations to be effective and integral parts of an 
international disaster response system. We need to think 
carefully about how to stimulate these improved capacities, 
working through networks such as the G-8, APEC, ASEAN, and the 
various regional organizations.
    I think this may be similar in some respects to the lessons 
we learned after 9/11/2001 about cross-border terrorism. One of 
those lessons was that we needed to strengthen political will, 
and the capacity of other national governments around the 
world, to combat terrorism, to curtail the flow of financing to 
terrorist organizations, and to keep their own transportation 
systems safe and secure. And since then, we have worked very 
hard with partners around the world on new initiatives to 
strengthen awareness, political will, and the capacity to deal 
with these problems.
    The final lesson I would draw, Mr. Chairman, is simple; 
that is, when danger approaches or disaster strikes, there is 
no substitute for active American leadership and engagement. 
The American response to the Indian Ocean tsunami has given the 
world fresh insight to the character of America. We need to 
build on this foundation, and to do that, the President's 
supplemental request is of critical importance.
    Thank you.
    [The prepared statement of Mr. Larson follows:]

   Prepared Statement of Alan Larson, Under Secretary for Economic, 
 Business and Agricultural Affairs, Department of State, Washington, DC

    Six weeks have passed since a deadly earthquake and tsunamis struck 
countries in Asia and Africa. The countries and people struck by this 
disaster are now beginning to turn from the immediate task of saving 
the lives of family and friends, to the long-term and even more 
difficult work of rebuilding homes, livelihoods and communities. The 
best estimates by affected country governments and the United Nations 
report more than 161,000 dead in seven countries over two continents, 
and another 139,000 still missing. Over 1.1 million people are 
displaced.
    The U.S. Government, in partnership with the affected countries, 
the international community, and the United Nations, will continue to 
provide food, shelter, water and sanitation to those in need. As 
President Bush said, ``The government of the United States is committed 
to helping the people who suffer. We're committed today and we will be 
committed tomorrow.'' Americans have great sympathy and respect for the 
people of devastated communities, who have come together to search for 
the living, bury the dead, care for those who have lost families and 
livelihoods and rebuild their lives.
    National and local governments in the countries hit by the tsunami, 
the multilateral development banks and bilateral donors, including the 
United States, are working together to assess medium- and long-term 
damage and needs. Even in the worst hit areas, such as Aceh and the 
coastline of Sri Lanka, rehabilitation and reconstruction have begun. 
Preliminary assessments produced jointly by the tsunami-affected 
governments, the World Bank, the Asian Development Bank, USAID and 
other partners place damage and loss costs at $4.5 billion in Indonesia 
and $1.3 billion in Sri Lanka. While Maldives assessment has not yet 
been completed, Maldives' own assessment is that $1.3 billion will be 
required for tsunami reconstruction. We expect refinements of these 
studies to be produced in the coming weeks.
    To help meet these needs, the Administration is seeking $950 
million to support the rehabilitation and reconstruction of areas 
devastated by the Indian Ocean Tsunami and to cover the costs of the 
U.S. Government's relief efforts to date. As President Bush said when 
announcing this request: ``From our own experiences, we know that 
nothing can take away the grief of those affected by tragedy. We also 
know that Americans have a history of rising to meet great humanitarian 
challenges and of providing hope to suffering peoples. As men and women 
across the devastated region begin to rebuild, we offer our sustained 
compassion and our generosity, and our assurance that America will be 
there to help.'' The President and this Administration look forward to 
working with Congress to provide these funds quickly.
    We recognize that the Committee seeks in this hearing to have a 
preliminary assessment of ``lessons learned.'' The transition period 
now from relief to reconstruction and recovery provides a useful 
juncture at which to assess the effectiveness of the immediate response 
to the tsunami disaster by the U.S. Government, as well as other 
actors. We appreciate this opportunity to share with the Committee some 
preliminary thoughts. The assessments and recommendations that follow 
result from informal interagency discussions, information from the 
State Department's embassies and USAID's missions.
    In any disaster, the United States must be coordinated internally, 
as well as with other responders; these include government officials 
and non-governmental groups in impacted countries and regions, the U.N. 
system, international non-governmental organizations (NGOs) and other 
responding nations. The sheer magnitude of the tsunami presented many 
challenges to all those who sought to provide assistance--many of these 
difficulties were met with remarkable speed and effectiveness. This is 
a success story, but as in any complex situation, there is also room to 
assess how things might have been done even better and how they can be 
improved in the future.
    The United States is uniquely equipped and willing to contribute 
our resources to employ the many tools at our disposal in responding to 
international crises. The following series of simultaneous actions 
undertaken by the United States--often in conjunction with other 
actors--illustrate our process for responding to the tsunami crisis: 
(1) Taking care of American citizens; (2) coordinating government-wide 
mechanisms; (3) engaging the international community; and (4) engaging 
affected countries.
    Taking Care of American Citizens: The Bureau of Consular Affairs 
(CA) established within 24 hours of the disaster a consular task force 
to handle inquiries from American citizens. Over the course of the 
first week, the Department received over 30,000 inquiries from all over 
the country and around the world about missing Americans. Of those tens 
of thousands of initial inquiries, we worked 15,112 inquiries on 
specific individuals who might have been in harm's way, and nearly all 
of these cases are resolved. The number of American confirmed dead is 
currently 18 and the number of presumed deaths is 15. We are hopeful 
this number will not rise any higher.
    This remarkable response was facilitated by CA's standing practice 
of keeping ``fly-away'' teams on standby for crisis response. In the 
tsunami case, given the distance from Washington to the impact zone, CA 
initially deployed personnel to affected areas from neighboring Asian 
countries. We then sent in personnel from Washington as well as some 
from elsewhere who had specific language fluency. As in many crises, 
consular personnel were frequently assisted by locally resident 
American citizens who volunteer their services to help fellow citizens 
through the ``warden'' program. In this instance, the volunteer wardens 
were most helpful in getting messages to other Americans to phone home 
and reassure loved ones that they were okay.
    Consular Affairs and embassies report good cooperation overall with 
local authorities and across Washington agencies to identify Americans 
who may have been harmed by the disaster. Three groups of issues have 
emerged that could improve the U.S. Government's ability to assist 
Americans overseas when a disaster strikes:

  <bullet> Technology: Web-based tools, such as on-line inquiry forms, 
        can help supplement telephone queries about missing Americans 
        and improve our ability to rapidly process and cross check 
        information (e.g., with flight manifests) from a variety of 
        sources. CA will be expanding its use of technology along these 
        lines, and sees no statutory impediment to such action in the 
        context of the Privacy Act.
  <bullet> Surge Capacity: While CA was able to respond quickly with 
        fly-away teams, it is worth noting this capacity depends on the 
        overall diplomatic readiness of the Department. We welcome the 
        opportunity to work with Congress to maintain this capacity.
  <bullet> International Coordination: CA maintains regular contact 
        with key allies on crisis management objectives. We all 
        recognize that our most important objective is to have a 
        prompt, effective means of communicating with each other rather 
        than fixed plans. During a crisis, it is essential that we 
        share information on fast-breaking developments and available 
        resources. Our experience during the tsunami reinforced our 
        belief that this type of regular communication leads to 
        effective coordination.

    Coordinating Government-wide Mechanisms: Within the first day after 
the tsunami struck, U.S. Ambassadors and Embassy staff, including USAID 
missions, were on the ground working with national and regional 
governments to disburse emergency funds, identify relief needs, and 
provide rapid assistance. When the need for transport became apparent 
in Indonesia, the U.S. Ambassador was on the phone to Washington 
urgently requesting helicopters and the first sign of relief that 
victims saw in many regions was the helicopters of the United States 
Navy, bringing water, food and medicine to those in need. Within 72 
hours after the tsunamis struck, the USS Bonhomme Richard and the 15th 
Marine Expeditionary Unit had been turned around from their previous 
mission and sent steaming toward the Indian Ocean.
    The State Department played a key role in laying the groundwork for 
our military and USAID's rapid response, including:

  <bullet> On December 27 the State Department stood up a policy task 
        force, established simultaneously with counterpart task forces 
        at USAID/Response Management Team, the Department of Defense 
        (DOD) and Pacific Command;
  <bullet> Immediately after the tsunami struck, my colleague, Under 
        Secretary Marc Grossman, called together and led an 
        international ``Core Group'' that included Australia, Japan, 
        India, Canada, the Netherlands and the United Nations to 
        coordinate the first stages of the international response. This 
        Core Group ensured one country did not duplicate the efforts of 
        others, identified and filled gaps in the first days and broke 
        logistical bottlenecks. As the United Nations mobilized and 
        took on a central role in the relief response, the core group 
        passed its coordinating functions to the United Nations;
  <bullet> State worked quickly with DOD on contacting host governments 
        to secure status of forces agreements, permission for our 
        military to use foreign airspace and territorial waters to 
        conduct relief operations;
  <bullet> Embassies worked with local customs authorities to smooth 
        entry of relief goods;
  <bullet> The State Department task force processed the voluminous 
        tsunami-related information pouring into Washington from the 
        media and from embassies overseas, summarizing and distributing 
        that information to the interagency via twice-daily situation 
        reports; and
  <bullet> The State task force also compiled and monitored the 
        extensive USG emergency assistance in each affected country and 
        the USG resources available to bring to bear.

    The U.S. military and the U.S. Agency for International Development 
moved quickly and effectively to help those in need. I especially want 
to acknowledge the outstanding contributions of the U.S. Pacific 
Command. My colleagues on the panel will supply you with more details 
on the remarkable things they accomplished to establish the logistical 
backbone for the entire relief operation and to facilitate the work of 
the United Nations, NGOs and other donors.
    The coordination effort required for dealing with the tsunami was 
one of the most complex ever attempted by a State Department task force 
or by the U.S. Government. The process worked extremely well especially 
in light of the magnitude of the tragedy. The task force provided vital 
insight and guidance that helped to shape the overall U.S. response and 
ensure coordination of U.S. and international relief efforts.
    An initial review of our experience in responding to this disaster 
also suggested areas where the Administration and Congress can work 
together to ensure the United States has the resources and flexibility 
needed to speed help to those in need. For example:

  <bullet> Mass Casualty Disasters: This disaster required the United 
        States to respond to a mass casualty incident (other than 
        terrorist-related) involving a large number of victims, both 
        American and foreign, in several foreign countries. Although 
        identifying the dead is not a foreign assistance issue, 
        President Bush is seeking to replenish in the supplemental a 
        special State Department account to fund efforts to identify 
        the remains of Americans killed in a natural disaster overseas.
  <bullet> Private Donations: The outpouring of donations from private 
        U.S. individuals and companies to help in a disaster overseas 
        posed new challenges in matching those who can contribute with 
        those in need and coordinating private efforts with national 
        governments and bilateral and multilateral donors.

    There was close interaction between U.S. and foreign militaries 
during the crisis, and foreign militaries played a vital role in 
providing relief to the people of the region. In that light, it is 
worth reviewing U.S. capacity to interact with military forces in 
response to a humanitarian crisis, and to explore ways the United 
States can increase our training and capacity building assistance to 
foreign militaries for such operations.
    The foreign military that was faced with the most extreme tsunami-
related challenges was the Indonesian armed forces (TNI). As my DOD 
colleagues can attest, the cooperation between the TNI and the U.S. 
military was very good. But we believe it could have been better, and I 
would therefore like to briefly address the present legislative 
restriction on IMET for Indonesia.
    The Department fully supports justice and accountability for the 
egregious acts of violence committed against our American citizens in 
Timika, Indonesia in 2002. The Department considers the protection of 
Americans abroad one of its most important responsibilities. We will 
continue to emphasize to the Indonesian Government that resolving this 
case and ensuring the safety of Americans in general are crucial to our 
overall relationship.
    Our concern is not with the intended purpose of the legislative 
condition, but with the limitation on flexibility that it represents. 
The United States has many priorities in Indonesia, including 
strengthening democracy, promoting military reform and enhancing 
security cooperation, especially against terrorism. IMET is an 
extremely valuable tool that Congress provides to accomplish these 
objectives. For that reason Secretary Rice is examining these issues 
with a view toward working together with Congress to achieve our many 
critical interests in Indonesia.
    Engaging the International Community: The Core Group model 
discussed above provides several good lessons going forward. First, 
coordinating donor response in the early stages of a crisis smoothes 
interactions with authorities in affected regions, maximizing needed 
assistance while not overwhelming local capacity. Related to this, a 
clear channel of interaction with the recipient government gives 
affected regions the opportunity to guide support according to their 
priorities, which is essential for assistance to be delivered 
effectively.
    Second, including affected countries with extra capacity to help 
other victims builds regional cooperation and a sense of ``ownership'' 
of the relief effort and facilitates good relations with local 
authorities. For example, the inclusion of India in the core group 
smoothed the way for excellent military cooperation with India 
throughout the crisis. India's participation was also seen, properly, 
as an acknowledgement by the United States of India's growing 
international stature, and recognition of its transformation from being 
an aid recipient to a strong regional donor.
    Finally, a flexible framework is important to responding quickly 
and effectively to a disaster situation. The State Department was able 
to rapidly pull together this group, which never had a physical meeting 
and established no bureaucracy in addressing critical issues. The 
composition of the Core Group was the right formulation to respond to 
the tsunami crisis. Core Group members were able to reach out quickly 
without the structural impediments that any kind of permanent structure 
might have imposed.
    In addition to bilateral outreach, the State Department, along with 
USAID and DOD, coordinate closely on the ground and at the policy level 
with a range of U.N. agencies engaged in disaster relief. The U.N. 
system directs its policy-level and on-the-ground disaster response 
primarily through the U.N. Emergency Relief Coordinator (ERC). The ERC 
has a number of U.N. offices it can utilize to coordinate overall 
response, in particular the Office of the Coordinator for Humanitarian 
Affairs (OCHA). On the ground, OCHA sets up Humanitarian Information 
Centers (HICs) to coordinate among U.N. agencies and with the affected 
countries, bilateral donors, military units and NGOs.
    At the same time, independent U.N. agencies, such as the World Food 
Program (WFP), the U.N. Children's Fund (UNICEF) and the World Health 
Organization (WHO), take on specific coordination and response leads 
related to their mandates. For example:

  <bullet> The International Organization for Migration was there in 
        the first days, and with USAID funding, provided the major 
        share of truck transport and logistics for the crucial first 
        few weeks;
  <bullet> To combat measles is Aceh, where vaccination coverage was 
        less than 50 percent before the tsunami, UNICEF began a measles 
        campaign to vaccinate approximately 575,000 children;
  <bullet> WHO established health sector meetings and, along with USAID 
        and the U.S. Navy, initiated a series of assessments along 
        Aceh's western coast to determine the health profile and relief 
        needs among the affected population; and
  <bullet> WFP set up a logistic pipeline for rice and food commodities 
        to Aceh and Meulaboh, and began a system of sea transport to 
        reach areas not accessible by road.

    At the policy level, the ERC participated in daily coordination 
calls of the Core Group. In addition, on the day of the Indian Ocean 
earthquake, the ERC dispatched teams of experts to help Sri Lanka and 
the Maldives assess the extent of the crisis. Once the multinational 
forward hub was established at Utapao, Thailand, the United Nations 
also positioned liaison officers there from WFP and the U.N. Joint 
Logistics Center (JLC). They worked alongside liaison officers from 
Thailand and bilateral agencies, including USAID. The HIC was set up 
quickly to establish coordinating meetings between all actors in the 
relief operation.
    The United States experienced good coordination with the United 
Nations during the crisis, and the U.N. role was essential to the 
success of the overall international response. At the same time, it 
would have been helpful if the United Nations had deployed staff more 
quickly to the region and set up a more robust command and control 
operation to meet logistic and coordination requirements. The somewhat 
decentralized system wherein OCHA coordinates some aspects of the 
U.N.'s operations, while independent U.N. agencies simultaneously 
coordinate specific sectors, can lead to bottlenecks and delays.
    The Administration does not believe it is necessary to establish a 
new disaster body separate from the U.N. Emergency Relief Coordinator 
and the offices it commands. In our preliminary analysis, however, it 
would be worthwhile to re-examine how the United Nations conducts 
disaster planning and response. Some specific ideas might include:

  <bullet> Lines of Authority: Strengthening the ERC's lines of 
        authority would better empower the ERC to manage the U.N. 
        agencies with disaster relief as part of their mandate.
  <bullet> Communication: Encouraging better communication between U.N. 
        agencies and offices; institutionalizing mechanisms for 
        coordination in the wake of a disaster that requires an 
        immediate humanitarian response.
  <bullet> Streamlining: Bringing some existing programs, which 
        currently reside in various U.N. entities, under one existing 
        office or agency instead of a new body. This could save money 
        and improve effectiveness through streamlining, especially if 
        the authority of the ERC were enhanced.

    Addressing such reform is currently on the minds of some donors, 
such as the United Kingdom, which has raised these issues in context of 
their Presidency of the G-8.
    Engaging Affected Countries: The people caught in a disaster are 
frequently also those who respond most quickly to the immediate needs 
of those around them. Governments and local authorities in the affected 
areas also set the priorities and goals for reconstruction and 
development as rebuilding begins. Thus, one of the most important ways 
to bolster disaster response capacity is to strengthen the capacity of 
local and national authorities to prepare for and coordinate their 
response to disasters.
    Across the region hit by the earthquake and tsunamis, neighbors 
saved lives, brought medical assistance to the injured, and helped each 
other in heroic fashion. Many local and national governments responded 
amazingly well, especially given the magnitude of the disaster. For 
example:

  <bullet> The governments of India, Malaysia, and Thailand marshaled 
        resources quickly to help their own people and reached out 
        quickly to other affected nations. India, in particular, has 
        benefited from years of USAID funded training and support in 
        emergency and disaster management which has greatly improved 
        their ability to manage disasters on their own;
  <bullet> The Sri Lankan Air Force, with its limited fleet, flew long 
        hours on relief operations and supported numerous VIP visit 
        requests and aid coordination requests. The Sri Lankan Air 
        Force provided immediate evacuation services to foreign injured 
        in remote parts of the country;
  <bullet> Many Americans caught in the tsunami, who often showed up at 
        the embassy with only their bathing suits left, were taken in 
        immediately by Sri Lankan families and fed, housed, provided 
        with some basic clothing, and, in some cases, given enough 
        money to get back to Colombo.
  <bullet> A group of Indonesian students from Java, with no relatives 
        in Aceh, managed to get on a C-130 bound for Aceh to offer 
        their help. Relief organizations quickly utilized them moving 
        supplies.
  <bullet> Thailand allowed the United States, the United Nations and 
        the international community to use Utapao Air Base in northeast 
        Thailand as a regional hub for humanitarian assistance to the 
        affected areas.

    As the United States considers how international capability to 
respond to disasters can be improved, we need to look first at how to 
build local disaster response capacity. Our own domestic disaster 
response model can serve as a reference point. When evaluating U.S. 
internal disaster response capability, the U.S. General Accounting 
Office concluded in 1993: ``Fewer federal resources are needed to 
respond to a catastrophic disaster if state and local governments' 
response capabilities are greater . . . we emphasized that state and 
local governments are integral parts of an effective national disaster 
response system. The success or failure of any changes in the federal 
role in that system will always be heavily affected by the efforts of 
state and local responders.''
    Other countries can apply this same concept to augment their own 
domestic disaster mitigation and emergency response capacities. Within 
our current resources, the United States can continue to use such 
mechanisms as:

  <bullet> Encouraging countries to review and exercise their disaster 
        response systems: This will help them to discover ahead of time 
        and prepare for possible problems like bottlenecks in the 
        distribution network.
  <bullet> Sharing best practices: For example, Florida Governor Jeb 
        Bush is discussing with Thailand ways to share Florida's 
        experiences in dealing with the hurricanes that struck Florida 
        last year.
  <bullet> Enhancing training for first responders: In the wake of the 
        Gujarat earthquake that struck India, the United States 
        launched and continues to provide first responder training. In 
        Bangladesh, following the typhoon, we helped the country 
        install storm shelters and initiate first responder training. 
        The United States can also look to other areas where we have 
        provided extensive training. For example, by the end of 2004, 
        the United States had provided, through the Anti-Terrorism 
        Assistance (ATA) program, counterterrorism training to almost 
        41,000 law enforcement personnel in 148 countries.
  <bullet> Sharing technology: We are working with United Nations 
        agencies and other donor nations to develop an early warning 
        system for natural disasters in the Indian Ocean, and the 
        President's supplemental budget request supports this need. We 
        might also consider compiling and exercising internet-based 
        networks and databases to facilitate coordination in responding 
        to disasters.

    The U.S. response to the tsunami shows the value of prompt and 
effective American action, combined with multilateral support for 
disaster victims. There are a number of areas international disaster 
response can be improved by streamlining existing mechanisms and, above 
all, improving the capacity of local authorities to respond to crises. 
Every disaster presents a unique set of challenges, but by 
disseminating best response practices, providing training for first 
responders and ensuring clear lines of communication, the United States 
and the international community can most effectively deliver its vast 
quantity of existing support.

    The Chairman. Thank you very much, Secretary Larson.
    I would like to call now upon Secretary Wolfowitz.

STATEMENT OF HON. PAUL WOLFOWITZ, DEPUTY SECRETARY, DEPARTMENT 
OF DEFENSE, WASHINGTON, DC, ACCOMPANIED BY BG JOHN ALLEN, U.S. 
                          MARINE CORPS

    Mr. Wolfowitz. Mr. Chairman, thank you for this hearing. 
Thank you for the opportunity to testify and thanks for your 
leadership and that of the U.S. Congress in helping to lead 
this international effort in providing relief for what is one 
of the largest humanitarian disasters in living memory.
    As you know, yesterday the President announced a very large 
request for supplemental funding to help see us not only 
through this emergency relief effort, which by our account, I 
think, will cost roughly almost $350 million, but an additional 
$600 million on top of that to support the long-term recovery.
    You have my statement. I would just like to make a few 
summary points.
    The Chairman. It will be made complete in the record.
    Mr. Wolfowitz. First of all, just to observe the sheer 
scale of this disaster. It is commonly said that quantity has a 
quality all its own, and, I think that is worth thinking about 
in this circumstance. It hit me first, even before going out to 
the region, when I met with an Indonesian from Aceh, who works 
in Washington, who lost his entire family, except for an aunt 
and uncle who live here, in this disaster. I asked him how many 
people he lost. He said 200. In other words, it is not just his 
immediate family, it is his entire extended family. When you 
think about that and you think about the situation of an orphan 
in that setting who has not only lost his parents, but probably 
lost the entire community that in normal circumstances he could 
look to for support, I think you have a sense of how the scale 
of this disaster has created qualitatively different problems.
    Another illustration--and it bears very much on this 
request for funding--is the scale of the recovery operation, 
which is something that I did not fully appreciate until I went 
out there, and neither did Admiral Fargo, our commander of 
Pacific forces. Even though we had been extensively briefed on 
the extent of the damage and we had had detailed briefings in 
Thailand about the damage to the bridges along the road on the 
coast, the two impressions that Admiral Fargo and I took away 
overwhelmingly was, one, how this destruction just goes on for 
mile after mile after mile. And second, we looked at the 36 
bridges and realized that if you repaired all 36 of them, there 
is still no road in between them. The ground in many places has 
subsided 2 or 3 feet and there is a question as to whether the 
road should be rebuilt in the same place at all.
    The recovery effort here is going to be huge and no country 
could undertake that scale of recovery on its own. No 
developing country certainly.
    Second, to say a word about the U.S. military contribution. 
You have heard a lot about it. I am going to repeat things you 
have heard already, but I do not think we can say enough good 
things about what our incredible men and women have been doing. 
Thanks also to the American taxpayer who has put a huge 
investment in the ships and aircraft that made this possible. 
We did a rough count of the 26 ships, 58 helicopters, and 43 
fixed-wing aircraft that have engaged in this operation. They 
represent $28 billion of American taxpayer investment in our 
military, just the equipment alone, not to mention the people 
who are, in many ways, a bigger investment. Without that, even 
with this supplemental funding, we would not have been able to 
deliver that emergency assistance. But with that, we were able 
to deliver 10 million pounds of food and medicine, 400,000 
gallons of fresh water. We have been able to treat 2,500 
patients and we are still treating some on board the hospital 
ship Mercy.
    There is no way to count them, Mr. Chairman, but judging 
just from the fact that there were 750,000 or more displaced 
persons and in western Indonesia, those people were in 
locations that were inaccessible by any other means than 
helicopter, I think one can safely assume that tens of 
thousands of lives were saved by that effort. And the kind of 
medical disaster that we all feared did not happen, probably in 
no small measure because people were kept healthy.
    Third, to emphasize the importance of this recovery effort. 
As impressive as the emergency relief operation has been and as 
much as we can compliment our military for their contribution, 
indeed, the entire international community for coming so 
quickly to the rescue, it would be like a relay race where the 
baton is dropped by the next runner if we do not continue what 
is going to be a huge effort on the recovery side. We have, in 
my view, very important reasons to make sure that that baton is 
not dropped, not only because we owe it to the orphans who are 
trying to face life without their families, without their 
communities as a purely humanitarian matter, but also having 
made this large investment in the emergency effort, speaking, 
at least, for the Department of Defense, we would hate to see 
people say, well, it was a nice start but the finish was 
terrible.
    But finally--and this would be my last point. I would like 
to go into some detail--the fact that the largest single 
disaster area happens to be in Indonesia, I think gives it 
especial importance. As you know, I was Ambassador to Indonesia 
for 3 years, but I am not speaking here as a former Ambassador 
to Indonesia. I am speaking as someone who is very concerned 
about the larger strategic situation we are in, in the world 
today, who believes in what the President spoke about, about 
the importance of freedom and democracy in combating extremism, 
and the fact, which is often known but insufficiently 
appreciated, that Indonesia has the largest Muslim population 
of any country in the world and it combines that with a long 
tradition of religious tolerance. In fact, Indonesia recognizes 
not only Islam but Christianity, Buddhism, and Hinduism as 
officials religions of the country.
    Most importantly, starting about 7 years ago, Indonesia has 
emerged as one of the more successful developing democracies in 
the third world. It started in 1997 with what was commonly 
called an economic tsunami that engulfed not only Indonesia but 
many other countries of South Asia and East Asia which led, 
more or less directly, to the fall of the Suharto dictatorship 
in the spring of 1998. That was followed, to summarize a lot in 
two sentences, by two free and fair Presidential elections, the 
first in 1999 and the second one completed just last September, 
as remarkable, I think in its own way, as the elections in 
Afghanistan and the Palestinian Authority and Iraq that have 
gotten more international attention.
    One of the things that was impressive about that election 
is that it brought into office a President, Susilo Bambang 
Yudhoyono, who ran on a platform promising effective 
government, promising to combat corruption, promising to 
maintain the religious tolerance and inclusiveness of the 
country. And he earned an overwhelming popular mandate. It 
speaks to his leadership and it speaks, I think, to the 
Indonesian voters.
    But that government with its new mandate is now put to the 
test, and clearly meeting that test in responding to the 
recovery efforts in Aceh, if they can do it successfully, will 
strengthen democratic institutions in Indonesia and reinforce 
that country's tradition of tolerance. But it is a huge test 
and it is a test made all the more difficult because of the 
specific circumstances of Aceh.
    If you will indulge me for just a minute. Aceh is a small 
province, its people with their own language, a very 
distinctive culture, a very distinctive and independent history 
for a long time. The Dutch only began colonizing Aceh, in fact, 
in the late 19th century.
    In recent years, there has been a bitter war because an 
armed movement, seeking independence in that province, has been 
fighting the Indonesian military. I believe the United States 
and all the countries of the Asia Pacific region have an 
interest in preserving the unity of Indonesia and that the best 
way to do that is through a peaceful resolution of this ongoing 
struggle. That is going to be a factor in the recovery efforts. 
If those tensions between the Government of Indonesia for the 
Indonesian military on the one hand and the local population on 
the other are not managed properly, they will interfere with 
the recovery effort. On the other hand, I am more hopeful that 
the common interest of all parties in achieving the goal of 
successful recovery should inspire people to overcome those 
tensions, and doing so, I think might provide a platform for 
what would be in its own region a very important contribution 
to peaceful diplomacy.
    So, I believe, there is a huge stake here. The President 
obviously believes there is a huge stake, and that is why he is 
asking the Congress for so much additional support for tsunami 
recovery.
    But while our military role is coming to an end next week, 
the suffering of the victims of this tragedy will not have 
ended. This is not a time for short attention spans or donor 
fatigue. The whole international community, I believe, has an 
interest in helping to get the tools that these people need to 
rebuild their shattered lives and we look forward to getting 
support from the Congress.
    If I might, I would like to introduce Brigadier General, 
U.S. Marine Corps, John Allen, who has played the leading role 
for us in the Office of the Secretary of Defense in 
coordinating support for this relief effort, and I would like 
to say the reason you see--not only the reason you see, but the 
team that you see here, symbolizes the fact that this has been, 
in my experience, a model of interagency cooperation and 
collaboration, and I look forward to continuing it.
    [The prepared statement of Hon. Wolfowitz follows:]

Prepared Statement of Hon. Paul Wolfowitz, Deputy Secretary, Department 
                       of Defense, Washington, DC

                    THE EARTHQUAKE/TSUNAMI DISASTER

    As you know, this was a double-headed disaster. First was a massive 
earthquake that registered at 9.0 on the Richter scale, making it one 
of the 4 or 5 largest earthquakes of the past century. It lifted the 
ocean floor overlying the thrust fault between the Indian tectonic 
plate and the overlying Burma plate by up to 10 feet. The earthquake 
was followed almost immediately, in the case of the northwest shore of 
the island of Sumatra by a succession of tsunami waves. The region of 
destruction was extensive, ranging laterally 2,000 miles from east to 
west, and from north to south nearly 500 miles, or two-thirds the width 
of the United States and nearly half the distance from the north of the 
United States to the south. The tsunami waves created great destruction 
and disruption in lives and property leaving over 160,000 dead and over 
140,000 missing in its wake, over 1 million people displaced, and 
billions of dollars in reconstruction costs. To put a human face on 
this disaster, shortly before I went to the region to survey the damage 
and review our military relief effort, I met with an Acehnese who 
resides here in Washington. This one individual lost 200 members of his 
immediate family in the tsunami. An aunt and an uncle who live here are 
his only surviving relatives in the world. The rest of his family was 
swept away in an instant.
    I visited the region 3 weeks ago, just after the calamity. By that 
time, however, Thailand was already in the recovery stage. Sri Lanka 
was still conducting some emergency relief, but it was soon to turn the 
corner and the U.S. military effort was starting to shift elsewhere. In 
Indonesia they were still reeling from the enormity of this disaster. 
As terrible as it was throughout the region, the devastation in 
Indonesia was incomparably greater. Under any other circumstances the 
toll of over 8,000 dead or missing in Thailand alone would be 
devastating. Yet in Sri Lanka the losses of over 35,000 dead or missing 
is more than four times higher than for Thailand. But in Aceh, one 
small province in Indonesia, whose population at about 4.2 million is 
about a fifth of Sri Lanka's (20 million), the toll of over 114,000 
dead and over 127,000 missing was seven times greater than in Sri Lanka 
(thirty-one times greater than Thailand).

                           THE U.S. RESPONSE

    Despite the devastation, there was an encouraging amount of good 
news--the resilience of the people, the willingness of governments to 
cooperate to help their people and the readiness of the international 
community to offer assistance. One of the good news stories concerned 
the interagency coordination and cooperation within the U.S. Government 
in Washington straight out to the ground level where the execution was 
occurring. The success in this cooperation and coordination was almost 
unprecedented, and it benefited directly from lessons learned in 
previous crises.
    However, there is always room for improvement and we are looking 
closely at our response effort through an after action review. We have 
already identified, along with USAID/OFDA, the need to establish some 
common operating procedures and mechanisms to help smooth our 
coordinated response to future crises.
    The ability of the Department of Defense to respond so quickly 
would not have been possible without the relationships developed over 
many years with the militaries of countries in the region, particularly 
with Thailand. An unexpected consequence of the relief operation was 
the opportunity to work closely and effectively with the Indian 
military, with whom we are expanding ties, as well as the Indonesian 
military (TNI), with whom we have had difficult relations in the past, 
but with whom we have worked well in this crisis.
    Thanks to the Department of State, in cases where we required over 
flight clearances or status of forces agreements we were able to obtain 
them in a timely manner. This disaster, and our response to it, has 
demonstrated the importance of having standing agreements like these 
where possible, as well as bilateral Acquisition and Cross-Servicing 
Agreements (ACSAs) to enable us to cooperatively respond to 
humanitarian disasters. The restrictions that many people feared we 
might encounter from the Indonesian military and bureaucracy were 
overcome by the decisive leadership of newly-elected President Susilo 
Bambang Yudhoyono and his Administration.
    Our early relief efforts in Indonesia would have been somewhat more 
effective if we had more experience working with the Indonesian 
military (TNI) and if the TNI had better English language capabilities 
and more modern equipment, but the real point to emphasize is that the 
Indonesian government recognized immediately the need for help and 
welcomed all who came forward.
    This disaster has no doubt focused the minds of other nations on 
creating some sort of disaster response capability. The countries in 
the regional core group were selected to a large extent because they 
possessed the ability to respond quickly. It is in our interest to 
expand that capability and the number of our partners in the region who 
possess it. USPACOM has a program known as the Multinational Planning 
Augmentation Team (MPAT) to create not a standing response force, but a 
cadre of individuals who are accustomed to working together on a 
multinational basis to respond to crises. MPAT experience was put to 
good use in the response to the tsunami crisis.

                   THE DEPARTMENT OF DEFENSE RESPONSE

    At the height of the Department of Defense (DOD) effort there were 
nearly 16,000 U.S. military personnel in the region, 26 ships 
(including one USCG cutter), 58 helicopters of all kinds, and 43 fixed 
wing aircraft (mostly transport). The capital investment that the 
American taxpayers have made in the equipment that made this effort 
possible reached nearly $30B. With these state of the art resources our 
extraordinarily capable men and women delivered over 10 million 
(10,124,059) pounds of food and supplies and provided over 400,000 
(422,324) gallons of fresh water for the people whose lives were 
endangered by the specter of starvation and disease. As well, our 
military medical system provided care to over 2,500 patients, and the 
U.S. hospital ship Mercy remains off the coast of Sumatra rendering 
vital medical assistance.
    But the real impact can best be measured in the lives saved and 
assistance provided to the host nations as they tried to come to grips 
with a disaster of such scope and extent. It can also be measured by 
the good will it has generated. Conservatively, the U.S. response to 
this natural disaster saved thousands, and probably tens of thousands 
of lives, particularly in Indonesia, and provided desperately needed 
hope to hundreds of thousands of others.
    A little more than 3 weeks ago, as we flew above the northwest 
coast of Sumatra surveying the damage, the sheer scale of the 
devastation was overwhelming. The Indonesians were still finding as 
many as 3,000 human remains a day in the rubble . . . where there was 
rubble. At the airfield at Banda Aceh, in the heat and humidity, we saw 
a human chain of magnificent young American men and women loading the 
helicopters with supplies, food and water. All of them had volunteered 
to come ashore from the Abraham Lincoln Carrier Strike Group and make a 
difference however they could. In those lines were officers and 
sailors, Chiefs and fighter pilots, aid workers and Indonesian military 
(TNI) working side by side to get the food and water on those 
helicopters and out to the people of Aceh.
    As a result of this effort, in Aceh the USS Abraham Lincoln and her 
helicopters have already passed into local legend as the Grey Angels. I 
had a chance to visit with the crew of the Lincoln during my visit and 
to share in their zeal for the relief effort. They were quite proud of 
what they were accomplishing. As one fighter pilot told me--and I 
should say this is quite an admission coming from a fighter pilot--``we 
are all helicopter pilots now.''
    In Galle, Sri Lanka, we visited a school that had been undermined 
and rendered unsafe by the waves of the tsunami. In 100-degree heat, 
Marines and Navy Seabees, working alongside the Sri Lankan Army, 
operated heavy equipment and bent their backs into clearing the site 
for a new school. When we asked the teachers what they thought of the 
Marines and Seabees they burst into smiles and rapid-fire comments of 
approval.
    On the runway at Utapao, Thailand, the young Air Force men and 
women of the airlift control elements were pressing themselves to the 
outer edge of their endurance controlling the flow of relief supplies 
to airfields from Utapao through to Indonesia and Sri Lanka. The 
efforts of our service men and women have not only saved lives but also 
generated unbelievable goodwill throughout the region.
    As we pass the baton to the affected governments and international 
relief organizations, we have an interest in staying engaged. This 
crisis was humanitarian. It has been said that the Chinese character 
for crisis represents both danger and opportunity. Here then is a 
danger that failure to properly address the reconstruction needs, 
particularly in Indonesia, could harm the affected governments. But 
here too is also opportunity. If reconstruction is done the right way 
in Aceh, it could bolster the credentials of the Indonesian government. 
This is also an opportunity for the Indonesian government to show the 
people of Aceh the good things that Jakarta can do for them and to use 
the attention of the world to help achieve a political settlement to 
the longstanding separatist problem. Similarly, another country 
affected by this disaster, Sri Lanka, is facing a separatist problem. 
We hope that the opportunity that has been presented to the people of 
Sri Lanka can contribute to the long-term settlement of its divisions 
as well.
    Any government would be challenged by this crisis and the burden of 
recovery. Indonesia in particular finds itself--as an emerging 
democracy--at the time of the tsunami not yet 100 days into the 
Administration of President Susilo Bambang Yudhoyono. The 1997 economic 
crisis in Southeast Asia was referred to as an ``economic tsunami'' and 
it contributed to the downfall of the Suharto dictatorship. This real 
tsunami presents an enormous challenge to the still developing 
democratic government in Indonesia. However, by meeting the challenge 
successfully there is an opportunity to greatly strengthen democratic 
government and free institutions in the country that has the largest 
Muslim-majority population in the world.
    We need to support the wave of democracy as it spreads across the 
Muslim world. The elections held in Indonesia last year, the second 
democratic elections in the country and the first direct election of a 
President, are as significant as the elections this year in 
Afghanistan, Palestine and Iraq. While the new democracy in Indonesia 
is proving more capable than many thought possible, it must still be 
nurtured.
    President Yudhoyono holds a great deal of promise in terms of 
increasing good governance, rooting out corruption, and continuing the 
already significant reforms of the TNI. President Yudhoyono is, by the 
way, a retired general and a graduate of the U.S. Army Command and 
General Staff College through the International Military Education and 
Training (IMET) program.
    We have a strong interest in helping this democracy succeed. One of 
the first ways we can do this is by ensuring that the job of bringing 
relief and reconstruction to the people of Aceh is accomplished.
    We can also support democracy by strengthening the civilian 
government's capacity to manage defense and security matters and by 
supporting the process of reform in the Indonesian military (TNI).
    We all recognize why the U.S. Congress and the Administration have 
put restrictions on military-to-military relations with the TNI. At the 
same time, I believe we must take a broad approach to relations with a 
country as important as Indonesia.
    Legal restrictions on assistance we can provide to the TNI have 
contributed to some unfamiliarity and suspicions between our military 
forces. These restrictions did not overly limit our ability to respond 
to most of the tsunami-related requirements of the TNI. For example, we 
had the necessary authorities to provide spare parts for Indonesian C-
130 aircraft.
    Nevertheless, I believe that many of the restrictions on our 
defense relations with Indonesia have outlived their usefulness. We 
need to look forward. The Indonesia of today is simply a different 
country, and the TNI a significantly different military, from the one 
that perpetrated the depredations of East Timor.
    During my visit to Jakarta, the new civilian Minister of Defense, 
Juwono Sudarsono, recognized the need for improved defense relations. 
He specifically asked for more assistance from the United States to 
assist his efforts to continue TNI reform. We should assist him in this 
effort.

                               CONCLUSION

    Through the hard work of the tsunami victims themselves, the 
affected nations, as well as the United States and the rest of the 
international community, the situation has evolved to the point at 
which current assistance needs can now be met by the military and 
civilian officials from the affected countries in coordination with the 
U.N. and relief organizations.
    The redeployment of U.S. military assets does not signal the 
departure of U.S. assistance, but rather is a direct result of host 
nation, U.S. Government agencies, international agencies, U.N. and 
other NGOs assessments that U.S. military assets and capabilities are 
no longer required. This is done is close coordination with the host 
governments and reflects the transition from direct support to recovery 
and reconstruction.
    The lasting result of U.S. efforts should be that we did the right 
thing, for the right reasons--regardless of the nationality, race, or 
religion of those afflicted. That when needed, the United States was 
there to aid in this enormous humanitarian disaster relief effort and 
we remained only as long as we were needed and could be effective.
    Although our military role is coming to an end this week, there is 
no conclusion to the suffering of the victims of this disaster in South 
and Southeast Asia. This is no time for short attention spans or donor 
fatigue. The entire international community has an interest in helping 
get the tools that they need to rebuild shattered lives. We thank the 
Congress, and this Committee, for your strong support for this effort.

    The Chairman. Well, thank you very much, Secretary 
Wolfowitz. We applaud the point you have made of the 
interagency cooperation. We are very pleased that General Allen 
could accompany you and share the very strong work of your 
colleagues at the Department of Defense.
    I would like to call now upon Administrator Andrew Natsios 
for his testimony.

STATEMENT OF HON. ANDREW S. NATSIOS, ADMINISTRATOR, U.S. AGENCY 
         FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Natsios. Thank you, Mr. Chairman, and I thank the 
committee for this opportunity to testify.
    We have this in front of you and there is a PowerPoint 
presentation I am going to walk through. It looks like this for 
those of you who want to follow along with the document. We 
have written testimony that I would like to submit, but let me 
just go through this.
    The Chairman. It will be made complete in the record.
    Mr. Natsios. Thank you very much.
    I think we think of this as a tsunami. It was actually two 
events, an earthquake and then a tsunami. The earthquake is the 
fourth worst in recorded history. So, if there had been no 
tsunami, we still would have had widespread damage to the 
infrastructure in Aceh. In fact, 70 percent of the bridges in 
the interior of the island that were unaffected by the tsunami 
were destroyed by the earthquake. As Paul Wolfowitz just said, 
some of the roads have subsided 2 or 3 feet. That was not from 
the tsunami. That is from the earthquake, but to have both of 
these simultaneously within an hour of each other was simply 
unprecedented in its magnitude.
    [Note.--All slides presented by Hon. Natsios can be found 
at the end of his statement.]
    There is a map here, in the presentation, as to where the 
areas are that were affected, and the red line are the coast 
lines of the area affected. This actually even affected Somalia 
and Kenya. There were people killed. Fishermen were killed in 
Somalia and Kenya by this tsunami that moved at 500 miles an 
hour. Most waves travel at 30 to 40 miles an hour. It was not 
the wave itself that killed people. It was the power of the 
wave, the force of it at 500 miles an hour that actually killed 
people.
    The next slide indicates the way in which the international 
humanitarian disaster response system of the U.S. Government 
operates. Under Federal law of the Foreign Assistance Act, the 
President names an international coordinator of disaster 
response. I was named by President Bush, as AID Administrators 
have for the last 40 years, to take that role. There is a 
mechanism in Federal regulation that is a State Department AID 
rule and it says the Ambassador has to declare a disaster 
before we can mobilize our resources. Those declarations of 
disaster were done on Sunday, the day of the event itself.
    And we mobilized the disaster assistance response team, 
which is sort of a military-like unit in AID that goes out to 
the field. It is sort of like a company is, or a battalion is, 
and it does the response for the U.S. Government. It is 
composed of people from many Federal agencies but led by USAID.
    We focus on four things in all disaster responses, whether 
they are natural disasters or wars or famines, food, water and 
sanitation, health, and shelter, because these are the things 
that kill people in an emergency. This is the emergency 
response phase.
    Then we move into rehabilitation and reconstruction. We 
used to do these things sequentially, but in the last decade, 
we have realized these things are all done simultaneously. We 
will provide humanitarian relief to people 6 months from now, 
very vulnerable populations like orphans, for example. And we 
will move into the reconstruction phase. We are already doing 
reconstruction even a month after the emergency. So these are 
not sequential. They are simultaneous.
    The next slide, No. 4, indicates one thing we did the first 
week. We began cash-for-work programs with small amounts of 
money, $4 or $5 a day, particularly in Sri Lanka and in India 
and in Indonesia, to get people moving again. This is both a 
therapy for people, many of whom are in psychological shock. 
Their entire neighborhood has been wiped out. Their families 
have been wiped out. Their businesses are gone. Their jobs are 
gone. They have no income. Their houses are gone. So we want to 
get the people back working, doing something constructive, 
because for psychological reasons, it is very important.
    Second, we want to get the economy moving by getting money 
moving. Most of these people do not have jobs because the 
businesses were destroyed by the tsunami or by the earthquake. 
So we did this very rapidly. There were thousands of jobs 
literally created by our partner organizations with funding 
from the U.S. Government within the first week.
    The next slide. We also moved very rapidly into 
microfinance. There were some microfinance institutions, one of 
which in Indonesia that we started many years ago. We stopped 
funding it years ago. It has 56,000 chapters to it. This is an 
AID project from 20 years ago. It is one of the largest 
microfinance networks in the world spectacularly successful. 
There were 14 offices in Aceh of this organization, chapters 
just in the capital city; 13 of them were destroyed. They were 
small banks basically. They were destroyed. All the staff was 
killed. All the money is gone and the buildings are all gone. 
So only one of the offices was left, but we are using the 
microfinance networks that were established many years ago as a 
development intervention in Indonesia to begin to recapitalize 
businesses to get the markets moving and to get money moving 
through people's families so that the business community can 
reestablish itself. It is very important.
    Senator Frist talked about the importance of water. 
President Bush has proposed, and we have implemented, the safe 
water for the poor program, which is a Federal U.S. Government 
initiative administered by AID, funded by the Congress, which 
we appreciate very much, to create safe water around the world. 
It is to purify water not at the source, which is the 
traditional means, but at the consumption level, because lots 
of bad things happen to water between a water purification 
plant and when it gets to people's homes in many developing 
countries.
    We have a plant that produces a little bottle. This little 
packet is what we use in Latin America. I gave away my last 
bottle to a media reporter who was interested. It is a little 
bottle. It costs 50 cents to produce it. That bottle, one 
capful chlorinates 10 liters of water, which is enough for a 
family for a day. And we produce 7,000 of those a day, at a 
factory in Indonesia, for use among the poor who have dirty 
water that they normally would have to drink around Indonesia. 
We diverted the production from that plant for Banda Aceh. We 
moved 70,000 bottles of this and packets of this stuff to Banda 
Aceh within the first week. We simply took the existing 
production, moved it in there, using U.S. military transport 
planes. This is very useful. This is another instance of 
integration of USAID and the use of military logistics 
capacity.
    What we did was, we did a mass distribution. So 75 percent 
of the families had these available to them within a few days. 
It was the NGO community and the U.N. agencies and the IOM, the 
International Organization for Migration, and our partner 
organization, DAI, that distributed this, on the retail level, 
to people in the communities that were displaced.
    The next slide shows the relief effort where there is a 
U.S. Government helicopter, U.S. military helicopter, and AID 
relief supplies. We have four warehouses around the world, the 
closest of which to this region is in Dubai, where we moved 
stuff within a few days into that region. Then the distribution 
of this into the area was done by the U.S. military. We 
established a system of validation where AID officers were 
placed in all of the major military units, and before a 
logistics task was undertaken by them, we validated it that it 
conformed to international humanitarian relief protocols 
because the military said we do not know the protocols. We 
really want you to help us. We do not know which NGO or which 
is more important than one other NGO. There are partner 
organizations that have been trained in this and know how to do 
this, and we wanted to order these tasks of the U.S. military 
based on these protocols that would save the most lives in the 
shortest amount of time. That is the principle. How do you save 
the most lives in the shortest period of time? And we did that 
in a very collaborative, integrated way with the military.
    I might add we have never done this with this level of 
integration before. This was not an individual agency response. 
This was a U.S. Government response with the State Department, 
AID, and the U.S. military all functioning as an integrated 
team, which does not always happen, even though we would like 
it to. It really did happen in this case. And our offices are 
reporting to me we need to build this into doctrine so we can 
do this again the same way.
    The budget that President Bush announced yesterday in the 
supplemental is, we think--we are checking this now--the most 
generous in the history of the United States for a natural 
disaster, a single event. Nine hundred and fifty million 
dollars has been proposed, and I would like to break down for 
you how on the reconstruction side of this and rehabilitation 
side of this will be spent.
    Three hundred and thirty-nine million dollars will be spent 
out of this $950 million for infrastructure reconstruction, 
roads, schools, water distribution systems, bridges. We are now 
working with the ministries of the countries that were most 
severely damaged because they are in charge of their own 
reconstruction. We need to emphasize this. It is not 
international agencies. It is not AID agencies. It is not NGOs 
in charge. It is the government in charge. These are all 
democratically elected governments. This is not Darfur. This is 
not Rwanda after the genocide. This is not a post-conflict 
situation, even though there have been insurgencies in both 
countries. These are parliamentary democracies. We need to 
respect their leadership and follow their lead and work with 
them on what is appropriate, what is not appropriate from our 
own perspective. We were doing that very cooperatively and very 
collaboratively.
    One hundred and sixty-eight million dollars of this budget 
will be spent for the transition of victims and survivors back 
to their communities in the form of food aid, shelter, housing 
reconstruction, education, and programs that help people get 
back to work and establish businesses. I just mentioned some of 
those.
    There is $35 million for disaster early warning systems. I 
might add the biggest risk in the Indian Ocean is not tsunamis. 
It is typhoons; 400,000 people died in the great typhoon of 
1974, in Bangladesh alone, in 1 hour. We established an early 
warning system with the U.S. Weather Service and the Bangladesh 
Government after that emergency that set up an alarm system 
from our weather satellites. We did the same thing at the 
request of the Government of Vietnam and all of the South 
Pacific islands, which are at risk from typhoons. Those systems 
have saved millions of lives over the years.
    What we should do, I think, is to look at a natural 
disaster vulnerability system, not just tsunamis, but also 
typhoons, which is a greater risk in this region, so that we 
have an alarm and early warning system for both simultaneously 
in the same system.
    There are $62 million to provide technical assistance for 
planning reconstruction activities. If we are going to spend 
this much money, we have to ensure that the ministries in the 
governments we are working with have the logistical capacity, 
the planning capacity, and the accountability systems and the 
financial management systems to make sure this works properly.
    And finally, there are $346 million to replenish costs 
incurred by USAID and DOD in the provision of immediate relief 
so that none of our programs in other regions of the world will 
be adversely affected.
    We have already begun housing reconstruction for temporary 
shelters that will house people until the larger reconstruction 
program is in full gear, and we are beginning to do that. We 
hope this budget goes through quickly.
    The next slide indicates the work we are doing with the 
U.S. Army Corps of Engineers to do assessments. We are doing 
these jointly with AID staff and the U.S. Army Corps about what 
the condition is of different elements of the road system in 
Aceh. That will help us to design, with the Indonesian 
Government, the infrastructure.
    The next slide indicates just a picture of what is left of 
the major highway in the area of Aceh that was most affected by 
the earthquake.
    We are beginning to focus our attention on the fishing 
fleets now. Of course, these are coastal areas primarily and 
they were badly affected by the tsunami and there is a lot of 
destruction to the boats you see here on the left. But we are 
bringing new boats in now so they can begin to fish again.
    Finally, we have the elements of an early warning system. 
This will all be done in a coordinated fashion in the 
international system. We do not do this alone. The governments 
will have to run the early warning systems. So we have got to 
make sure that everybody is trained properly and the sensor 
devices are in place and the sensors have a communication 
system to the national disaster aid agencies in those countries 
and then that the communities get a very rapid response and 
then people know what to do after they hear the alarm. The 
Japanese have just hosted two conferences on this. We are 
working with them. They have a lot of expertise in this, and 
UNESCO at the United Nations is also expert in this. So we are 
working with all of them in an integrated fashion.
    So that is a general summary of what the planning is on how 
we will spend the $950 million to deal with this terrible 
tragedy.
    [The slides that were presented and prepared statement of 
Mr. Natsios follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Prepared Statement of Hon. Andrew Natsios, Administrator, U.S. Agency 
             for International Development, Washington, DC

    Chairman Lugar, Ranking Member Biden, and members of the Committee, 
thank you for inviting me to testify today about U.S. strategies for 
relief and reconstruction assistance in response to the recent 
devastating tsunami.
    The U.S. Government (USG) is authorized under section 491 of the 
Foreign Assistance Act to carry out and coordinate international 
disaster relief, rehabilitation, and reconstruction assistance. As 
USAID Administrator, I am the President's Special Coordinator for 
International Disaster Assistance. In this role, I can direct all of 
the Agency's resources, as well as call upon the assistance of other 
USG departments and offices.
    I have delegated the operational coordination for foreign disaster 
assistance down through the USAID structure to the Director, Office of 
U.S. Foreign Disaster Assistance (OFDA). USAID/OFDA plays a critical 
role in the international disaster response framework, working at all 
levels to ensure that an appropriate, effective, and efficient response 
is provided to those who are suffering. Because the USG provides over 
40 percent of all humanitarian assistance funds worldwide from all 
donor governments, our role in disaster assistance has been long-
standing, extensive, and marked by deep involvement.
    USAID has developed systems for immediate response to disasters, 
including rapidly-deployable Disaster Assistance Response Teams 
(DARTs), and Washington, DC-based Response Management Teams to support 
the field operations. In order to respond quickly and effectively, 
USAID/OFDA has refined the Incident Command System (ICS), which was 
developed by the U.S. Forest Service to fight forest fires. ICS is a 
command and control tool in a disaster response. It provides a means to 
coordinate the efforts of individual agencies as they work toward the 
common goal of saving lives, property, and the environment.
    This system has since been adopted by many response organizations, 
both domestically and internationally. Through these mechanisms and 
over forty years of experience in responding to international 
disasters, USAID is able to incorporate a wide variety of skills and 
resources in its response. Clearly, the system works.
    USAID consistently has received favorable reviews on its disaster 
relief operations from the General Accounting Office (GAO) and has 
helped untold millions of people affected by disasters worldwide.
    Organizational reforms at USAID, improved interagency coordination, 
and flexibility have marked our response to the unprecedented 
devastation of the Tsunami disaster. The United States responded 
rapidly and as a team--across USG agency boundaries as well as in 
partnership with non-government organizations (NGOs), corporations, 
governments, and other relief agencies. This enabled us to mobilize the 
people and resources that were crucial to saving lives and alleviating 
suffering. Let me elaborate on these points.

Coordination
    The very day the earthquake hit, USAID mobilized Disaster 
Assistance Response Teams (DARTs) and USAID Mission staff within hours 
after the disaster hit. Approximately 50 DART members and more than 100 
USAID Mission staff in Indonesia, India, Sri Lanka, and Thailand were 
involved in the overall coordination of relief and reconstruction 
activities, reviewed NGO, U.N. and host government funding requests, 
and recommended appropriate USG relief efforts. A round-the-clock 
Response Management Team (RMT) was established in Washington as a 
backstop to the field staff and point of contact for information, 
assistance, and coordination.
    In disasters of this magnitude, it is absolutely essential to 
coordinate civilian response activities with those of the U.S. 
military. Let me take this opportunity to personally thank the 
President and the military for rapidly committing the assets that were 
needed to the region. Without their strong logistical support and the 
staff and equipment they made available, our response would not have 
been as effective as it was.
    Natural disasters and critical military operations have seen 
cooperation between USAID and the Department of Defense expand 
dramatically over the last several years. Key to this cooperation has 
been the creation of effective coordination mechanisms--from the 
tactical field level all the way up to the strategic headquarters 
level--that has involved USAID staff at critical points in the 
decisionmaking process. What we have witnessed over the past several 
weeks is substantial progress toward the seamless cooperation of both 
organizations and is the result of hard work long before the earthquake 
and tsunamis hit. The efforts of both DOD and USAID to build 
relationships that bring the capabilities and expertise of each into an 
effective partnership have proven their worth in this disaster, and we 
will continue this approach of active engagement and planning with DOD.
    Let me explain how the relationship is working by citing what took 
place in Thailand. Thailand generously offered the use of Utapao 
airbase as the humanitarian assistance hub for Tsunami relief. There, 
the DART established a Military Liaison Cell to validate and prioritize 
requests for assistance. This helped ensure that U.S. and other 
coalition military resources were put to use in the most effective and 
efficient manner, according to accepted humanitarian relief protocols, 
as opposed to a ``first come, first served'' basis. Liaison officers 
from the affected countries' militaries as well as from militaries of 
other donor nations and the United Nations also participated in the 
coordination process. The military's willingness to follow USAID 
guidance on the best use of their assets to support local governments 
and NGOs was a milestone in our relationship. I am convinced that this 
coordination was key to saving lives, feeding people, and relieving 
great suffering. USAID also placed staff at the Pacific Command 
Headquarters in Hawaii, where much of the planning for the U.S. 
military's role in the relief effort originated under Admiral Tom 
Fargo's leadership.
    As we move from relief to reconstruction, USAID and DOD are already 
working to ensure a seamless and smooth transition from reliance on 
military assets to those of civilian agencies. Towards this end, 
USAID's Deputy Assistant Administrator for Asia and the Near East, Mark 
Ward, just returned from a trip with Deputy Secretary Wolfowitz to the 
region where they discussed concrete steps to ensure that civilian 
agencies are in position to assume the functions initially provided by 
the U.S. military.
    One of the more remarkable examples of cooperation involved a USAID 
Food for Peace Officer, Herbie Smith, and the USS Abraham Lincoln. The 
Abraham Lincoln, offshore at Banda Aceh, could produce tens of 
thousands of gallons of potable water. The only problem was that there 
was no way to get it to people on shore. Herbie immediately went out 
and bought a huge number of water jugs from local markets throughout 
Indonesia and arranged with the military to get the jugs transported to 
the Abraham Lincoln. Military personnel then filled the jugs with clean 
water, and helicopters distributed the water in Aceh. This is but one 
example of how USAID's experienced staff, working hand-in-hand with the 
military, moved assistance to needy people.
Organizational Reforms at USAID Ensure Integrated Response
    USAID's relief effort in response to the Tsunami was based on the 
significant procedural and policy changes that govern how the Agency 
responds to overseas disasters. We have both revamped our 
organizational approach and accelerated the time perspective under 
which we conduct relief operations. These changes have been in the 
works for the last several years. They are based largely on our 
experiences with Hurricane Mitch, as well as applying the lessons we 
learned in Mozambique, Afghanistan, and Iraq.
    Until recently, a compartmentalized approach was used in responding 
to disasters overseas. USAID's Office of Food for Peace (FFP) would 
handle emergency food needs, while USAID's OFDA would respond to 
immediate non-food necessities. If the disaster struck in a ``country 
in transition,'' USAID's Office of Transition Initiatives (OTI) would 
also be called to respond. After immediate life-saving assistance was 
provided, USAID's respective regional bureau would step in to work on 
reconstruction and rehabilitation. This approach was very segmented, 
both chronologically and organizationally. It resulted in lost 
opportunities in the use of relief initiatives that could have been 
used more strategically to accelerate reconstruction, encourage 
community participation, and build a foundation for development. In 
contrast to the past, USAID now takes a more holistic approach 
organizationally and a longer term view operationally.
    USAID is now in the position to draw immediately from wide-ranging 
expertise found throughout the Agency and in the rest of the USG. In 
effectively spearheading the USG's disaster response, our activities 
are no longer stove-piped into different offices and bureaus within the 
Agency. In the Tsunami relief effort, USAID's DART and RMT included 
staff not only from OFDA, but also from several other USAID offices and 
bureaus, including FFP, OTI, the Office of Democracy and Governance, 
the Bureau for Global Health, the Bureau for Asia and the Near East as 
well as USAID Missions in the affected area and the Bureau for 
Legislative and Public Affairs. Staff from USAID Missions in Jakarta, 
Colombo, New Delhi, and Bangkok were embedded into the DART structure 
from the beginning. In this regard, it is important to note the value 
of having a preexisting USAID mission in the region. We have also 
recruited staff for the DART and RMT from other federal agencies, such 
as DOD, the Department of the Interior, the Department of Health and 
Human Services, including the Agency for Toxic Substances and Disease 
Registry, the Department of Agriculture, including the U.S. Forest 
Service, and the Bureau for Land Management. The DART and RMT also used 
staff from outside the federal government, including the Fairfax and 
Los Angeles Search and Rescue teams, the University of Texas, and the 
Center of Excellence in Disaster Management and Humanitarian 
Assistance.

Quick Response
    USAID has drawn upon its long experience in humanitarian relief to 
establish the relationships and agreements necessary to quickly 
mobilize all available assets when a disaster strikes. The Agency 
worked in partnership with the global civilian humanitarian relief 
community--NGOs and international organizations--and used its pre-
positioned food stocks in Dubai to rapidly mobilize relief operations 
in affected countries. Bringing together the NGO experience, technical 
skills, and resources adds tremendous value to our response efforts. In 
the Tsunami disaster, you have seen the fruits of that labor.
    The great size and complexity of the response put flexibility and 
ingenuity at a premium. This was in evidence in actions that USAID 
undertook in conjunction with two of its partners, the International 
Organization for Migration (IOM) and Development Alternatives (DAI). 
Prior to the earthquake, humanitarian organizations were not permitted 
into Aceh province without express permission by the Government of 
Indonesia. As it turns out, a network of staff from IOM and DAI did 
manage to retain a strong relationship with provincial officials in 
spite of this restriction. USAID and other donors capitalized on the 
influence of IOM and DAI by providing them with funding to help move 
relief commodities into Aceh from Medan. This was done with the help of 
80 trucks contracted by USAID/Indonesia.

The Cuny Principle
    USAID's policy of consolidating and coordinating relief efforts 
within the Agency and across the USG is only part of our new approach. 
Another is our focus on incorporating development objectives for 
economic and social change into relief efforts from the very beginning 
of a response. Our policy is to plan and carry out relief, 
rehabilitation, and reconstruction simultaneously.
    More than two decades ago the late, legendary disaster expert, Fred 
Cuny, published a groundbreaking book, ``Disasters and Development'' 
which laid out his long experience in working with the victims of 
natural disasters around the world. His vision was revolutionary, yet 
breathtakingly simple. In a nutshell: The talent and resilience of 
people struck by disaster are the most powerful forces for the 
rehabilitation and reconstruction of societies struck by disaster. The 
people in their communities are the first responders. Moreover, they 
embody strengths that exist in no other group--strengths that 
absolutely must be harnessed if we are to build positive change in the 
affected society.
    Natural disasters--earthquakes, volcanoes, hurricanes, tsunamis--
hurt people and cripple economies. They kill; they maim; and they 
destroy. But victims are never helpless. These people know their 
environment. They know their society. They are very likely to have 
coped with other disasters in their lives. They, more than anyone, want 
to recover. And, as the shock of the disaster subsides, new 
opportunities emerge that can be exploited to build a more sustainable, 
more equitable, and, in many cases, a less violent society. Disaster 
survivors are often among the strongest voices for change.
    External assistance must capitalize on these opportunities. 
Immediate physical needs have to be met: Clean water and sanitation, 
health care, food, and shelter. But the best way for outsiders to 
assist is to provide help that is part of a long-term solution defined 
by local actors, rather than just a hand-out. In practice, this means 
that relief assistance efforts should focus on recovery and renewal 
from the very beginning. While providing life-saving assistance, we 
need to get markets functioning again through activities such as cash 
for work that creates a demand for goods and services. In short, a 
return to normalcy depends on reviving the local economy, and that 
means restoring local markets.
    Relief assistance should help reestablish local government and 
civil authorities by responding to their priorities in vital relief 
efforts. Our interventions should aim at restarting social services at 
the local level--schools, primary health care clinics, water treatment 
facilities, and so on. And it is vital, early on, that we assist 
stricken families with the help they need to rehabilitate destroyed 
housing and restore ruined livelihoods. Again, the assistance effort 
should focus on development even as it provides short-term relief.
    Fred was killed in Chechnya in 1995, almost ten years ago. Yet the 
Indian Ocean tsunami shows that his vision is as relevant as ever. In 
brief, we must work to see that something good can emerge out of 
destruction.
    This approach to relief and development assistance forms the 
cornerstone of USAID's programming strategy. It applies operating 
principles that I recently codified as USAID's ``Nine Principles of 
Development and Reconstruction Assistance.'' For example, the Principle 
of Ownership states that the affected people themselves own their 
relief and recovery process. The Principle of Capacity-Building 
requires that USAID interventions strengthen local institutions. The 
Principle of Sustainability says that program impact must endure after 
assistance ends. I am attaching a summary of these principles to this 
testimony.

Relief Efforts Also Address Trauma and the Increased Risk of Human 
        Trafficking
    USAID's programs are helping survivors to deal with trauma and 
providing for a return to a sense of normalcy and stability in their 
communities. The family is the cornerstone of psychological well-being 
and the focus of many of our efforts. USAID is supporting programs that 
unite dislocated children with extended family members. We are also 
funding initiatives that restore a sense of security and stability for 
children by providing them with a structured environment. In such 
places, children can be supervised while adult family members engage in 
rebuilding efforts or income-generating activities.
    USAID worked with our partners to initiate public awareness 
campaigns on the added risks that women and children face and their 
vulnerability to falling victims to traffickers. These risks increase 
when people are displaced, when children are separated from their 
families, when livelihoods are ruined, and when infrastructure is 
destroyed. While so far there is no evidence to suggest that 
trafficking has increased, we are redoubling our efforts to educate 
women and children and relief workers to these risks, and to help 
government organizations in affected countries address issues of 
protection and abuse among affected populations. In Sri Lanka, for 
example, USAID has funded UNICEF and Save the Children/UK to establish 
a registry of orphans. We are also funding the Solidarity Center to 
provide training for relief workers and to strengthen collaborative 
efforts on the part of government and civil society to protect 
children. In Indonesia, similar public awareness campaigns are being 
targeted to the displaced and training provided for relief workers who 
come in contact with these populations.

Helping Countries Rebuild: The U.S. Tsunami Relief, Rehabilitation and 
        Reconstruction Program and USAID's Role
    The USG Tsunami Reconstruction Program will support efforts on the 
part of national governments and local communities to rebuild quickly, 
restart their economic engines, and harness the unprecedented resources 
and support that is coming from around the world. The goals are to save 
lives, support reconstruction. priorities of affected countries and 
regions and to advance a wide range of development needs and foreign 
policy interests. The United States will continue to work closely with 
affected countries and other donors as we assess needs and undertake 
reconstruction activities.
    President Bush is seeking $950 million as part of the supplemental 
appropriations request to support the rehabilitation and reconstruction 
of areas devastated by the Indian Ocean Tsunami and to cover the costs 
of the USG's relief efforts to date. This is the most generous USG 
response to a foreign natural disaster in American history.
    Our reconstruction program is built around five themes:
    --One, using relief to foster reconstruction, self-sufficiency and 
build a foundation for future development. Cash-for-work, micro-finance 
and livelihood programs are helping to get markets working, building 
individual and community self-sufficiency.
    --Two, providing technical assistance to affected governments with 
immediate survey and planning work to help them make the best decisions 
about utilizing the considerable contributions from the world 
community. This assistance will include support to assist local 
authorities, communities and local civil society organizations and 
ensure their full participation in planning, prioritizing and 
undertaking reconstruction programs. Proper emphasis is being placed on 
inclusion, transparency, and accountability in all such efforts.
    --Three, financial and technical support to rebuild and improve 
infrastructure, including important, high visibility transportation and 
public utilities projects such as schools, roads, bridges, and water 
treatment plants, which will serve as major USG interventions. A local 
communities grants program will support small scale infrastructure 
reconstruction including clinics, schools, markets and other community-
level infrastructure identified by communities.
    --Four, helping individuals to rejoin the workforce and return to 
their communities by helping individuals rebuild their homes, replace 
lost assets, and get back to work. Grants, small loans, and cash-for-
work programs will pump much needed money directly into the hardest hit 
communities. This will allow disaster victims to take control of their 
own lives and start rebuilding their businesses and communities. The 
success of our efforts requires us to expand and build upon ongoing 
partnerships with U.S. and local NGOs in creating these jobs and income 
opportunities.
    --And, five, building the capacity within the affected governments 
to prepare for and respond to future disasters. This will include U.S. 
support for a regional tsunami early warning system being designed 
collaboratively by other countries and donors. We will also support 
efforts in Indonesia, Sri Lanka, Thailand, and India to strengthen the 
communications that alert communities to imminent threats, as well as a 
community-based outreach and training program so that people know what 
to do when they hear an alarm. We will also aid governments put in 
place measures to help national, provincial and local government guide 
reconstruction that will be environmentally-sound and infrastructure 
that is more resilient to likely natural disasters.

Accountability
    As USAID continues to make major improvements in its approach and 
operations, we have not forgotten one of our fundamental obligations--
ensuring the proper and effective use of U.S. Government funding. USAID 
takes its responsibility as steward of taxpayer money very seriously. 
For this purpose, USAID meets regularly with host governments and 
contractors and grantees to ensure that all USAID-funded activities are 
well coordinated and complement other programs on the ground. USAID 
staff members make regular field visits to observe the progress of 
USAID-funded programs. Our missions are also working with civil society 
organizations in the countries, such as the Forum on Aceh Recovery, to 
assist efforts of local organizations to track and monitor relief and 
recovery budgets.
    The Office of Inspector General (OIG) has been present from the 
inception of our response to ensure high levels of accountability for 
public funds and to help guard against possible waste, fraud, and 
corruption. As with USAID projects in Iraq and Afghanistan, the OIG has 
been asked to conduct ``concurrent financial and performance audits.'' 
These audits are conducted as reconstruction or other activities unfold 
rather than after they are largely complete so that any accountability 
or program effectiveness issues can be identified and corrected at an 
early stage. For example, USAlD/Indonesia has already requested that 
OIG Regional Inspector General Office in Manila perform concurrent 
audits of work being performed by the contractors and grantees in Aceh 
and Northern Sumatra. Once supplemental moneys for our efforts there 
are received, auditors will be engaged at all levels of programming for 
these concurrent audits, from the development of statements of work to 
implementation of the contracts.

Partnering to Meet the Challenges Ahead
    The President, and former Presidents Bill Clinton and George Bush, 
have asked people to reach deep into their pockets to help those 
affected by this disaster. And the response of the American people--
individuals, as well as civic associations, churches, and 
corporations--has been overwhelming. Americans have donated more than 
$800 million to humanitarian agencies--a total amount second only to 9/
11. As one gauge of public response, it is interesting to note that 
USAID has had more than a million visitors to our Tsunami website. Some 
days early on in the crisis registered more than 80,000.
    The Agency is also actively working with the community of private 
voluntary organizations, as well as large corporate partners, to build 
public-private alliances in support of medium to long-term 
reconstruction efforts in the region. For example, USAID has already 
initiated a partnership with Mars, Incorporated, which has generously 
committed $1 million to assist vulnerable children in the affected 
area. Their generosity will be met by a matching grant from USAID. The 
USAID and Mars partnership to fund will focus on meeting the needs of 
vulnerable children in the tsunami-affected areas of Indonesia and 
India. Funds will be channeled to international and local relief 
organizations that are working in the affected areas. This is a great 
example of the USG helping channel the generosity of the private sector 
to help vulnerable children during this crisis.
    I would like to thank President Bush, and the two former Presidents 
as well, for mobilizing this remarkable display of public support. And 
I would like to thank the American people--for showing the world once 
again what a compassionate people we truly are.
    The compassion of Americans is at the very core of what USAID 
stands for. By giving the citizens of emerging nations a helping hand 
as they work to improve their societies and economies, we show the 
world the best of the United States. As the President said, ``Well 
after the immediate danger passes, USAID is still going to be in the 
hard-hit areas . . . helping the people improve their schools and 
develop health services and mitigate conflict and reinvigorate local 
economies, and help build institutions of democracy, so people can live 
in peace and freedom.''
    The policy changes that I have described here today, the results of 
which you have seen in the remarkable relief efforts underway in South 
Asia, are all part of living up to the trust that the American people 
have placed in us. The world is a complex place, and interventions have 
to be designed accordingly. We have to stay flexible, keep our eye on 
the long-term objectives, and work together. This is the only way 
forward. And this is the new USAID. All Americans can be proud of its 
performance.
    Thank you.
                                 ______
                                 

        Principles of Development and Reconstruction Assistance

    The following nine principles are the key tenets of USAID's work. 
The principles are not a checklist. They are a summary of the 
characteristics of successful assistance programs. They cannot be 
applied the same way in each situation but should serve as a reference 
for development practitioners as they design and implement programs.

                         PRINCIPLE OF OWNERSHIP

    Recognize that a country and its people own, and participate in, 
their social and economic development.

                     PRINCIPLE OF CAPACITY-BUILDING

    Strengthen local institutions and promote appropriate policies 
essential to economic growth and good governance. Recognize that there 
are limits to a country's and its institutions' ability to absorb large 
amounts of assistance.

                        PRINCIPLE OF PARTNERSHIP

    Achieve common development objectives through close collaboration 
with governments, communities, donors, NGOs, international 
organizations, universities, and the private sector.

                        PRINCIPLE OF SELECTIVITY

    Allocate resources to countries and programs based on need, policy 
performance and foreign policy interests.

                      PRINCIPLE OF SUSTAINABILITY

    Design programs in a way that ensures their impact endures after 
assistance ends.

                          PRINCIPLE OF AGILITY

    Adjust to changing conditions, take advantage of opportunities and 
minimize the cost of delivering assistance.

                      PRINCIPLE OF ACCOUNTABILITY

    Assign individual responsibility for managing tax-payer funds, and 
apply transparent systems for tracking funds and monitoring progress 
toward objectives.

                        PRINCIPLE OF ASSESSMENT

    Tailor programs based on careful research and understanding of 
local conditions and best practices in international development 
assistance.

                          PRINCIPLE OF RESULTS

    Focus resources through programs of sufficient size and scale to 
achieve clearly defined and measurable objectives critical to a 
country's needs. Maximize cost efficiency and timely delivery of 
services while ensuring objectives are met.

    The Chairman. Thank you very much, Mr. Natsios.
    We will now have questions.
    Mr. Wolfowitz. Mr. Chairman.
    The Chairman. Yes.
    Mr. Wolfowitz. Just before questions, could I ask General 
Allen to say a word on behalf of our wonderful men and women in 
uniform? He is the one on this panel best positioned to say 
something on that score.
    The Chairman. Very well. General Allen.

         STATEMENT OF BG JOHN ALLEN, U.S. MARINE CORPS

    General Allen. Thank you, Mr. Chairman. Thank you for the 
opportunity today to speak on behalf of the men and women.
    I have been in the service over 30 years at this point, and 
I have to tell you, sir, I was unprepared for the extent of the 
devastation that we encountered on the ground in the countries 
to whom we brought aid. No verbal picture can ever adequately 
describe it. No camera can ever capture the image of desperate 
suffering that the populations in this region encountered.
    But to this region came the American military, the U.S. men 
and women of our country. I have spoken to many of these men 
and women who served in Operation Unified Assistance, and not 
one was unmoved by the scope and the magnitude of this 
disaster. Every person, with whom I spoke, was deeply honored 
to have been a part of this relief effort, but also, at the 
same time deeply humbled, humbled at the opportunity to 
contribute and at the courage and the dignity and the gratitude 
of the victims and the countries themselves.
    America's sons and daughters serving in these distant 
regions embodied all of the finest traditions and the highest 
values of the United States of America. They came quickly. They 
served quietly, and they departed without fanfare, seeking no 
recognition for themselves, deriving pleasure and reward only 
in the saving of lives and the easing of suffering.
    We had the chance to meet with members of all of the 
services on the ground. Our first day, as we landed from a 
helicopter, in Banda Aceh, out from the tree line came very 
quickly, a crowd of about 100 sailors who had come from the 
Abraham Lincoln whose silhouette you could see off the beach. 
It has now become known as the Gray Angel. Those hundred 
sailors had all volunteered to come ashore, and there were 100 
each day coming ashore to volunteer to do nothing less than to 
carry food or to carry water, to load the aircraft, to do all 
that they could. Whether they were otherwise employed on the 
nuclear power plant of that aircraft carrier or repairing 
highly sophisticated equipment, they just wanted to help. They 
did that every day for the entire operation.
    We went to Sri Lanka to a school in a town called Galle 
that had been undermined by the waves and had largely 
collapsed. And there in the 100-degree heat were marines and 
seabees working to knock down that school to begin to build a 
new one. We had the opportunity to speak with the teachers at 
that school, and we asked them what they thought of those 
seabees, those young sailors and those young marines. And 
instantaneously there were spontaneous smiles and words of 
congratulations and thanks.
    On the runway at the Thai naval air base of Uttapal, United 
States C-130s were parked wing tip to wing tip being loaded and 
offloaded constantly by young Air Force men and women, who were 
working in high humidity and high heat around the clock, to 
push those supplies forward as fast as they possibly could, 
working to the outer edge of their endurance.
    And finally, probably one of the most perfect examples came 
when I had the opportunity to stand in a tent along the runway 
of the airstrip at Banda Aceh. That runway at Banda Aceh was 
clearly the single point where all of the aid was coming in to 
northern Sumatra and coming in and being distributed. It was a 
true hub. Airplanes were coming in constantly 24 hours a day. 
Helicopter activity was going on as the distribution to the 
further points was conducted. And all of that was being 
orchestrated by young Air Force men and women from the tanker 
airlift control element, about 20 of them, young airmen. And if 
that could be called a symphony or an orchestra, they were all 
the maestros in moving those airplanes along the ground and 
loading and unloading that cargo. And standing in that tent 
with a young Air Force major who commanded that group, I 
observed, largely in tribute, that if those 20 young men and 
women went away tomorrow, that would be a single point of 
failure, and this would all grind to a halt.
    Now, it had been words of tribute. I think he took it a 
little differently. He took one step toward me in the half-
light of the tent, looked me in the eye, and said, ``we will 
not fail.'' Those words were emblematic of the can-do attitude 
of every man and woman in uniform that served in Operation 
Unified Assistance. Those were courageous words and words that 
described heroic acts.
    Let me close, sir, by offering my sincere thanks first to 
those who served in this contingency and who are at this very 
moment, as Secretary Wolfowitz said, still continuing to save 
lives and to restore hope to a shattered population.
    It is also important to note that we could not have been as 
effective as we were in this operation had it not been for the 
immediate cooperation of Thailand, Singapore, and Malaysia who 
selflessly, generously, and unhesitatingly made their 
facilities available for the rescue and the relief operations. 
Our longstanding and cordial relations with these countries 
converted quickly into access to airfields and port facilities 
and made all the difference in the emergency of the early 
response and our continued efforts today.
    Finally, sir, I would be remiss if I did not publicly 
recognize the role of this committee and the U.S. Congress in 
supporting the U.S. military in general and Operation Unified 
Assistance in particular. I can say unequivocally no other 
country in the world could have responded as did the United 
States of America. In the earliest moments of this crisis, 
desperate voices were raised in that region, and there was a 
cry that went out, who will help us? Who will come? The 
response was from the United States. It was clear and it was 
immediate. America will help you. We are coming.
    As our military role in this crisis draws to a close, 
American units are departing the region, even as I speak, some 
for home and for families and loved ones, and others to 
continue on with other missions. The fact that we could help, 
the fact that we could get there so quickly, and the kinds of 
capabilities we brought to this crisis is a direct result of 
the support of the U.S. Congress for our U.S. military. I am 
not only proud of our services, I am proud of that support, 
sir, and I am deeply grateful for it.
    Thank you for this opportunity to address the committee and 
thank you for your leadership, sir.
    The Chairman. Well, thank you very much, General Allen. Our 
hearing is timely because our military forces are still there. 
We have an opportunity to express appreciation to them, and we 
appreciate so much your very thoughtful and compelling 
testimony about their contributions. We have an opportunity to 
pay tribute today, likewise, to those in our State Department, 
those in USAID, in NGOs, and others who will be continuing on.
    One of the reasons for the hearing is to recognize the 
extraordinary leadership that in an interagency way, as 
Secretary Wolfowitz said, has been exemplified, but also to 
indicate, as the $950 million the President has asked for, that 
this is a long trail ahead. So often these emergency situations 
are overtaken by other emergencies and other compelling needs. 
This one will not go away. The enormity you have been 
describing is very clear, and the graphics you have presented 
to us and to the press and to the public are very important.
    Let me suggest that we will have an 8-minute round of 
questions. If there are more questions after that, we will have 
another round. We will have another panel following this. So I 
think members are mindful of that.
    Let me start the questioning by asking you, Secretary 
Larson. You have outlined at least seven task forces that have 
been in operation at the Federal level. Who is ultimately 
responsible for coordination of all of these efforts that have 
been described by the witnesses today?
    Mr. Larson. Now, as we move into a process that, while it 
continues to have relief elements, is more focused on 
reconstruction, the structure that we have set up is one where 
the State Department will be bringing together the agencies 
that are involved in this and trying to work with everyone to 
establish policy and priorities for the funding the President 
is requesting. Obviously, USAID is our principal implementing 
agency on the ground and is the one that is doing the work 
going forward.
    We have established, within the Economic Bureau of the 
State Department, a very small task force with a handful of 
additional people that can help provide the impetus and the 
ongoing energy that, I think, you and other members of the 
committee have suggested has to be there for this to be a 
sustained effort.
    The Chairman. Secretary Wolfowitz, you have mentioned, as 
we talked about the $950 million supplemental appropriation, 
that this does not include all of the operation costs already 
incurred by the Department of Defense for tsunami-related 
operations. How will those costs be covered?
    Mr. Wolfowitz. I believe, actually, they will be covered 
out of this supplemental, but the original request only covered 
the specific things that applied from what we call, I guess, 
ODACA, which is the specific humanitarian relief. But out of 
this $950 million, $346 million, we estimate, will cover 
already incurred expenses of DOD and USAID. General Allen, do 
you have the exact numbers? I think it is about a two-thirds/
one-third split.
    The Chairman. Well, that really answered my question 
because essentially we know that the other relief expenditures 
are being covered. So, the point is that other obligations, 
other activities our country has elsewhere will not suffer. 
Essentially this appropriation is going to cover the 
expenditures, and that would be true of our military 
operations.
    Mr. Wolfowitz. That is right, with $600 million for 
reconstruction.
    It is worth emphasizing too, Mr. Chairman, we are from the 
Government, but the private sector is doing amazing things. As 
you know, former Presidents Bush and Clinton have led a 
fundraising effort, which I am told--I do not mean that effort 
alone, but the American people in their various voluntary ways 
have already pledged something like $700 million of private 
assistance. I think that also deserves a special mention.
    The Chairman. It certainly does. Dr. Frist mentioned that 
the meter is still running. It may be moving toward the $800 
million or the $900 million figure.
    Secretary Wolfowitz, the seeds of democracy have been 
implanted and have been taking hold in Indonesia for some time. 
As you mentioned, you served as our distinguished Ambassador to 
the country, and it was my privilege to visit with you during 
that period of time.
    But now, one of the consequences of this transition is a 
new role for the Indonesian military, the TNI. Now, please 
provide the committee, today, with your assessment of TNI's 
changing role. In addition, would it be helpful to have a level 
of cooperation with our authorities in connection with the 
ongoing Timika investigation, as well as the cooperation that 
we are hopeful that we will have, as our military leaves, as 
our civilians are still there? The complications of all of this 
are enormous and beyond this hearing today. But give us some 
impression of what our goals ought to be with regard to both 
democracy and the military, including an increased level of our 
participation or cooperation with both.
    Mr. Wolfowitz. Let me take a stab at it. As you know, it is 
a big and complicated question, and I know Secretary Rice is 
engaged currently and, I think, over the coming week or two in 
consultation with Members of the Congress about this issue, 
which is a sensitive issue. Both the executive branch and the 
Congress have imposed a number of restrictions in the past on 
our cooperation with the Indonesian military, largely in 
reaction to some pretty significant human rights abuses and 
most significantly the atrocities that were committed in East 
Timor in 1998.
    I am not about to sit here and tell you that everything is 
fine now by any means, but I would say two important points of 
progress that really need to be noted. No. 1, most importantly, 
it is a different government there now, and it is a government 
that is democratically elected that I believe is deeply 
committed to the goals of democratic reform and civilian 
control of the military. They have, for only the second time in 
their history, a civilian Defense Minister, and he happens to 
be the same one who was the first civilian Defense Minister, 
someone I know from my time in Jakarta, who is very committed 
to the idea of civilian control and has a big job in front of 
him. It is a government, I think, that wants us to develop a 
better relationship with the Indonesian military and deserves 
our support.
    Second, while the record is far from perfect, it is 
certainly worth noting that the Indonesian military has stayed 
in the background, as it should have, but as some people might 
have been surprised, Indonesia transformed to a country that 
had once been largely run by the military to one that is now 
run by democratically elected government, and, in fact, the 100 
seats that they used to have assigned to military in the 
Indonesian Parliament have been taken away. There is a lot of 
change, in short, and, I think, as important as it is to work 
for an accounting of things that were done in the past, I do 
think this is a new era and the challenges of responding to the 
tsunami just underscore the importance of making sure that we 
have the right tools going forward.
    The Chairman. Thank you very much.
    Do you have a comment? Yes, Secretary Larson.
    Mr. Larson. Yes, Mr. Chairman, if I could just add a couple 
of brief comments to what Secretary Wolfowitz said. Clearly, we 
want to continue to work hard to ensure accountability and 
ensure a strong human rights performance and to make sure there 
is accountability for the past abuses. We do feel that the 
cooperation on the Timika investigations has been constructive 
and we welcome that. We do feel that the experience with the 
tsunami has indicated areas in which having had more contact 
cooperation with the Indonesian military could have had some 
advantages. No decisions have been made, but as Secretary 
Wolfowitz said, the Secretary of State is examining this issue 
and will be interested, I know, in continuing to consult the 
Congress on it.
    The Chairman. Thank you very much, sir.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. First, 
I want to commend you for holding this hearing. I think it is 
an extremely important hearing.
    On Tuesday, we had a meeting of the Maryland delegation 
with some of the NGOs. Some of the leading NGOs are 
headquartered in our State and are very much involved in the 
tsunami relief. We met with them and heard what they are doing, 
the efforts they are making, the problems they foresee, and so 
forth.
    I might say to you, General Allen, that they were quite 
complimentary about the role that our military had played and 
the essential logistics support the military had provided. They 
even pointed out while we did not need the military to build 
the school, it was a nice touch that they went in there and did 
that, and it made quite an impression on the populace. So I 
just want to state that up front.
    I am concerned, though, that the well-deserved attention on 
the tsunami and the tremendous response may end up diverting 
funds and attention away from other humanitarian needs, and 
particularly from development efforts, which have been worked 
out carefully with local agents on the ground. It takes quite 
an effort just to get the confidence of people to enter into 
these development plans. And then, if money is not forthcoming 
to carry through on that, we lose the momentum that has been 
built up and sometimes it is very difficult to reconstruct it.
    So I am seeking an assurance that the supplemental request 
will completely reimburse USAID for all tsunami-related 
expenses so that we will not have a short-changing of other 
ongoing programs. Now, where do we stand on that? I commend the 
administration's statement, just yesterday, about increasing 
the U.S. contribution.
    Of course, we have had a tremendous outpouring from the 
private sector, a truly staggering response. I think that 
reflects something very good about the American people.
    But I want to ensure that these other efforts will 
continue. Where are we on reimbursements for the tsunami-
related expenses?
    Mr. Natsios. Senator, we worked with the OMB and with the 
White House on that and provided them the detailed accounting 
of what we spent, which is $123 million to date. I was very 
concerned myself about this, but the President made very early 
on a public statement that all of the money AID has spent on 
this will be reimbursed. He did not say in a supplemental, but 
as we know, yesterday he announced the supplemental. If this 
budget is passed, we will be whole.
    I would say something, though, just in terms of timing. For 
reasons that may be well understandable, if this part of the 
budget does not pass until the third quarter, we will have 
severe stress on our humanitarian budget, and then it will 
affect our operations elsewhere. But if this budget passes in a 
reasonably smooth way, then we will be fine. All the money we 
have spent will be reimbursed and it will not affect any 
operations anywhere else in the world.
    Senator Sarbanes. Has it up to this point affected those 
operations to some extent?
    Mr. Natsios. We are in the beginning of the second quarter 
of the fiscal year, and so our humanitarian relief budget has a 
lot more money in it, that we can spend this quarter, for other 
efforts elsewhere in the world. However, our budget is under 
severe stress not because of the tsunami but because of Darfur, 
but because there is a major food emergency in east Africa 
right now in Ethiopia. And we are working on it, and we are 
working with OMB. There is money in the budget for Sudan, $150 
million for food for Darfur in southern Sudan. So money is in 
this for other emergencies that is not in our regular budget, 
and I would commend that to you. There is also $100 million for 
the reconstruction of southern Sudan, in addition to what is 
already in the budget.
    So there is also money in the budget for Afghanistan and 
Iraq. Much of that will go to us. So it is not just the tsunami 
we are interested in, in this budget. It is all the other 
accounts that also fund many of our programs around the world.
    Senator Sarbanes. Let me give you a specific example that I 
am concerned about with respect to long-term development 
programs. Since emergency food aid needs were greater than 
anticipated last year, you reduced the amount of food aid used 
to support long-term development. The budget that was just 
released cut food aid by another $300 million and transferred 
it over to disaster relief. But that, again, raises the 
question of cutting sustainable development programs. How are 
we going to address that problem?
    Mr. Natsios. Well, Senator, the budget was not cut $300 
million. It was transferred into an account to do something 
very innovative and new, which many of us have been lobbying 
for when I was in the NGO community in the nineties for many 
years. The President has taken a bold move to change the whole 
structure of the food aid account. I will give you an example.
    In Afghanistan, we invested United States Government money 
that you appropriated in an agricultural development program 
that produced a surplus wheat crop 2 years ago, the greatest in 
the history of Afghanistan. Prices collapsed as a result of 
that and we imported U.S. Government food under title II bought 
in the United States, shipped it in, 200,000 tons, when we 
could have, if we had the money, purchased the local food and 
kept the price at an average level. What happened is that many 
of those farmers who were growing wheat said, I am losing 
money, I am going to grow poppy now. That is what they did 
because we could not use our food account to do local purchase 
of food.
    The President has proposed of the $1.2 billion budget for 
food aid, that $300 million of it be used to allow us to do 
local purchase of food in development situations, but mostly 
emergency situations to help stimulate agricultural production 
in many countries.
    There has been no cut in the food aid budget. The food aid 
budget, in fact, will be able to buy more food because 30 to 40 
percent of our food aid budget is for transportation. It costs 
a lot of money to move food from the United States into rural 
Afghanistan. If the food is next door, produced locally, there 
is very little transportation cost. So this is an innovation. 
It is not a cut in the food aid budget. If anything, we will be 
able to buy more food if the budget goes through the way it is.
    In addition, though, we do recognize there is a problem 
with total food because of an emergency. So, in the President's 
budget, there is $150 million for additional food aid for Sudan 
because there is a food emergency in Sudan, not just in Darfur. 
There was a 60-percent crop loss because of a drought in 
eastern Sudan, the south, and even in Kordofan Province which 
is not in the middle of a conflict. So that is in this budget; 
the supplemental budget.
    Senator Sarbanes. All too often in emergencies, women and 
children have found themselves doubly victimized. They flee 
conflict or disaster, end up in camps where they are vulnerable 
to physical and sexual abuse, as well as, sometimes, 
discrimination in the distribution of food and medical 
supplies. What steps are we taking to provide specific 
protection for women and children in the wake of this crisis?
    Mr. Natsios. Senator, that is a very good question because 
that is a serious problem. When we do drops of food--and that 
is the last alternative. We have no other way of doing it--we 
will air drop food into emergencies, and typically the people 
who are strongest get it. So our doctrine over the years has 
been to ensure that there is a competent NGO on the ground that 
knows how to do this or a U.N. agency like the World Food 
Program that receives the food and ensures the most vulnerable 
get it. We typically target female heads of household in 
emergencies because they are the most vulnerable in terms of 
income and also because of protection issues. Human traffickers 
will go after women whose spouses are not around to protect 
them, and they will particularly go after orphaned children or 
children who have been separated from their families.
    We have been giving money, $2 million, to UNICEF, to 
Catholic Relief Services, and to a number of NGOs to set up a 
protection system and a registration system for unaccompanied 
children or children who have lost their parents in Banda Aceh 
and in Sri Lanka because of this problem. In many countries in 
the developing world, there is no birth recording system to 
record births, and so there is no record that any of these 
children exist except for the parents saying, well, I had six 
kids and these are the kids' names. The parents are dead and 
the kid is 2 years old. How do we know who the kid belongs to? 
The kid cannot even talk yet.
    So what is happening now, the NGOs on the ground, with 
funding from the U.S. Government to set up such a registration 
system in the areas where there has been the largest loss of 
life to ensure that we know who the kids are. We do not allow 
traffickers to go in and prey on these children.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman. First, I also 
want to commend you for having this very, very timely hearing. 
It is important as the mission is not over. There is a lot more 
to be done.
    I also want to commend Senator Sarbanes, my colleague, for 
the question that he asked. It was a very, very important 
question. I am glad that he brought our attention to it.
    General, you talked about the fact that we could provide 
help and get there so quickly and how critical that was. It was 
either yourself or Secretary Wolfowitz.
    I had a chance to be in the area with the Senate majority 
leader. He was in Sri Lanka. Then we were together in India. We 
talked about the Indian response, which was really tremendous. 
Even though they suffered great casualties, they had a 
tremendous military presence. And there were two observations I 
had, and then I will get to my question.
    One is that the perception of American military might was, 
in many ways, kind of transformed in the region. People saw it 
as a tremendous positive. They understood the importance of 
that military might and the way it can be used in a 
humanitarian capacity.
    The second observation--and I got a sense of this when I 
had a chance to visit with the Secretary General of NATO at the 
end of our trip, after we were in India, Pakistan, Iraq, 
Afghanistan, and then, ultimately, in Brussels. He was talking 
about the European response or perhaps lack of military 
response, lack of ability to move there so quickly, and 
indicated that that was cause for reflection on the part of 
NATO of its capacity.
    What does NATO need to do? It is one, obviously, about 
ensuring peace. It is also about being able to respond to 
humanitarian situations.
    I would be interested in your reflection of the impact of 
our response, what it is having in NATO, what it is having upon 
our European allies in terms of the way they configure their 
forces, in terms of the kind of equipment that they may be 
looking at, the kind of training that they may be doing. Do you 
see any kind of long-term impact on our allies in terms of 
their ability to be able to respond, as they viewed what we 
were able to do and what, in fact, the Indians were able to do?
    Mr. Wolfowitz. I wish I could say I have seen an impact, 
but I think we are dealing with the problem with our NATO 
allies that their defense budgets just keep declining, and very 
few of them now have the capacity to do even things that they 
have been trying to do already. I do not want to diminish it. 
We have got a significant NATO contribution in Afghanistan, but 
they still fall short of what they would like to be doing 
there. Maybe this will be an extra impetus.
    I am going to be going to the Wehrkunde conference in 
Germany this weekend. You make a very good point that there is 
no reason why our European allies--and they did contribute. The 
French had an aircraft carrier off the Indonesian coast, but, I 
think, it was 3 or 4 weeks after we got there. The 
Singaporeans, to pick a different ally, demonstrated even small 
countries can make a big difference if they put their minds to 
it.
    I guess it is worth commenting. We thank the Congress and 
the American taxpayer for their support. We thank the American 
people for their generosity. It has been noticed, I have to 
tell you, in Indonesia, that there has been very little 
generosity so far from parts of the Muslim world that are big 
on talking about jihad and other things, but when 200,000 
people, all of them Muslims in the case of Indonesia, die in 
this catastrophe, there is not much help forthcoming. I hope 
those people might think a little bit about what they have done 
and what they have not done also.
    Senator Coleman. I really do hope that there is an 
opportunity here to look at what we were able to do, look at 
the nature of our forces, look at the type of equipment that we 
have. I got a sense, in talking to Secretary General de Hoop 
Scheffer from NATO that there is some reflection going on about 
whether they could have responded quicker; what type of 
equipment do they need to be able to do that. Again, the 
history has been one of not making the commitment in terms of 
the budget, but perhaps the public might be raising their voice 
to say, you know, there is a purpose for having forces that can 
respond quickly.
    Mr. Wolfowitz. Well, and I think the point is worth making. 
It is not just a matter of the size of the budget, it is a 
matter of where you direct it. We are finding, even with an 
enormous effort on transforming our forces, a lot of things 
that we do that are kind of legacies from the cold war and do 
not make a lot of sense anymore. The chairman is familiar with 
the debates about whether NATO would go out of area or out of 
business. And it is worth commenting, no one at the time ever 
dreamed that NATO would be deploying forces to Afghanistan.
    So, even though the budgets are declining, there is a 
greater sense of a worldwide mission for the alliance. I think, 
maybe, if we say, OK, we do think more resources should go to 
NATO defense budgets, but within the resources you have let us 
allocate them in a way that can allow you to respond in 
situations that, during the cold war, we would never have 
dreamed of having a NATO response in Afghanistan, much less in 
Southeast Asia. But it is a different world, and, I think, 
there is room for progress on that front.
    Senator Coleman. I am hopeful that this terrible tragedy 
provides an opportunity for an awakening or a reflection on the 
type of force that can be effective today, again not just in 
fighting wars, but in meeting humanitarian needs.
    There was very brief mention of the impact of this disaster 
on east Africa. I represent a community that has a very 
significant Somalian population. I am not sure if this is for 
Administrator Natsios or Secretary Larson. But with the very 
difficult political situation in Somalia, can you tell me what 
kind of presence there we have, if any? Have we been able to 
assess the damage? What kind of response have we been able to 
offer?
    Mr. Natsios. We have given grants to an NGO and to the 
World Food Program and I believe--let me just look here. I 
think it is $1 million to Somalia. We do know there was damage, 
but it is certainly not on the scale of what happened in Sri 
Lanka or Aceh. I have the grants right here. I can read them to 
you.
    Senator Coleman. My hope is it is on the radar screen.
    Mr. Natsios. We have given money to UNICEF, UN OCHA, World 
Concern, and the World Food Program, and the UNHCR, the United 
Nations High Commissioner for Refugees, $1,034,000 for the 
response in Somalia.
    Somalia has a regular AID program in it, but we run it out 
of Nairobi because there are still serious security problems. 
It is a modest humanitarian program with some development parts 
to it, but we cannot send our officers in because the situation 
is not secure. But we work through partner organizations, the 
NGO community, and U.N. agencies.
    Mr. Larson. Going forward, of course, we will be informed 
by the needs assessments that are currently underway, led by 
the World Bank, in which we are participating. That will help 
us make judgments about the division of our funding across 
countries, as well as across sectors.
    Senator Coleman. One last question to you, Secretary 
Larson. The impact of relief in terms of dealing with some of 
these areas where there has been conflict, Greece/Turkey, 1999, 
the earthquake, and there seemed to be some positive impact 
from that great tragedy. Sri Lanka, Aceh, Somalia. Do you get 
any sense that the humanitarian response is having some impact 
on lessening some of the civil discord?
    Mr. Larson. There is an opportunity. It has been very 
notable in Sri Lanka that the government and the Tamil Tigers 
have essentially had a cease-fire and that there has been 
cooperation in getting relief flowing to where it needs to go.
    Similarly, in Aceh, the Indonesian Government has opened up 
Aceh. It has cooperated with all of the groups, governments, 
and NGOs that are trying to provide humanitarian relief. There 
have been some continuing difficulties, but we do believe that 
it is a moment of opportunity we have to seize to try to work 
toward developing a peace process in these countries that will 
resolve these longstanding conflicts, even as we go about the 
task of rebuilding the damaged areas with them.
    Senator Coleman. Thank you.
    Mr. Natsios. I would just add, Senator, that the peace 
agreement that was just signed between north and south Sudan--
Secretary Powell and I were at the signing ceremony in Nairobi 
3 weeks ago, coming back from the tsunami region. That whole 
peace process started after a humanitarian cease-fire was 
declared in the Nuba Mountains, which the State Department and 
AID helped negotiate, just to bring humanitarian relief in 
because it was the worst affected area of the entire country in 
terms of people dying. But that led to an improvement in the 
trust that people had to sit down and talk and then things 
improved from there, and it led to this peace agreement. So it 
can, in fact, have a profound effect, but you have to take the 
opportunity when it is in front of you.
    Senator Coleman. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Coleman.
    Senator Feingold.
    Mr. Wolfowitz. Mr. Chairman, could I just add one comment? 
I mentioned the French, but it is worth noting Canada, Germany, 
and the United Kingdom, as well as France, have made 
contributions in different forms in this effort, and I will 
give you the details for the record. Most importantly, the 
countries of the region have really stepped up, and India has 
taken a real lead not only in dealing on its own with its own 
problems, but providing contributions and help to others. It 
has been outstanding.
    The Chairman. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, and thank you to 
the witnesses. Thank you, Mr. Chairman, for holding this 
hearing.
    I do not think we can say, obviously, too often how 
profoundly saddened the American people were by the loss that 
so many communities experienced in the tsunami. I want to 
commend both the domestic and international response efforts to 
date, and I want to say to my colleagues that I will certainly 
remain committed to working on this with them.
    I want to especially commend our troops. Brigadier General 
Allen, I really appreciated your comments, and let me just 
extend my thanks for their heroic work on this issue.
    Mr. Chairman, the phrase that is probably being used the 
most here is ``window of opportunity,'' and, I think, there are 
very positive windows of opportunity connected with this issue, 
but I think we also have to be careful to be absolutely sure 
that there are not inappropriate or perhaps unripe windows of 
opportunity that come out of this. I remember this was an issue 
a little bit in the confirmation of Secretary Rice. We have to 
be careful how we speak about this disaster in terms of it 
being a window of opportunity.
    So I had not planned on discussing the issue of our 
military relationship with Indonesia at this hearing, but it 
was raised by Secretary Wolfowitz in his testimony. The 
chairman raised it as a question, and in light of that, I feel 
compelled to make a few remarks.
    I applaud the tremendous effort that the Indonesian 
authorities, including the military authorities, have made to 
address the horrible tsunami tragedy. Again, I want to commend 
the U.S. military efforts to assist in that response.
    Mr. Chairman, this does not mean that there is not an 
ongoing, urgent need for military reform in Indonesia. We have 
not seen progress, in my view, on accountability for some very 
grave human rights abuses. We have not seen a real effort to 
rein in the many murky financial and business relationships in 
which the military engages. I do not think this mission is even 
close to being accomplished. And that is why, actually, 
Secretary Wolfowitz, I strongly support the E-IMET training 
that Indonesia currently gets because it builds capacity to 
address these critical issues.
    I noticed, Mr. Secretary, that you mentioned the 
President's statement in his inaugural. I will tell you one of 
the things that I thought of, as I sat there, was the 
repressive tactics that the military in Indonesia has used in 
the past not only with regard to East Timor, which you and I 
have discussed over the years, but also within its own borders, 
including in particular in Aceh. I think the President's words 
should have a meaning with regard to the problem that has 
existed with regard to the Indonesian military.
    So, Secretary Wolfowitz, I appreciated your testimony and 
obviously appreciate your commitment to Indonesia. I want to 
reiterate that because I do think that this topic is 
essentially a separate discussion about whether the existing 
restrictions overly limit our ability to respond to this 
crisis. And you were candid enough to indicate that certain 
things were able to be done under the current rules, but you 
seem to be concerned about the restrictions that led to what 
you called a climate of unfamiliarity and suspicion when our 
forces arrived to work with the Indonesians.
    As you well know, though, the Indonesian military is the 
largest beneficiary of the counterterrorism fellowship program. 
Indonesia's military participates with ours in scores of PAYCOM 
theater security cooperation program activities. In fact, more 
than 132 such activities involving Indonesia are programmed for 
fiscal year 2005. And Indonesia currently is eligible for and 
receives, as I have indicated, expanded IMET training. So, I 
think, we have ample opportunity now to overcome unfamiliarity. 
I do think that is a good thing.
    So, as you and I discussed before, we hope this will lead 
to a constructive discussion about where our military 
relationship with Indonesia goes, but I think that is something 
that we should pursue in the future.
    I do want to say a word about one other aspect of this, 
which is the Timika incident. I am glad that we finally have an 
indictment in the Timika case. I believe that the evidence 
suggests that Indonesian cooperation did improve significantly 
after Congress took action to link this issue to IMET. I want 
to thank the chairman for his willingness to allow me time and 
various opportunities to make that case here.
    But it seems to me that the indictment in this case is only 
a first step. The FBI considers this an ongoing investigation, 
and the FBI has not exonerated anyone. A number of questions 
remain unanswered, and clearly other conspirators were 
involved. Most importantly, I believe the resolution of this 
case means that efforts are made to hold those responsible for 
the ambush accountable for their actions in a court of law. But 
even the one individual indicted by the United States remains 
at large and has been neither indicted nor arrested by 
Indonesian authorities. So, in my view on this particular 
matter, apart from the other issues, more remains undone than 
has been accomplished, and I certainly do not consider that to 
be something that has been resolved.
    Finally, on this point, Secretary Wolfowitz, I heard your 
comments about language and how English training is so 
important. My understanding is that there is a difference of 
opinion or interpretation between those who created the 
authorities for E-IMET in the Congress and the way the 
administration interprets those authorities with respect to 
English language training. I think you will find, as we talk 
constructively in the future, that there is a great deal of 
willingness, here in Congress, to ensure that English language 
training is available to the Indonesian military, even among 
those who, like me, believe it would be a mistake, at this 
point, to abandon all conditions and create an anything-goes 
signal to the TNI, particularly when we still have ongoing 
investigations into the murder of Americans in Timika to deal 
with.
    So, Mr. Chairman, I appreciate your willingness to allow me 
to get into that subject a bit.
    I want to commend Senator Coleman for his reference to 
Somalia and Africa with regard to this matter, and I thank you 
for that response and want to express my ongoing interest and 
interest of the members of this committee in the African aspect 
of this disaster.
    Now, I would like to ask Mr. Larson and Mr. Natsios what 
mechanisms are in place, not simply to ensure that there is 
transparency in the use of relief and reconstruction funds, but 
also to ensure that the people in affected countries and 
communities actually have some kind of access to this 
information. For example, information that is apparent to those 
of us in Washington, who can read English language documents on 
line, may not be so accessible or useful to people from the 
affected villages. Could each of you respond to that? Mr. 
Natsios.
    Mr. Natsios. Certainly, Senator. In terms of 
accountability, the business model that AID went to, perhaps a 
decade and a half ago, is to go through, what I would call, 
civil society organizations, NGOs, international organizations, 
contractors, labor unions, faith-based groups, farmers' 
cooperatives. We put very little money--I think there are only 
four or five countries which are geostrategically important to 
the United States in the Muslim world where we actually 
transfer our money into the coffers of any government. We work 
with the governments. We put technical specialists in 
government ministries. We plan with them, but we do not move 
money through their accounts. We did that for 30 years, and we 
had some bad problems. So the accountability level of our money 
is not dependent on problems of corruption in any of these 
countries.
    In fact, the Government of Indonesia knows they have a 
problem. They have announced they are considering setting up an 
independent separate account just for money that will go from 
some donor governments and international agencies through their 
ministries so that they can account for it properly. So I want 
to commend the efforts of the Indonesian Government to 
recognize they have a problem and deal with it through this 
accounting system. But our money will go through the 
traditional mechanisms of partner organizations that we use.
    The third thing that we have done, in terms of 
accountability, is I asked the Inspector General to move in, at 
the same time the relief teams do, to do concurrent audits of 
everything we were doing, and if they saw something wrong in 
terms of process or recordkeeping, they were to inform us 
immediately on the spot and not wait till after everything was 
all over to tell us we made a mistake. So the Inspector General 
has played an integrated role as a member of our team to ensure 
there were high levels of management and accountability.
    Finally, Price Waterhouse offered, as a gift to UN OCHA, 
the coordination unit of the United Nations Secretariat, an 
accounting system to account not only for all donor government 
contributions, but all private contributions to the tsunami 
response. So we have an integrated system for accountability. 
Now, this is untested. It is a new system, but I want to 
commend the United Nations and Price Waterhouse for the 
contribution of that system because that, in fact, could 
improve the whole accountability of the entire system over the 
longer term.
    The last question you asked, Senator, I forgot.
    Senator Feingold. People's ability to access this 
information given the fact that it is usually in English.
    Mr. Natsios. The partner organizations we work through and 
our own staffs speak the local languages or we would not send 
them there. So, the NGO staffs, the AID staffs speak the local 
languages in the countries that we are working in and they talk 
with them. They deal with people.
    There is actually a public information campaign effort, 
that we go through at the community level, to inform people of 
how this system works and to work with them on planning what is 
done with the money. We do not just go into a village and say, 
oh, we are going to rebuild something for you. We have to ask 
them. Do you want this building rebuilt? Where do you want it 
rebuilt, and how do you want it? Are you going to participate 
in this with us? We are not going to do this for you. You have 
to do this with us. It is a community-based approach. It is the 
most successful approach because then, if there is a problem, 
they know they own the problem along with us. It is a much 
better approach. So we work with them in a very integrated 
fashion at the local level to do any reconstruction, not just 
here but anywhere else in the world as well.
    Mr. Larson. Just a few quick followups, if I could. 
Indonesia's separate account that Mr. Natsios mentioned--they 
imagine having the World Bank play a key role in running that 
and basically providing the fiduciary role. So that is going to 
be very helpful.
    Both Thailand and Indonesia have come to us and asked for 
help in management of the ongoing reconstruction process, 
advice that we have gained or experience we have gained from 
responding to natural disasters in the United States, and we 
are pursuing that sort of advice with them.
    In Sri Lanka, where the Millennium Challenge Corporation is 
also acting, we have a requirement for a very full process of 
outreach to the communities so it is a sort of community-
informed set of priorities.
    And finally, beyond the immediate efforts of our assistance 
workers, we are working very hard to get the message out to the 
broader communities about what the United States is doing. So 
we put messages from the President, from our Ambassadors into 
local language media to explain what we are doing. We are going 
to continue to make the case about the American response 
through our public diplomacy strategy.
    Senator Feingold. Thank you.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Members of the 
panel, thank you. I am sorry that I missed your earlier 
testimony. I have had an opportunity to read through most of 
your testimonies. I, too, want to take the time to thank you 
and your agencies and all that you are doing on behalf of the 
victims, the families, and all the efforts that have been made 
to date.
    If I ask questions that have already been answered, I 
apologize in advance, but it helps me to have the opportunity 
at this point in time.
    Even with the President's announcement yesterday that the 
United States has pledged the $950 million in assistance, we 
recognize that this probably is not the full picture. I guess 
this is a question directed to you, Mr. Wolfowitz. In terms of 
anticipated final costs--and I know we are asking you to look 
into the crystal ball, but insofar as the military relief 
operations in Indonesia and the other nations, can you give me 
any sense as to the military end of it and the costs 
associated?
    Mr. Wolfowitz. I will ask General Allen to correct me, but 
I believe we have incurred about $121 million to date and 
anticipate about $244 million--have I got the numbers right--
before this operation is finished. So it is well within the 
$900 million. In fact, our costs, plus AID's cost together, are 
estimated to be $346 million for the emergency relief 
operations. So, basically, the supplemental will cover those 
costs and provide an additional $600 million for the 
reconstruction effort.
    Senator Murkowski. And you think that that is realistic 
then for the duration as we move into the reconstruction.
    Mr. Wolfowitz. I think it is realistic as a U.S. Government 
contribution, recognizing that there are many other countries 
that are contributing, more that probably should contribute, 
and the American private sector has been spectacularly generous 
with $700 million and still collecting. Administrator Natsios 
is probably the best one to estimate what the total 
requirements will be, but it should not be the United States 
that bears the total share of it either.
    Andy, do you want to comment?
    Mr. Natsios. The assessments are now being conducted. They 
are joint assessments with the ministries of the governments 
that are involved because they have the lead, with the World 
Bank, the Asian Development Bank, and the donor governments. 
For example, the European Commission and AID have officers with 
the State Department on these teams to do assessments in 
different categories like infrastructure, community 
reconstruction at the local level, housing reconstruction, 
economic interventions to get the business community 
recapitalized and markets started, that sort of thing. Those 
are not all out.
    I think we have got some initial assessments in, and my 
memory is in Aceh--Alan, was it $4 billion or $5 billion?
    Mr. Larson. I think the initial estimate in Indonesia is on 
the order of $4.5 billion as the estimated total cost of 
reconstruction over a number of years.
    Senator Murkowski. Thank you.
    The Pacific watch center that alerted the authorities in 
Diego Garcia--I am assuming that that is a similar type of a 
system as we have up north that gives us our tsunami alert, 
recognizing that we have got to get those buoys fixed. We are 
working on that. But the question is: If we were able to notify 
those in Diego Garcia, why was it not communicated beyond that, 
or was it?
    Mr. Natsios. The first thing is you can communicate to 
people, but what do they do? If you turn an alarm on, they do 
not even know what the alarm is for. There was no system in 
place to communicate with people at the village level to tell 
them not only is a tsunami coming, but this is where you have 
to go to escape it. If you do not have that system in place, 
people could go to a more dangerous place.
    There are three elements to an early warning system. One is 
the sensor devices, the scientific equipment, that our 
scientists, Japanese scientists are particularly expert in 
because we have had a history of natural disasters. The second 
part is the communications system to get the information to the 
community, and the third and the most important part of this, 
when you think about it, is educating the community on what the 
alarm system means and how you respond to it. Those systems did 
not exist.
    Diego Garcia was spared not because of the alarm system, 
but because, as I understand it, the coral reef stopped the 
tsunami. Where would you go in Diego Garcia? It is 3 feet above 
sea level. I mean, if the coral reefs had not stopped that 
tsunami, no alarm system is going to help you out.
    Senator Murkowski. Yes. So, really, it is not just having 
the system, it is the education that goes with the system.
    Mr. Natsios. Absolutely. That is part of the system.
    Mr. Wolfowitz. My understanding, Senator, is they got an 
earthquake alert. They knew there was a big earthquake. They 
had no warning there was a tsunami. And as Mr. Natsios said, 
the highest place to go, someone said, is the diving board at 
the swimming pool. There was no tsunami in Diego Garcia. That 
is why nothing happened.
    Mr. Larson. Recognizing there are two parts of the problem; 
the detection and then getting the right kind of notice to 
people who need to be warned, there is an issue going forward 
about making sure that the detection system that we have in the 
Pacific and that helps protect Alaska can be expanded and 
improved. There are a series of active meetings underway. Mr. 
Natsios has mentioned some in Japan. There will be a meeting 
next week in Brussels where the scientists and the expert 
officials who know how these systems work can help develop a 
coordinated international approach to make sure that all of the 
information about earthquake events and about the movement of 
tidal waves over the water can be systematically collected and 
made available so that it could be used to warn populations in 
the Indian Ocean area, which was not the case before. Those 
buoys were not there and the system was not present.
    As Mr. Natsios has said, there is another challenge too and 
that is making sure that there is right type of civil defense 
and warning systems in place in these countries.
    The President's supplemental request will allow us to be 
lead participants in the development of both of those types of 
systems.
    Senator Murkowski. Mr. Natsios, in the report that you have 
included in your package here, you make reference to the 
psychological impact of the tsunami and make reference to some 
preliminary results from a Save the Children study of parents 
and caretakers. You indicate that it suggests there is not a 
mental health crisis. As a result of the tsunami, children 
displayed common reactions to a traumatic event.
    In the testimony that we are going to hear in the next 
panel--and this will be a question that I will ask the 
individuals on that panel--there is considerable reference to 
the psychological effects on the survivors, and particularly 
the children, suggesting that there is perhaps more of a 
problem. Can you speak to that?
    Mr. Natsios. The Save the Children study is very useful but 
it is for a discrete population. It is not a comprehensive 
study of all of the survivors. We do know from research that 
has been done in past natural disasters and manmade disasters 
that particularly children but even adults who have lost a 
large number of members of their family--Paul Wolfowitz just 
mentioned on Sri Lankan was it?
    Mr. Wolfowitz. Indonesian.
    Mr. Natsios. Indonesian who lost 200 members of their 
extended family. The notion that has no effect on a person--I 
mean, it has an effect. If they also were someone who survived 
but whose home was destroyed, business was destroyed, their 
school and their neighborhoods were destroyed, it does have an 
effect.
    We do know, in some cases, that people will sort of go into 
a state of withdrawal. They will simply sit and stare. I have 
seen this in displaced camps. We do not see any of this 
happening on a large scale here. But I have been to camps where 
suicide rates are high. People will commit suicide because they 
become so desperate and so despondent over what has happened to 
them.
    We need to monitor this. We need to watch this very 
carefully. We put some money into the NGO community to begin to 
look at this because we do not want this developing.
    I do know a friend of mine, who is a Foreign Minister in 
East Timor, was telling me, even though East Timor was not 
affected, that there were rumors every day in the capital for 
several weeks afterward that there was a tsunami coming, and 
people would leave the capital city because of the fear. So 
they do not have any trauma in East Timor, but the event in the 
media did have an effect on people's behavior in terms of 
panic.
    There was another earthquake yesterday. I do not know if 
you noticed that in Banda Aceh. These tectonic plates do not 
just stop once. This is not one event. There are going to be 
several events potentially. This, fortunately, did not cause 
any damage and it did not cause a tsunami. It was not quite 
large enough an earthquake to cause a tsunami. But there is 
still fear of repetition of this.
    So we need to watch this; monitor it. We are not facing a 
crisis at this point, but we do not want problems later on.
    Senator Murkowski. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Murkowski.
    Senator Obama.
    Senator Obama. Thank you, Mr. Chairman. Thank you to the 
members of the committee. This has been a very informative and 
timely hearing.
    A couple of comments, I guess, I would make before I asked 
questions. I am encouraged by the testimony indicating that the 
supplemental should ensure that existing development efforts 
are sustained and held harmless essentially. I think Senator 
Sarbanes raised a very important point which is, our 
credibility oftentimes is on the line, and once we get a 
project started, to divert it would be a mistake.
    A corollary to that is the fact that as significant as this 
tragedy was--and I am very mindful of it. I, like Secretary 
Wolfowitz, spent a lot of time in Indonesia. I spent time there 
as a child. My sister is half Indonesian. So nobody is more 
sympathetic than I am to the situation.
    I think it is important to note that there are a lot of 
silent crises taking place all over the globe that do not 
generate the same amount of attention and, as a consequence, do 
not generate the sort of private giving that we have seen in 
this circumstance. A lot more people, unfortunately, are dying 
in Darfur than will have died no matter what the eventual 
outcome of the tsunami ends up being. I think it is important 
for all of you, who are in positions to help shape U.S. foreign 
policy and foreign aid, to think about how do we highlight 
these other tragedies as they are unfolding and make sure that 
our response is equally adequate and that we have the same 
sense of urgency about them. That is a difficult thing to do, 
but it is one that I think is very important.
    Let me just pick up on a couple of questions that have 
already been raised to see if I can, maybe, put a little more 
flesh to the bone.
    I am very interested in the idea of training military in 
other countries to respond to these crises, and I am encouraged 
by that notion that we are going to be trying to do some 
institution building there with respect to best practices, 
first responder training and so forth. I do not know if you 
want to select, maybe, an example of Indonesia or Sri Lanka or 
a couple of other countries where you think that has already 
proceeded and what the barriers to that are and what the 
opportunities are as well, but I would be interested in hearing 
a little bit more about how that might proceed. Maybe I will 
start with you, Secretary Larson.
    Mr. Larson. Thank you very much, Senator. Thank you for 
your remarks about the importance of staying the course on our 
commitment to development worldwide. I think Mr. Natsios, and I 
in particular, have worked hard to launch initiatives like 
ending the cycle of famine in the Horn of Africa, having 
effective and increased levels of development assistance. So we 
are very committed to that.
    In terms of expanding capacity in these countries, we have 
had a very nascent effort in APEC that has begun to discuss 
this. The Australians have been leaders of this. It seems clear 
to us that the first responders are always the local people and 
the local communities and governments. It is going to be 
important to have the capabilities there that are necessary to 
respond to natural disasters. We think that the experience of 
FEMA could be very important for them, and we think we should 
be looking at ways to translate some of that experience.
    The Ambassador of Thailand came to me and he said, you 
know, we are not asking for international financial assistance, 
but we know we have a big task of reconstruction and we want to 
think with you about how to do that. We know that Florida had a 
very difficult year in responding to the hurricanes. So we have 
arranged some informal contact between officials in the State 
of Florida and the Thai Government to think through 
systematically how you respond.
    In other areas of policy, we have been able not only to set 
up best practices but to begin to set up audit type systems 
where countries voluntarily say, why do you not come in and 
help us assess whether we have put in place the things that we 
need to have to really be effective. Those are among the ideas 
that we are exploring now generically.
    Moving forward, in Indonesia, just to pick up that example, 
the Indonesians have been very appreciative of the role our 
military has played. They recognize that they have a very big 
task ahead of them in coordinating effectively the 
reconstruction effort, and they have come to talk to us not 
only about specific projects and specific ideas but how, 
working with USAID and others, can they make sure that they are 
managing the entire process of reconstruction in an open, 
transparent, and effective way. That is just a few examples of 
the types of things we have in mind.
    Mr. Natsios. Senator, if I could just mention Darfur. We 
have been engaged as the first donor in Darfur before any news 
media was there, I might add. In fact, I had a press conference 
in Nairobi after my first trip to Darfur 2 years ago when the 
conflict was just starting, and the only reporters to report 
what was happening were African reporters. I could not get 
western media to focus on it. We had press conferences here and 
the media would not focus on it. They all of a sudden did and 
many have done an excellent job since then. But we were there 
long before the American media knew how you spelled Darfur. I 
am not trying to be insulting here.
    But we do not base our humanitarian responses on media 
coverage. If we did, the most remote places in the world like 
eastern Congo, for example, is among the worst deaths in an 
emergency in history, 3.8 million people, according to the 
International Rescue Committee and other competent NGO studies 
that indicate a huge loss of life. A huge loss of life. It is 
not in the media at all, even now.
    I have been personally to Darfur four times in the last 2 
years, more than any other place in the world, as a matter of 
fact. And we have spent $350 million and most of the food going 
into Darfur is from the United States Government. So we have 
been out in the forefront. We have led the charge. It is a much 
more difficult situation because it is not a natural disaster. 
It is a manmade disaster and there are malicious people 
involved committing horrendous atrocities. We believe, working 
with the State Department, we have an international and 
diplomatic strategy to deal with what is happening, but it is a 
highly complex political situation not just a matter of 
logistically moving things around to help people in a natural 
disaster.
    Senator Obama. General, do you have something to add?
    General Allen: Yes, Senator, if I may add. All of our 
warfighting commanders who are major regional commanders have a 
plan called a theater security cooperation plan. It is a 
reflection of the guidance given to them by the Secretary of 
Defense and the Chairman of the Joint Chiefs.
    The particular plan in this case that covered this region 
is implemented by the Pacific Commander, ADM Tom Fargo. His 
plan has been extraordinarily active with regard to having 
extensive bilateral and multilateral relations with the 
militaries of the region. So it starts with his own personal 
relationship with his counterparts, but we exercise frequently 
with all of these militaries. We do it bilaterally and we have 
annual major multilateral exercises that benefit from the 
contribution of forces but liaison officers and observers as 
well.
    So there were habits of functional cooperation, habits of 
command and control which we had been developing for years 
which paid off huge dividends early in this crisis. In 
particular, I will tell you we have an entity known as the 
multinational planning augmentation team, which is a 
multinational organization that exists in Pacific Command which 
can come together, very quickly, to assist a commander in doing 
the planning necessary to execute whether in a combat situation 
or, in this case, a horrific natural disaster.
    When we had the chance to visit with the commander of the 
U.S. forces, LTG Rusty Blackman, Marine Corps, at Uttapal, he 
gave the Secretary and me a briefing, and along the back wall 
of the briefing room were the liaison officers from 10 
different countries. They had come quickly. We knew each other 
well. We had been exercising well. There was an excellent 
exchange both at a cultural and a language level, and we think 
that this was a very, very important early ability of the 
militaries of the region to stem the potential death toll here.
    One other point that I would make is that we are going to 
continue this kind of a relationship. We are very active in 
something called the ASEAN Regional Forum, which is an 
extension of ASEAN. A subject which has come up more frequently 
of late--and we are going to continue to try to offer our very 
best advice in this regard--is the dimension of consequence 
management. We raised this at the last meeting. We will be 
going to Berlin which will be hosting the next intercessional 
group of the ASEAN Regional Forum where we are going to 
continue to talk about the employment of military forces for 
disaster relief and consequence management.
    So we think there has been a very rich experience in terms 
of expertised experience, and we are going to take advantage of 
that and capitalize on it in the future.
    Senator Obama. That is very encouraging, and I very much 
commend, obviously, our troops and your office and others that 
are doing an excellent job on this.
    I know that I am out of time. I am going to, if you do not 
mind, Mr. Chairman, just lob another question out there since I 
have been fairly patient and it is related. I will just stop 
there.
    I am interested, No. 1, in terms of reconstruction. I know 
this is difficult to do in poor countries, but are we able to 
think about structural engineering or changes in the 
reconstruction process that anticipate natural disasters and 
lessen their impact? Again, obviously, this is difficult to 
carry out where resources are wanting, but I am wondering 
whether that is something that we are giving some consideration 
to.
    The final question I will just have is, Secretary 
Wolfowitz, maybe, if you can just flesh out a little bit more 
the opportunities and challenges we face as we are working with 
the Indonesian military with respect to the Aceh conflict and 
whether there are things that we can do to lessen the human-
driven dimensions of a disaster in that area.
    Mr. Natsios. In terms of whether we build disaster 
mitigation measures into our reconstruction, that is standard 
AID policy and has been for decades. In the Gugarat earthquake 
of India which took place several years ago, if you will 
recall, with a large loss of life, we ensured that in the 
reconstruction we did, that the housing that was rebuilt was 
built according to international earthquake standards. We 
worked with the U.S. Geological Survey. In fact, there have 
been scientists from the U.S. Geological Survey in the disaster 
assistance office of AID for a couple decades now. They are 
normal transfer of personnel. We use our scientists from other 
Federal agencies to help us not just in earthquakes but also in 
storm construction.
    A lot of the housing codes in Latin America and in the 
Caribbean were designed through AID mechanisms, working with 
some universities in Virginia that have expertise at this. Fred 
Krimgold is one of the leading earthquake architects and storm 
architects in the country. He is a professor at the Virginia 
Polytechnic Institute. We use him. We helped work with these 
countries to design building codes that meet these standards.
    Unfortunately, building codes, even in the United States, 
are not always followed and in developing countries they are 
frequently not followed. So we have also complemented that with 
training of contractors in the private sector and of banks and 
insurance companies to get into private markets and the private 
system disaster mitigation, particularly with respect to 
construction standards so that the private sector uses them 
even if the public sector does not always follow the building 
codes. So when we do the reconstruction in the countries in 
this area, we will be following those standards.
    Last, I got a call from my good friend, the Sri Lankan 
Ambassador to the United States, who asked that we send a land-
use planning expert from AID because they are now rewriting 
their land-use planning legislation or statute in Sri Lanka to 
move people back from the coast. Now, that is more sensitive 
than it sounds because people are having to give up very 
valuable land where they had their businesses or their fishing 
fleet or their homes. So we are helping them technically. I 
think the guy is about to go out to help them design the 
statute and to work with the communities, so this is accepted 
because it is not just a matter of construction. It is also a 
matter of land-use regulation that can contribute to better 
disaster mitigation in the future.
    Mr. Wolfowitz. Senator, three points. First of all, on your 
earlier question about military training, I think it is an 
interesting question, which I am going to look into when we get 
back, as to whether our IMET programs, military education 
training programs, sufficiently focus on the possibility of 
training in this specific area, that is to say, disaster 
assistance. As General Allen said, we get enormous side 
benefits just from general military cooperation, but there are 
lessons to be learned here about whether, maybe, specific 
programs focused on that function would be valuable.
    Second, your question about building local capacity. It was 
striking to me when I spoke with the Indonesian Minister of 
Planning, who is in charge of basically economic development, 
who is in charge of their reconstruction efforts. She is a very 
impressive economist, very thoughtful. She said one of their 
biggest challenges is how to develop local capacity in Aceh so 
that they do not end up with everything going through a Jakarta 
bureaucracy, and I think that is a commendable goal.
    Finally, most importantly, on the question you asked about 
the role of TNI, the Indonesian military, in this whole thing, 
they can be part of the problem or they can be part of the 
solution. Senator Feingold earlier suggested, I think, that I 
had used the word ``window of opportunity,'' and I do not think 
one should use those words in connection with something this 
horrible.
    But I did say it is a crisis and crises have elements of 
danger and opportunity. As you look at the role of the 
Indonesian military in Aceh, they can continue on the record of 
the past 10 years, which is a pretty bad one. It is a difficult 
circumstance, admittedly, fighting an armed insurgency, but 
there has been a great deal of abuse of the local population. 
From what I can tell, those practices have largely been set 
aside, if not entirely set aside, in this immediate crisis. And 
they have to be set aside if we are going to succeed in this 
large-scale reconstruction effort. And that is the danger, but 
the opportunity is if they are set aside, if 6 months, a year 
from now both the Indonesian Government, the Indonesian Army, 
and the people of Aceh can say, well, we got together, we dealt 
with something far more important than these issues we have 
been fighting over, maybe there is a way to resolve those 
issues. I think it is a real opportunity.
    As I said, I think before you came here, Secretary Rice is 
consulting with the Congress, currently, about what to do about 
IMET restrictions. I do not think we are talking about turning 
a blind eye on crimes of the past. I certainly would not. And I 
do not think we are talking about anything goes. But I do 
think, both in terms of the conditions the Congress set already 
with respect to Timika--we can argue about whether more 
cooperation is required or not required, but I was stunned, 
myself, at the level of cooperation the FBI got and the results 
that they produced. A lot of that is law enforcement-sensitive 
and cannot be discussed here in open session, but I think they 
clearly responded to what we asked for. And there is a little 
bit of a feeling, well, every time we do what you ask for you, 
you ask for something else. That is, in my view, not a good way 
to get people to cooperate.
    One final observation, if I could. A friend of mine, who is 
a journalist in Indonesia, who has taken considerable personal 
risks over his career fighting for human rights and democracy 
in his country, said democracy in Indonesia would be much 
stronger today if there were 10,000 Indonesian officers who had 
been through American training.
    I am not saying that our training is perfect or that no one 
who goes through our training ever commits abuses, but I think 
it is a pretty consistent record that exposure to our military, 
exposure to our system has a positive effect from the point of 
view of decorum and progress in promoting democracy and 
freedom. I hope it is in that spirit that these consultations 
can take place and we can come up with a way forward that 
supports the objectives that I believe are widely shared on 
both ends of Pennsylvania Avenue.
    The Chairman. Thank you very much, Senator Obama.
    We thank all Senators and thank especially our witnesses 
for a very comprehensive hearing and excellent responses.
    We will now call upon an additional panel composed of Ms. 
Mary McClymont, President and CEO of InterAction; Mr. Daniel 
Toole, Director of the Office of Emergency Programs of UNICEF; 
and Ms. Nancy Lindborg, President of Mercy Corps.
    We thank the witnesses for joining us this morning. I would 
ask, as I suggested to the earlier panel, that if possible, you 
summarize your comments to within a 10-minute framework. Your 
full statements will be made a part of the record and questions 
will follow.
    I am going to yield the chair fairly shortly to my 
distinguished colleague, Senator Murkowski. She is the chairman 
of our Subcommittee for East Asia and the Pacific. She will 
continue to conduct the hearing in my absence.
    First of all, I would like to call upon the witnesses in 
the order that I introduced them. That would be Ms. McClymont, 
then Mr. Toole, and Ms. Lindborg. Ms. McClymont.

 STATEMENT OF MARY McCLYMONT, PRESIDENT AND CEO, INTERACTION, 
                         WASHINGTON, DC

    Ms. McClymont. Thank you very much, Mr. Chairman, for the 
opportunity to testify before this committee to share some 
initial thoughts about lessons we have learned in responding to 
the tsunami to date, as well from other major emergencies. 
These might be helpful for the longer term recovery phase of 
the tsunami and for future crises.
    The committee is to be commended for launching this 
reflection so promptly. We also want to commend the President, 
Members of Congress, and other administration leaders for their 
public statements of concern and commitment of resources, along 
with the American people for their generous donations.
    Seventy-two of InterAction's one hundred and sixty member 
groups are engaged in some way in nine of the crisis-affected 
countries, working directly on the ground and through local 
partners, or shipping commodities to the region for 
distribution. Most are engaged in Indonesia, Sri Lanka, and 
India, and I base my remarks largely on their experiences.
    Many InterAction members have been established for decades 
in the region, and this is probably what allowed them to 
respond so quickly to immediate needs with hundreds of their 
local staff and partners on the ground by providing clean 
water, food, temporary shelter, and medical care.
    Let me first address three aspects of the crisis on the 
ground.
    First, in every natural disaster, there are impediments to 
overcome in delivering assistance. It was the very magnitude of 
the crisis itself in the worst hit countries that compounded 
these problems. As you know, local officials and service 
providers were killed, injured, or missing. With transportation 
and communications infrastructures destroyed, access was 
impossible in some areas. Our members and other aid workers 
were ready to help, but they faced major logistical problems. 
With its helicopters, personnel, and commodities, the United 
States military was able to extend the reach of the 
humanitarian effort into remote parts of Aceh and Sri Lanka. 
Their superb performance is a reminder that our Armed Forces 
have unrivaled logistical assets unique to these situations. As 
the transition from military to unaided civilian services is 
now rightly underway, their effort is a fine example of an 
appropriate kind of role our Armed Forces can play in such 
settings.
    Second, ongoing civil strife in Indonesia and Sri Lanka 
posed potential challenges for relief delivery. International 
aid workers had been banned for over a year in Aceh, leaving 
little NGO capacity. Apprehension that the Indonesian military 
would ban or impose tight controls on the programs of foreign 
relief organizations proved unfounded. We hope and trust this 
will remain the case going forward.
    As to relief coordination, it works for us at many levels 
in all the disasters we operate in through established 
mechanisms among our own InterAction members with USAID and 
with relevant U.N. agencies and other NGO consortia. That is 
what happened here. On the ground, the governments of India and 
Sri Lanka immediately assumed this responsibility on their own 
territory and are playing a strong role. The Indonesian 
authorities sought U.N. help in managing the international 
relief effort.
    Although understandably difficult in the first days, we 
believe the coordination of relief efforts is becoming more 
effective each day. In Aceh, for example, Indonesian and U.N. 
officials are sharing responsibility and working together 
increasingly well, while NGOs, U.N., and government 
representatives come together to identify issues, conduct 
sectoral assessments, and rationally allocate resources.
    The most serious impediment to good coordination appears to 
be the large number of inexperienced groups and individuals 
that have arrived in some of the affected countries. Although 
apparently well-intentioned, they are unaccustomed to the way 
the United Nations, Red Cross movement, and established 
international NGOs and local partners work together so 
frequently in these kinds of settings. We anticipate that this 
problem will diminish over the coming weeks as the initial 
relief phase winds down.
    Despite the fact that the humanitarian effort has, 
fortunately, prevented a second tidal wave of lethal disease 
among survivors in the region, hundreds of thousands are 
displaced, vulnerable to infectious disease and profound 
psychological problems and dependent on donors for basic needs.
    As we look forward, I highlight, now, four relevant 
reminders we could bear in mind during the recovery period.
    First, accountability by relief providers. The past 6 weeks 
have underscored to us the extraordinary generosity of the 
American people. Sixty InterAction members report today they 
have received in the aggregate an unprecedented $765 million in 
contributions from private donors, most of it from individuals. 
This provides a sharp reminder of the need for NGO 
accountability to the public for the careful, transparent, and 
effective use of these funds. For the past decade, our members 
have abided by a set of program, financial, and fundraising 
standards guiding their work and helping assure donors that 
funds are being well spent. We will work to assure the public 
has available timely, detailed information on the use of the 
funds entrusted to us. By the same token, we, and other 
humanitarian responders on the ground, must be accountable for 
our actions to those we are seeking to assist by 
conscientiously applying the internationally accepted sphere 
standards that guide disaster response.
    Second, long-term commitment. Experience with myriad 
natural disasters has taught us that full recovery and 
rehabilitation from such devastation takes between 5 and 10 
years. We are encouraged that leadership roles for the planning 
process have been assumed within the United Nations and the 
international financial institutions.
    It will be important that NGOs participate fully in the 
upcoming donor conferences given the resources we will bring to 
the table and our long engagement and partnerships with local 
communities and organizations. Although financial pledges made 
by the international community have been extraordinary, it is 
no secret that many commitments go unfulfilled.
    We are gratified by the President's announcement yesterday; 
he will seek $950 million for relief and longer term 
reconstruction needs in the tsunami countries. We urge that 
governmental funding be provided on a multiyear basis and on 
flexible terms before attention shifts elsewhere.
    In addition, it will be critical that national governments 
and donors fully consult and coordinate with local communities, 
authorities, and civil society on the ground. Our job is to 
respect their needs and provide the capacity building support 
necessary to help them restore their own lives.
    Third, forgotten crises. As has been mentioned at this 
hearing, sadly this disaster reminds us of all the equally 
tragic crises in the world that are not receiving as much 
attention, such as Sudan's Darfur region, northern Uganda, and 
the Congo. Some crises are silent like the 1.2 billion people 
living in extreme poverty in the developing world. We hope that 
our leaders, including Members of Congress, as well as the 
media, will now seize the moment and take the opportunity to 
help us further educate and sensitize the American public to 
these ongoing humanitarian crises and extreme poverty in the 
world.
    Finally, funding needs. With these concerns in mind, we are 
gratified of the President's announcement and that it will, in 
part, replenish the USAID development and disaster accounts 
from which funds were drawn for the initial tsunami response in 
a timely way, as was underscored by Mr. Natsios. We have also 
urged that additional funds be provided for humanitarian needs 
that otherwise go unmet in Sudan, Congo, Uganda, as well as 
funds to address the major global shortfalls in emergency food 
aid, to which Senator Sarbanes referred.
    Thank you very much.
    [The prepared statement of Ms. McClymont follows:]

      Prepared Statement of Mary E. McClymont, President and CEO, 
                      InterAction, Washington, DC

    Thank you, Mr. Chairman, for the opportunity to testify before this 
Committee on the ``Tsunami Response: Lessons Learned.'' I also want to 
acknowledge the leadership and support that you, Senator Biden, and 
many others on this Committee have provided on issues of importance to 
those of us in the humanitarian and development community. I am 
grateful for this opportunity to present some of the views and 
perspectives of InterAction members on the response to the Tsunami 
crisis.
    InterAction is the largest alliance of U.S.-based international 
development and humanitarian nongovernmental organizations. Our 160 
members operate in every developing country and have decades of 
experience on the ground in working to overcome poverty, exclusion and 
suffering by advancing social justice and basic dignity for all. While 
many of our members have a long and successful history of partnership 
with U.S. Government agencies, collectively, the members receive $3 
billion in annual contributions from private donors, including direct 
contributions from the American people. Both faith-based and secular, 
InterAction members are headquartered in 25 states and have branch 
offices and/or constituencies in every state in the country. 
Furthermore, when one looks at the donors, sponsors, and supporters of 
our member organizations, InterAction reaches millions of Americans who 
care about and support in some form our foreign assistance programs.
    The world has not seen in recent memory any natural disaster equal 
to the magnitude of the Tsunami crisis in sheer geographic scope, level 
of destruction, unprecedented private giving, and extensive 
international response. These factors make it all the more important to 
consider the response and lessons learned to date, as well as those we 
know from previous experience. We can apply them in our current relief 
activities, in the long-term recovery and rehabilitation phase in which 
we will be engaged for years to come, and in the major natural 
disasters inevitable in the future. The Committee is to be commended 
for launching this reflection so promptly.
    I also wish to commend the President, former Secretary of State 
Colin Powell, Members of the Congress, and USAID Administrator, Andrew 
Natsios, for the personal concern for those affected by the crisis they 
have demonstrated by their public statements and commitment of 
resources. The personal visits to the region undertaken by many 
prominent American leaders, including members of the Senate and this 
Committee, have underlined the depth of American compassion for those 
now trying to rebuild their lives and American commitment to assist 
them. Furthermore, the response of the U.S. military, in collaboration 
with the civilian agencies, was critical in getting relief to 
vulnerable populations and saving lives in the initial phase of the 
crisis response. And finally, I want to thank the American people for 
their generous donations to help the victims in this crisis.
Reviewing the Humanitarian Response to Date
    Seventy-two InterAction organizations, or almost half of our 160 
members, are engaged in some way in this crisis, either by responding 
directly on the ground operationally, working with local or 
international partners who are operational, shipping commodities for 
the use of partners in the region, or undertaking advocacy. Although 
our members are working in nine of the affected countries, most are 
engaged in Indonesia, Sri Lanka, and India, which were the worst hit. I 
therefore will focus my remarks based largely on their experience in 
these three nations.
    Many of our members had a long-established presence in each of 
these countries when the Tsunami struck. In Indonesia and Sri Lanka, 
for example, many have been engaged in humanitarian assistance as well 
as development for more than a decade, helping to deal with the 
consequences of the civil strife each of these nations has long 
endured. With hundreds of local staff working at the village level in 
these three countries, they were able to respond quickly to immediate 
needs for clean water and food, to help reunite family members, and to 
assist survivors in finding temporary shelter. Medical personnel 
arrived from abroad within days of the Tsunami and began to treat 
physical injuries. Assessments were initiated of water and sanitation, 
as well as health needs. Survivors were assisted in digging latrines, 
collecting the bodies of the deceased, and removing debris from 
roadways.
    In every natural disaster there are impediments to overcome in 
delivering humanitarian assistance. The magnitude of the crisis in the 
worst hit countries made some of these obstacles daunting, such as the 
immediate creation of coordination mechanisms. Many local officials, 
health and social service providers and educators were among those 
killed, injured, or missing. In Indonesia's Aceh Province alone, it has 
been reported that 70 percent of the health care providers and 1,500 
teachers were killed, missing, or fled the area. Roads were washed 
away, bridges collapsed, vehicles were sucked into the sea, 
communications systems were destroyed and fuel supplies quickly were 
exhausted. Access to some areas became impossible, except by 
helicopter. Some airports close to severely affected areas became 
congested due to staffing, offloading, and storage capacity shortages. 
Finally, the ongoing civil strife in Indonesia and Sri Lanka posed 
potential challenges to the delivery of relief. In Aceh Province, for 
example, international aid workers had been banned for over a year. 
There was little NGO capacity already in place and a concern that those 
from elsewhere in Indonesia, as well as those arriving from abroad, 
might be denied permission to enter the region. It was not clear if the 
ongoing conflicts there and in Sri Lanka would put survivors at 
increased risk and imperil relief workers.
    While our members were mobilizing staff in the region and assigning 
personnel from around the world to respond to the emergency, 
InterAction formed a working group to facilitate the exchange of 
information and coordination between the members responding to the 
crisis. Our regular meetings almost immediately were supplemented with 
weekly meetings hosted by USAID's Office of Foreign Disaster Assistance 
(OFDA) in which NGOs and USAID officials shared information and 
concerns. As a member of the InterAgency Standing Committee, the body 
established by the United Nations General Assembly more than a decade 
earlier to coordinate responses to emergencies, InterAction began 
sharing information and engaging regularly with the U.N. agencies 
responding to the crisis, as well as with the Red Cross movement and 
our NGO colleagues in Europe.
    We initiated several actions to facilitate our work and respond to 
the overwhelming public interest in assisting those affected by the 
Tsunami. Within 48 hours after the onset of the crisis, we published 
the initial list of our members accepting contributions with 
descriptions of their activities. We posted on our website information 
on appropriate ways to give, and distributed to the media video and 
radio news releases we had prepared earlier on the same topic. Our 
consistent message in such disasters is that cash is best. We also 
posted on our web site guidance for the American public on 
considerations in selecting a relief agency to which to contribute. We 
responded to myriad press inquiries about our members' responses, the 
situation on the ground and how concerned citizens could help.
    In the region, the governments of India and Sri Lanka immediately 
assumed responsibility for coordination of disaster response activities 
on their territory. The Indonesian authorities asked the United Nations 
to assist in managing the international effort even as it directed the 
domestic reply. Disaster Response Teams from OFDA arrived in the 
affected countries within days, as the U.N.'s Office for the 
Coordination of Humanitarian Affairs sent assessment teams and 
personnel to assist U.N. officials assigned in the affected countries. 
U.S. military helicopters, personnel, and commodities from the Abraham 
Lincoln and its escorts extended the reach of the humanitarian 
community into parts of Aceh cut off by road and addressed other 
logistic constraints to effective delivery of assistance. U.S. Navy 
personnel provided similar assistance in Sri Lanka. In each country 
participants in the civil conflicts seemed to welcome relief 
activities. Although skirmishes between belligerents have occurred in 
Aceh, these incidents did not impair the delivery of humanitarian 
relief. Apprehension that the Indonesian military would ban or impose 
tight controls on the programs of foreign relief organizations have 
proved unfounded. We hope and trust that this will continue to be the 
case as the relief phase moves to recovery.
    Today, an estimated 2 million people throughout the affected region 
are receiving some form of assistance from their own governments and 
the 4,000 humanitarian personnel who have come from abroad to help 
them. With over 275,000 known dead or missing, the casualty toll is 
indeed catastrophic. But the good sanitation practices of local 
populations, several timely immunization programs, generally adequate 
nutrition, and good fortune have so far prevented a second tidal wave 
of lethal disease among survivors, many of whom nevertheless remain 
vulnerable to cholera, dysentery, typhoid fever, measles, malaria, and 
other contagious illnesses.
    The devastating disaster has had major psychological effects on 
survivors as well, especially children. While the resumption of normal 
work and living conditions will help survivors to regain their mental 
and emotional equilibrium, many will need longer-term psychosocial 
support to deal with the profound trauma, loss and other repercussions 
of the disaster. The crisis has amplified the psychosocial needs and 
heightened protection risks to children, such as separation, 
trafficking, and sexual exploitation. Early fears of trafficking in 
children, however, have been allayed by measures taken by the extended 
families of children whose parents were lost and by government bans on 
travel by children without accompanying family members. But given the 
prevalence of trafficking in some affected countries this and other 
protection concerns bear watching in the months ahead, in addition to 
the ongoing psychosocial needs.
    Hundreds of thousands of survivors remain displaced, an estimated 
400,000 in Aceh alone. Many have sought refuge in spontaneous 
settlements. The Indonesian government has plans for moving many of 
these persons to 24 relocation camps. This may be an appropriate 
interim solution but past experience suggests that camps are not always 
the best answer to the needs of displaced populations. They may be 
particularly inappropriate in Aceh, where local people have been moved 
into camps in the past for political reasons. Camps should be created 
only in consultation with the survivors and movement to them should be 
voluntary.
    Although some cash for work programs have been initiated by NGOs, 
most survivors remain unemployed. As you have read, thousands of 
fishing boats have been destroyed, and the fields of many farmers have 
been washed away or damaged by salt water. It will be some time before 
these people will again be self-sufficient. Meanwhile they will remain 
dependent on their governments and the donor community for food and 
other basic necessities.
    Coordination of relief efforts is becoming more effective each day, 
particularly among agencies working in specific sectors. The 
governments of Sri Lanka and of India are playing strong roles. In 
Aceh, for example, Indonesian and U.N. officials are sharing 
responsibility and working together increasingly well. The United 
Nations has established two offices in Aceh and expects to open two 
others soon. Regular meetings of humanitarian personnel, including our 
member groups, around various sectors of concern--primarily water and 
sanitation, health, shelter--are being hosted increasingly under the 
joint auspices of the Indonesian government and the United Nations in 
Aceh. The transition from military to civilian services in key areas 
such as transportation is going smoothly.
    The most serious impediment to good coordination appears to be the 
large number of inexperienced organizations and individuals that have 
arrived in some of the affected countries. There are an estimated 400 
NGOs now present in the region, 150 in Aceh alone. While U.N. 
organizations, the Red Cross movement, and established international 
NGOs and their local partners have been working together on sectoral 
assessments and a rational allocation of resources, some of the 
agencies, unaccustomed to these environments in which they are working 
and the kind of coordination used, have not been as constructive. We 
hope and anticipate that this problem will diminish over the coming 
weeks as the initial relief phase winds down. The more experienced 
international NGOs are making efforts to reach out to those willing to 
collaborate and to help them benefit from participation in coordination 
mechanisms.
Learning and Applying Lessons
    As we look ahead during the recovery and rehabilitation phases of 
the Tsunami crisis and as we anticipate other emergencies that surely 
lie ahead, I highlight below several of the lessons from our experience 
in responding to this crisis to date, as well as those we know from 
prior experience and should bear in mind going forward.
    Accountability. The past six weeks have reminded us of the 
extraordinary compassion and generosity of the American people. As of 
February 7, 60 InterAction members report they have received in the 
aggregate over $765 million in contributions from private donors, most 
of it from individuals. We established the InterAction ``Tsunami 
Barometer'' on our website to track these donations. Our members 
recognize that we are accountable to the public for the careful and 
effective use of these funds. Members subscribe to a set of standards 
adopted by the InterAction alliance over a decade ago. They address 
performance, fundraising, governance, program and financial management. 
Conformance to these standards guides our members' work and helps 
assure donors that funds are being spent in an accountable and 
effective way. Members are obliged to ``full, honest, and accurate 
disclosure of relevant information concerning their goals, programs, 
finances and governance.'' We are working with our members to remain 
true to these important principles, and to provide timely, detailed 
information on the use of all funds entrusted to them.
    Appropriate Giving. In their public comments InterAction and its 
members promote the theme that cash is the most appropriate 
contribution a private citizen can make, a message that appears to have 
been largely accepted by the American people. It certainly helps 
enormously when that message is delivered from the White House by the 
President, as it was on several occasions after December 26. In 
contrast to the aftermath of Hurricane Mitch, when warehouses in Gulf 
ports were crammed with used clothing and other commodities not 
urgently needed in Central America, our fellow citizens used their 
checkbooks, credit cards and wallets to make their contributions this 
time.
    Military Response. The superb performance of the U.S. military 
personnel assigned to assist the relief effort is a reminder that our 
armed forces have capabilities that are indeed unique in situations of 
natural disasters of this magnitude. While the armed forces of over 20 
countries responded to this crisis, the reach of our navy and the 
transport, water purification, and logistic assets it brought to bear 
are indeed unrivaled. One indicator of how well the humanitarian and 
military responders worked together is the U.N.'s report that the 
military forces on the scene replied affirmatively to 97 percent of the 
specific requests from humanitarians for transportation and other 
services. Now that the NGOs and the United Nations. have had time to 
lease civilian helicopters, ship in trucks and obtain more water 
purification equipment, the military will no longer be needed and 
civilian professionals can carry out relief and reconstruction work 
unaided. The U.S. military's role in Tsunami relief serves as a good 
example of an appropriate role for our armed forces in providing 
assistance in such settings.
    Essential Services. An initial assessment of the response in Aceh, 
and our recent experiences in the Bam earthquake and in Darfur, 
indicate the international relief community can provide adequate 
emergency medical services but is not as well resourced in dealing with 
sanitation and provision of clean water. U.N. Emergency Response 
Coordinator Jan Egeland initiated a systematic inventory of the 
community's capacities several months before the Tsunami. When the 
results are available later this year, IASC members and donors will 
have to consider whether a reallocation of resources and capacities to 
cover shortfalls in the essential services would be appropriate.
    Applying Humanitarian Standards. The humanitarian response to the 
crisis is far from over. As I already have indicated, hundreds of 
thousands of those who survived the Tsunami remain displaced, without 
employment, and still vulnerable to disease. As relief activities 
continue, NGOs and other humanitarian responders must be careful to 
maintain a level of care equal to the internationally accepted ``Sphere 
Humanitarian Charter and Minimum Standards in Disaster Response.'' 
Incorporated into our InterAction standards, these are recognized by 
the U.S. Government and throughout most of the international 
humanitarian community as appropriate guidelines for relief work.
    Long-Term Commitment. Experience with myriad natural disasters has 
taught us that full recovery and rehabilitation from such devastation 
takes between 5 and 10 years. There is understandable pressure to show 
quick results, and, as I have indicated, relief activities to date have 
preserved hundreds of thousands of lives. But the task of rebuilding 
livelihoods and restoring communities requires planning, strategizing, 
and realistic timeframes. We are encouraged that leadership roles 
within the United Nations and the international financial institutions 
have been identified to consolidate assessments and start 
reconstruction planning. We hope the Administration and Congress stay 
the course on what will surely be a lengthy reconstruction effort, 
building on the goodwill we have generated through our relief efforts.
    NGO Participation in Reconstruction Planning. We also must remember 
that within the InterAction alliance, different agencies perform 
different functions. Some respond only in the initial short-term relief 
phase, providing basic clinical and public health services, water and 
food, temporary shelter, etc. Others remain for the extended recovery 
and reconstruction phase, helping to rebuild the communities that have 
been destroyed, either where they were or in more secure locations. 
Many of the 70 InterAction member agencies responding to the Tsunami 
are planning to be engaged over the longer-term. Thanks to the 
generosity of the American public quite a few of our members are at or 
well on their way to meeting their funding targets, which will enable 
them to do this. We underscore the importance of NGO participation in 
the donor conferences expected to be convened later this year. We 
believe that the resources we will bring to the reconstruction phase, 
our long engagement with the local communities, and the partnerships we 
have with local organizations will enable us to play an important role 
in the deliberations on reconstruction planning.
    Respecting Local Communities and Capacities in the Recovery 
Process. As we plan for the future we believe it important to remember, 
in the words of my colleague Peter Bell, President of CARE, USA, that 
``the largest contribution to the reconstruction effort will come from 
the hard work, ingenuity and capacity of citizens in affected 
countries.'' It will be important that national governments and donors 
include in their planning processes consultation and coordination with 
civil society and local authorities. The role of local communities in 
their own development and rehabilitation is critical, with a focus on 
helping them rebuild their capacities. Special attention should be paid 
to vulnerable groups such as women-headed households, low caste 
individuals, children, and others who are traditionally outside the 
formal decisionmaking structures of their communities. Likewise, and 
particularly in those countries beset by civil wars, recovery programs 
must be designed and implemented in a manner that is perceived as fair 
and equitable, so that they do not compound mistrust and existing 
grievances, especially in conflict areas.
    Meeting Pledges. Mr. Chairman, the financial commitments made by 
the international community to relief and recovery have been 
extraordinary. But it is no secret that many pledges go unfulfilled and 
that it sometimes is hard to tell how much funding is ``new money.'' At 
this early stage we also have only preliminary estimates of the full 
cost of recovery and rehabilitation. Judging by what we have heard from 
Members of Congress, we are gratified by what appears to be broad 
support for a generous American government contribution to the 
financing of long-term programs. Furthermore, my colleagues and I are 
persuaded that governmental funding to assist those affected by this 
disaster must be provided on a multi-year basis and on flexible terms 
while memories of the devastation and suffering are fresh. We have been 
pleased to hear the President and members of the Congress emphasize the 
need for a long-term approach.
    Forgotten Crises. Sadly, this crisis reminds us of all the equally 
tragic crises in the world that are not receiving as much attention, 
such as Sudan's Darfur region, northern Uganda, and the Democratic 
Republic of the Congo. In just these three countries many millions of 
lives have been lost and millions of innocent people continue to suffer 
the deadly consequences of conflict and violence. Some crises are 
silent, like the 1.2 billion people living in extreme poverty in the 
developing world. It is our hope that our leaders, including members of 
Congress, will take the opportunity to further educate and sensitize 
the American public to these ongoing humanitarian crises and extreme 
poverty. We will do our best to keep the spotlight on all of these 
crises. The President was helpful on this front when he underscored to 
Americans that the funds provided for relief and reconstruction to 
those affected by the Tsunami should be seen as ``extra help'' and not 
as a replacement for donations for other important needs.
    Funding Needs. With these concerns in mind, we have recommended 
that the Congress provide $2 billion in emergency supplemental funding 
to meet needs not only in the Tsunami-affected countries but also those 
elsewhere. We have urged that $500-$600 million be used for non-
military relief and reconstruction assistance to Tsunami-affected 
countries, including the replenishment of USAID development and 
disaster accounts from which funds were drawn for the initial Tsunami 
response. An additional $400-$500 million is needed for other 
humanitarian needs in Sudan, Congo, Uganda and elsewhere that otherwise 
would go unmet. Finally, $1 billion should also be available for 
addressing the global shortfalls in emergency food aid, some of which 
is needed in Tsunami affected countries.
    Thank you for your attention. I look forward to your comments and 
to responding to your questions.

    Senator Murkowski [presiding]. Mr. Toole.

   STATEMENT OF DANIEL TOOLE, DIRECTOR, OFFICE OF EMERGENCY 
                 PROGRAMS, UNICEF, NEW YORK, NY

    Mr. Toole. Thank you, Madam Chair. Thank you, members of 
the committee. Thank you for giving me the opportunity to 
discuss what UNICEF has been doing for the tsunami disaster, as 
well as the United Nations as a whole.
    I guess I would first take an opportunity, as others before 
me, to thank the American Government, this administration, 
President Bush himself, for the extraordinary response to the 
tsunami crisis. As an American citizen--and it is not so common 
in the U.N. system--I take real pride in the tremendous efforts 
of the United States to alleviate the suffering of the tsunami 
victims. Americans have opened their hearts, as well as their 
pocketbook, as has been mentioned many times today. UNICEF has 
already raised over $300 million for the crisis and over $60 
million of that has come from the American population itself, 
in addition to funds from the American Government. I know I 
speak for the entire humanitarian population and the community 
of aid workers saying thank you. We are very, very grateful for 
the steadfast support.
    I would add to that the incredible logistics and transport 
support from the American military that UNICEF has also 
benefited from, without which we would not have been able to 
deliver the assistance, as well as technical assistance from 
the CDC.
    I would also thank the committee for its leadership in 
organizing the hearing and hope you will continue your 
discussions.
    Madam Chair, the events of about 6 weeks, as others have 
said, were truly cataclysmic. I have traveled to the region 
twice. I came back just on Sunday from my second trip. No 
words, no photo, no amateur video can possibly show or 
demonstrate what has happened. Others have mentioned that 
before me. I will not repeat it. But communities have suffered 
enormously and every picture that you see, every video that you 
see, every scene of destruction that you have seen are lives of 
people. There are pieces of clothing. There is a CD. There is a 
photo album or a diploma that you find on the ground. These are 
people's lives that were disrupted. These are people's jobs 
that have been ruined. These are children who are, indeed, 
traumatized.
    More than a third of the victims were indeed children. In 
some communities, UNICEF has found that the number may be as 
many as half. Those children who have suffered and who are left 
are vulnerable because of their loss of homes, parents, family. 
They are hungry. They are liable for disease. They are 
traumatized and they are at a threat of exploitation and abuse.
    Perhaps the saddest portion of the scenes that one sees is 
that, indeed, there are more parents without children than 
children without parents. Many, many children lost their lives.
    Together with our U.N. and nongovernmental partners, UNICEF 
is doing everything possible to eliminate the health and other 
risks to survivors. That is our first job; to keep children 
alive. We have assumed the lead coordination role in education, 
child protection, and water and sanitation, as mentioned by 
others before me. Water and sanitation is one of the most 
important strategies that we need to pursue in the long term.
    Indeed, although the sheer scale of the disaster and the 
numbers of countries affected has presented enormous logistical 
problems, coordination of relief efforts has actually been 
better than in the past. It is better than in Darfur. It is 
better than it has been in Afghanistan. UNICEF has already 
delivered more than 8 million dollars' worth of supplies and we 
have $45 million of supplies in the pipeline to arrive in the 
next few weeks.
    I will not go into detail, Madam Chair, but I do have a 
long statement which I am happy to share with you and I am 
happy to answer questions, should you have any.
    Early interventions by aid agencies and the swift response 
of the international community, as a whole, have given cause 
for hope. Thanks to the committed response of the international 
community, media attention, and the strong leadership of the 
affected governments themselves, early fears of massive deaths 
after the tsunami have not materialized. For example, though 
early media reports of trafficking and abuse proved largely 
unsubstantiated, they nevertheless galvanized a powerful 
response that may have not emerged as quickly without such 
attention. Early measures to protect children, many of them 
taken by the affected governments, doubtless went a long way 
toward preventing further victimization. This underlies the 
need to strengthen and accelerate our collective protection 
response so that it can become more predictable and ultimately 
more effective. There is a clear need for automatic and 
prevention-oriented protection responses in times of emergency.
    Some of the other lessons that we have seen already. There 
is a clear message that we need to invest in national capacity 
to respond, and speakers before me have mentioned that. The 
strength of the national response in Thailand and India in 
particular stand testament to what can be achieved when 
governments have the proper tools in place. Here again 
preparedness should be the watch word. We know that our 
assistance cannot stop once these early interventions are over, 
once the threat of disease subsides, once the first day of 
school has passed.
    In UNICEF we often say we work in countries before, during, 
and after an emergency. We also work on both sides of crises 
and conflict, adhering to the universal humanitarian principles 
of neutrality and impartiality. That is why, if you travel to 
Sri Lanka or Aceh a year or two from now, you will still find 
our staff and other NGOs working to help government and civil 
society to support the long-term rehabilitation and recovery of 
all the region, whatever their political allegiance may be.
    Too often in the past, the international community has 
allowed its attention to wander; wander away too soon, 
depleting political will and resources before the job is truly 
over. Others before me have said that we must not let that 
happen. I echo that theme. We must invest for the long term. We 
must invest in a flexible and long-term support to tsunami 
victims.
    One of the most important outcomes that could arise from 
the disaster would be peace-building, as has been mentioned. 
Madam Chair, it is clear that despite recent setbacks, an 
opportunity does exist to pursue negotiated settlements in both 
Sri Lanka and Indonesia. I urge this committee to use the 
tremendous political capital at its disposal to bring 
conflicting parties together in both of these stricken 
countries. Indeed, the continued leadership and support of the 
U.S. Government is vital in every respect. The long-term 
commitment of the international community, as a whole, is 
essential to helping tsunami-stricken communities move from 
relief to recovery. I hope the U.S. Senate will remain engaged 
in this issue, and for my part, I would be happy to return 
later to testify and provide an update on what has actually 
been accomplished.
    Madam Chair, UNICEF has always worked in emergencies, both 
natural and manmade. Originally we were called the United 
Nations International Children's Emergency Fund. It has always 
been a part of our business. It comes out of the shattered past 
of the Second World War. Much has changed since then, but our 
fundamental purpose has not. Emergencies today represent 40 
percent of our activities. In health, nutrition, water, 
sanitation, protection, education, as well as the protection 
against HIV/AIDS our core commitments to children in 
emergencies are more than a mission statement. They are a 
humanitarian imperative.
    Therefore, even as we continue our work in tsunami-affected 
countries, we must help focus public and government attention 
to other forgotten countries. Sudan with a recent peace 
agreement gives some cause for hope but also creates the need 
for rapid, positive change to build confidence and better 
social services in Liberia, where we must consolidate the 
initial steps toward peace and normalcy, and in other countries 
as far afield as Afghanistan, Cote d'Ivoire, Haiti, or even the 
Central African Republic.
    Madam Chair, members of the committee, thank you on behalf 
of UNICEF. Thank you on behalf of the United Nations for your 
continued and strong support. Together we can improve the lives 
of millions of children in emergencies across the globe by 
starting with this response in the tsunami.
    Thank you very much.
    [The prepared statement of Mr. Toole follows:]

    Prepared Statement of Dan Toole, Director, Office of Emergency 
                    Operations, UNICEF, New York, NY

    Mr. Chairman, and Members of the Committee, thank you for the 
opportunity to discuss UNICEF's response to aid victims of the tsunami.
    Before I begin, however, I would like to take this opportunity on 
behalf of UNICEF to extend our deepest appreciation for the support and 
leadership of this Administration, and of President Bush, in responding 
to the tsunami crisis. As a citizen of this country, I take real pride 
in the tremendous efforts of the United States to alleviate the 
suffering of tsunami victims. Americans have opened their hearts--and 
their pocketbooks--in an unprecedented way; the American public alone 
has donated over $60 million to UNICEF in support of the tsunami. I 
know I speak for the entire humanitarian community when I say that we 
are all truly grateful for the tremendous support of the United States.
    The U.S. military has offered key logistical support, particularly 
in the Aceh region of Indonesia. The inter-agency health assessment on 
the West Coast of Indonesia would not have been possible without the 
USS Lincoln. The USNS Mercy has now moved into Indonesian coastal 
waters, and has already begun to assist UNICEF in our efforts to 
provide primary health care to affected populations there. The Centers 
for Disease Control and Prevention has seconded a number of staff to 
UNICEF Indonesia, offering technical expertise in malaria prevention, 
diarrheal diseases, and measles.
    In this, as in any emergency, UNICEF does not work alone. I would 
like to thank our partners in the NGO community and our sister U.N. 
agencies, as well as our government partners around the world for their 
invaluable support and assistance. Finally, I would also like to 
commend this Committee for its leadership in remaining focused on this 
issue, and for holding this hearing today.
    Mr. Chairman, the events of 6 weeks ago can only be described as 
cataclysmic. I have travelled the region twice since the tsunami 
struck, and I can tell you that no words, no photo, no amateur video 
could ever capture the devastation I saw there. Indeed, despite more 
than 20 years of working in development and humanitarian assistance, I 
have never seen this sort of destruction before.
    No doubt you have all heard the figure: Over 5 million people have 
been affected by this calamity. But even a number like this falls short 
of describing the enormity of the situation. People have lost family, 
friends, homes, and livelihoods. They have also lost doctors and 
teachers, roads and bridges, schools and hospitals. The very lifeblood 
of their communities has been washed away. In some parts of Aceh, the 
destruction goes nearly 5 miles inland--scarcely a tree or a building 
remains. Nor were these ``little peasant shacks'' or huts on the 
beach--these were houses made of reinforced concrete, two and three 
stories high. Now all that remains of these neighborhoods are ragged 
walls of perhaps a foot high.
    The photos you have seen show miles of rubble, and that is what is 
left. But remember, the rubble is people's lives. There are bits of 
clothing--a CD, a photo album, a diploma, an intact bottle of chili 
sauce and a half case of soda--random bits of thousands of lives now 
gone.
    I flew down the coast to Meulaboh in a helicopter, and--thanks to 
the U.S. military--returned that way as well. The scene was one of 
nightmarish destruction. Near Banda Aceh, where the coastline is one of 
rugged cliffs, a band of white salt marks where the swelling sea 
reached the height of a four-story building. Where there are 
depressions and bays, as in Banda Aceh itself, the rushing water 
destroyed everything in its path. Imagine four waves, each 40 feet high 
or more, carrying cement, chairs, cars. I could describe for you a 
litany of surreal images: A bulldozer carried 4 miles inland and 
discarded in the middle of a withered rice paddy; a huge petroleum 
barge hurled into someone's home a mile and a half from the coast; palm 
trees flattened in a row like the tines of a comb.
    And this is to say nothing of the damage caused by the earthquake 
itself. Nine point zero on the Richter scale--it is difficult to 
imagine. The aftershocks alone, measuring 6.5, tore through Aceh with 
the same force as the earthquake that devastated Kobe, Japan in 1995. 
We are only now beginning to assess the damage caused before the waves 
hit.
    But of course it is not the toll upon brick and mortar that is so 
devastating to see. It is the human stories that tear your heart out, 
and they are seemingly endless. Despite my many years cultivating a 
``steely exterior'' in emergencies, it was still a tremendous effort 
not to break up in the face of these tragedies. A woman in Mulativo Sri 
Lanka, lost two of her children and her husband in an instant. She 
managed to get one daughter on a roof and scurry up a tree with her 8-
month old, only to have the baby ripped from her arms. Two weeks later, 
she sobs inconsolably, her face the epitome of horror and despair. What 
can we say? Another woman lost 34 people in her family--three 
generations. She is left with a grandson who was away visiting an 
uncle, and a daughter whose home she was visiting when the waves hit. 
Story after story, person after person. Random destruction, random 
horror that has burrowed deep into the mind. People who just stare at 
the sea or at a roof and who won't speak. It will take a long time to 
heal; some may never get there.
    More than a third of the victims of the tsunami were children. In 
some communities, UNICEF has found that the number is much higher--as 
many as half. Those children who survived are left vulnerable by the 
loss of homes, parents and family. For them, the threat has not yet 
passed. Hunger, disease, trauma and the threat of exploitation still 
pose serious risks.
    Together with our U.N. and non-governmental partners, UNICEF is 
doing everything possible to eliminate these risks. We have helped 
ensure that there is clean water in Indonesia, Maldives, Sri Lanka, 
India, Thailand, and even as far away as Somalia. Latrines have been 
established for the tens of thousands of displaced living in camps or 
with local communities. We have distributed health kits and basic 
supplies like clothing and plastic tarps to provide temporary shelter, 
ensure good nutrition, and guard against disease. We have supported the 
affected governments and our NGO partners to set up protective 
environments for children, including those who have lost their parents. 
And we have undertaken vaccination campaigns against deadly illnesses 
such as measles. To date, UNICEF has shipped over 2,000 metric tons of 
relief supplies in response to this emergency, at a total value of over 
$8 million. In all, some $45 million worth of supplies have been 
ordered.
    These early interventions, and the swift response of the 
international community as a whole, have given cause for hope. No doubt 
we all remember the early fears that disease might double the number of 
casualties, and the alarming media reports of trafficking of children. 
Thanks to the committed response of the international community and the 
strong leadership of the affected governments themselves, these fears 
have largely failed to materialize.
    This is thanks in large measure to the unprecedented degree of 
coordination among humanitarian actors. The sheer scale of this 
disaster and the number of countries affected has presented an enormous 
logistical challenge. Even so, however, coordination of relief efforts 
among U.N. actors--and between the United Nations, NGOs and 
governments--has shown a vast improvement over previous emergencies. 
Under OCHA's overall leadership, humanitarian actors have engaged in 
regular, systematized information-sharing and planning to map out 
response, helping to ensure that every need is covered without 
unnecessary duplication. In spite of the large number of agencies 
operating in the field, we are working well together.
    Under this overall umbrella, UNICEF has assumed the leading 
coordination role in certain key sectors--namely, education, child 
protection, and water and sanitation. In nutrition, we share a 
leadership role with our partners in the World Food Program, and in 
health, we are collaborating with the World Health Organization.
    With respect to the latter, vaccination campaigns throughout the 
affected areas were one of our earliest priorities. In India, measles 
and vitamin A drives began within days of the disaster, and by January 
7th these campaigns had already wrapped up on the mainland. The remote 
Andaman and Nicobar Islands took longer to reach, but thanks to the 
cooperation of the Indian government, immunization of children is now 
well underway.
    In the Aceh region of Indonesia, where over 75 percent of health 
care professionals are still unaccounted for, we are working in close 
collaboration with key partners including: The World Health 
Organization, Medecins sans Frontieres, IFRC, Care, and Centers for 
Disease Control and Prevention to provide measles vaccines and vitamin 
A supplements to over half a million children between the ages of 6 
months and 15 years. We are also providing basic drugs and supplies for 
health facilities to cover 1.2 million people, including 1 million 
sachets of oral re-hydration salts, malaria treatment for 3.2 million 
people, 2,700,000 iron tablets, 68,000 syringes, and 11,500 safety 
boxes.
    UNICEF also participated in the recent inter-agency health 
assessment on the west coast of Indonesia. This 24-person assessment 
team, consisting of U.N. agencies and NGOs, was only possible as a 
result of logistical support from the United States. It covered 
numerous sites previously unassessed on the West Coast, using four 
teams operating simultaneously and supported by U.S. helicopters for 
drop-off and pick-up. The assessment took 6 days in total, hosted on 
the USS Lincoln.
    As I mentioned earlier, Mr. Chairman, our deepest gratitude goes to 
the U.S. military for this and other crucial assistance. U.S. military 
support continues to prove invaluable in Indonesia, and I would 
especially like to highlight the USNS Mercy, a floating hospital of 
exceptional resources. UNICEF and the crew of the Mercy have already 
begun technical-level discussions to assess the many ways in which the 
Mercy can support key areas of public health such as water quality, 
malaria prevention and control, emergency obstetrical care and safe 
motherhood, measles vaccination programs, and psychosocial support.
    Needless to say, however, the threat of disease remains. Clean 
water and proper sanitation are a critical and growing problem, 
especially for the hundreds of thousands of tsunami survivors living in 
temporary camps. The risk of water-borne diseases such as cholera and 
diarrhea is high, especially for children.
    The sanitation situation is particularly worrying in Indonesia, 
where in some areas of Aceh Province, only one in 1,000 people has 
access to a toilet. This shortage has been exacerbated by heavy rains, 
which have flooded many toilets in low-lying camps, forcing displaced 
people to relocate to higher ground. Heavy rains have worsened the 
situation in Sri Lanka as well, where only 35 percent of people in 
camps have access to safe sanitation. And in the Maldives, water and 
sanitation has proven to be the greatest challenge. The extremely low 
altitude of these islands rendered them especially vulnerable to damage 
and contamination of water supplies and sewage systems. As early as 
December 28, UNICEF estimated that one in five islands in the Maldives 
was without safe drinking water. Compounding the problem, virtually 
every household on the affected islands reported blocked or damaged 
sewage systems.
    In response, we are working with governments to coordinate aid 
agency relief efforts across the tsunami-affected countries to restore 
access to safe water and sanitation. In the Banda Aceh and Aceh Besar 
Districts of Indonesia, UNICEF is pumping and chlorinating 1,500 wells 
to benefit 15,000 people, and supplying mobile water treatment units at 
six locations along both East and West Coasts to benefit 25,000 people. 
Construction of emergency latrines is ongoing, and we are also 
providing bathing and washing facilities for 43,000 people in 
settlements for the displaced.
    In Sri Lanka, UNICEF has distributed hundreds of tons of water and 
sanitation supplies, including bottled drinking water, water 
purification tablets, water tanks, pumps, jerry cans, and family water 
kits, to name but a few. We have constructed more than 1,500 temporary 
latrines, and are supporting the establishment of women's bathing 
facilities at relocation sites for the displaced.
    And in the Maldives, we have distributed Basic Family Water Kits, 
containing collapsible buckets, bars of soap and purification tablets, 
including instructions on their use in the local language. We are 
helping the government to construct latrines, and have supplied 
hundreds of wheelbarrows, shovels, rakes, disinfectant, and other 
cleaning equipment to address the problem of garbage disposal. Across 
the Maldives, UNICEF and its partners are assisting 69 islands with 
over 13,000 households.
    These and other UNICEF water and sanitation projects will be 
supported by the Tsunami Water and Sanitation Fund, created last month 
in partnership with the Clinton Foundation as part of President Bush's 
campaign for private sector support to the tsunami crisis. The new fund 
will support a robust series of programs designed not only to restore 
safe water and sanitation for affected countries, but to improve upon 
what existed before. And of course, former President Clinton will now 
support the tsunami effort more broadly as Secretary General Kofi 
Annan's Special Envoy for Tsunami-affected Countries.
    Turning to the issue of protection, UNICEF and other child 
protection agencies have been deeply concerned over reports of children 
being exploited or trafficked. For the most part, however, these 
reports have thankfully remained unsubstantiated. This is in part 
because the number of separated children--those no longer in the care 
of their parents--and unaccompanied children--those no longer in the 
care of an adult--is relatively small. Though it varies among 
countries, the devastation of the tsunami was such that many children 
simply did not survive; as a result, there are few children at all in 
some of the worst hit areas, unaccompanied or otherwise.
    In addition, the affected communities generally have a strong 
tradition of caring for children who have lost parents, and as a result 
we can say confidently that the number of children requiring full-time 
care from child protection agencies is very small.
    In Indonesia, UNICEF and its partners have registered 440 separated 
and 31 unaccompanied children. In Sri Lanka, there are 1,500 separated 
children living with family, and fewer than 50 children are 
unaccompanied; 4,000 Sri Lankan children have lost at least one parent. 
In neighboring India, we have identified 361 children who have lost 
both parents, and over 1,800 who lost one. Approximately 500 children 
in Thailand have lost one parent or guardian, and 73 lost both parents.
    Considering the magnitude of this emergency, the number of 
unaccompanied children is relatively small; however, it is still 
crucial to ensure that these children are protected from those who 
would prey upon their vulnerability. In this regard, UNICEF commends 
the swift and decisive leadership of the affected governments. Through 
the imposition of moratoria on international adoptions, the tightening 
of port and border security and other measures, affected governments 
have helped ensure that their children are not victimized yet again by 
the tsunami. In addition, I would like to offer our sincere thanks for 
the statement issued by the U.S. Government in the early days of the 
crisis underlining the essential role of extended family and community 
placement for children who had lost their parents. It was a helpful 
initiative prompting national governments to strengthen their own 
measures to protect children from illicit adoption or trafficking.
    UNICEF and its partners have also taken protective measures for 
unaccompanied children. In part through generous support from USAID, 
child centers have been established throughout the affected areas to 
register unaccompanied and separated children, and to set up family 
tracing mechanisms to help locate loved ones. Children who are no 
longer in the care of their families will be protected and supported 
through these centers so that they are not abandoned or left to fend 
for themselves, but have the opportunity to go to school, eat well and 
play. We are distributing Family Kits to support households who are 
caring for separated children, and monitoring mechanisms have been put 
into place to ensure that children living with foster families are 
being cared for responsibly.
    But it is not just separated and unaccompanied children that need 
our protection. Thousands of children living in displacement camps are 
vulnerable to exploitation and abuse, and in some cases recruitment 
into local fighting groups. And virtually every child in the affected 
areas is experiencing some form of psychological distress arising from 
the disaster. For these children, it is crucial to re-establish some 
sense of normalcy, and ensure that there are safe places for them to 
learn, play, and interact.
    Throughout the affected regions, UNICEF has been supporting local 
governments in their efforts to get children back to school--or, where 
this is not possible, ``back to learning.'' We have shipped literally 
tons of educational materials, including thousands of school tents, 
school-in-a-box kits, and recreation kits including sports and games. 
We are supporting teacher training, including training in psychosocial 
support, and are assisting the Government of Indonesia to recruit 
teachers to replace the 2,000 education professionals who were killed 
in the tsunami.
    Even once schools have re-opened, however, the psychological impact 
on ``the tsunami generation'' is likely to be deep and long term, and 
will require sustained psychosocial care. Throughout the affected 
areas, we are supporting community- and school-based psychosocial 
responses to help children cope with the enduring impacts of this 
tragedy.
    In Sri Lanka, for example, UNICEF is training non-governmental 
partners, teachers and local authorities in psychosocial response, 
including developing projects where children can help each other. In 
the districts of Batticaloa, Trincomalee and Kirinda, UNICEF and its 
partners have established spaces in displacement camps where children 
can learn and play safely, where they can interact with each other in a 
stable environment. Thousands of play kits, including toys, puzzles and 
sports equipment, are being distributed. Through play, drawing and 
structured recreation activities, children in Sri Lanka and elsewhere 
are coming to terms with the terrible losses they have suffered.
    Thus far, there have been only scattered reports of abuse and 
trafficking, and those generally unconfirmed. Nevertheless, UNICEF Is 
taking precautionary measures, including extensive awareness-raising 
campaigns and the training of military and police officers in child 
protection issues.
    Mr. Chairman, one of the most important lessons we can draw from 
these figures is that, as the old adage goes, an ounce of prevention is 
worth a pound of cure. Though early media reports of trafficking and 
abuse proved largely unsubstantiated, they nevertheless galvanized a 
powerful response that may not have emerged as quickly otherwise. Just 
as swift vaccination campaigns, Vitamin A distribution and the 
provision of clean water helped stave off disease, early measures to 
protect children--many of them taken by the affected governments 
themselves--most likely went a long way toward preventing the further 
victimization of children.
    This points to a need which has been increasingly apparent to child 
protection agencies of late: The need to mainstream our collective 
protection response so that it becomes more predictable and, 
ultimately, more efficient. Just as we know from experience to 
distribute oral re-hydration salts and water purification tablets in 
times of flood, so too should we have automatic, preventive protection 
responses in times of emergency.
    But our assistance does not stop once these early interventions are 
over--once the threat of diseases subsides and the first day of school 
has passed. In UNICEF, we often say we work in a country before, during 
and after an emergency. We also work on both sides of a conflict, 
adhering to the universal humanitarian principles of neutrality and 
impartiality. That is why, if you travel to Sri Lanka or Aceh in a year 
or two, you will see our staff helping governments and civil society to 
reconstruct school buildings and health clinics, and to support the 
long-term rehabilitation and recovery of all regions, whatever their 
political allegiance. Too often in the past, the international 
community has allowed its attention to wander away too soon, depleting 
political will and resources before the job is truly over. We must not 
allow that to happen here.
    Another lesson we can take away from this tragedy is the importance 
of investing in national capacity to respond to disasters. The strength 
of the national response in Thailand and India stand testament to what 
can be achieved when governments have the proper tools in place. The 
international community will always respond when disaster strikes, but 
national capacity is critical. Here again, preparedness is the 
watchword.
    And it is not only governments who need to be prepared. The 
international humanitarian community also has a responsibility in this 
regard. So what about us? Were we at UNICEF ready for such a massive 
emergency? Of course not. No one could have planned for a calamity of 
this scale. However, the lessons of Darfur, Afghanistan and Liberia 
have helped us to respond faster and more efficiently. They have also 
shown all of us in the United Nations the vital importance of 
coordination. Now we need to carry these lessons forward to other 
emergencies.
    Mr. Chairman, UNICEF has always worked in emergencies, both natural 
and man-made. Originally called the United Nations International 
Children's Emergency Fund, the organization was created to provide 
humanitarian assistance to children living in a world shattered by the 
Second World War. Much has changed since then, but our fundamental 
purpose has not. Emergencies still account for 40 percent of our 
activities. In health and nutrition, water and sanitation, protection, 
education and HIV/AIDS, our Core Commitments for Children in 
Emergencies are more than a mission statement--they are a humanitarian 
imperative.
    Therefore, even as we continue our work in tsunami-affected 
countries, we must help focus public and government attention to other, 
forgotten countries: Sudan, where the recent peace agreement gives some 
cause for hope, but also creates a need for rapid and positive change 
to build confidence and better social services; in Liberia where we 
must consolidate our initial steps toward peace and normalcy; in 
Afghanistan where massive support is still necessary to build peace; 
and in other countries such as Cote d'lvoire, Haiti and the Central 
African Republic.
    Mr. Chairman, Members of the Committee, thank you on behalf of 
UNICEF for your continued strong support. Together, we can improve the 
lives of millions of children in emergencies across the globe, building 
better opportunities, better futures, for every child.

    Senator Murkowski. Thank you, Mr. Toole.
    Ms. Lindborg.

     STATEMENT OF NANCY LINDBORG, PRESIDENT, MERCY CORPS, 
                         WASHINGTON, DC

    Ms. Lindborg. Thank you, Madam Chair, Senator Biden. We 
appreciate your leadership on this and so many issues and, at 
this point, your stamina. We appreciate your inviting us to 
share our early reflections on how the international community 
has responded to the devastation of the tsunami.
    A few weeks ago, I had the opportunity to travel to Sri 
Lanka and Indonesia and I stood with our team in the village of 
Miruk Lam Reudeup, which is just outside Banda Aceh in 
Indonesia. I think it is fair to describe that area as Ground 
Zero. It suffered from both the earthquake and the devastation 
of the tsunami. As you have heard throughout the morning, it is 
a scene of some devastation, the churned debris that covers 
what used to be homes and villages.
    While I was there, we began working with villagers, who had 
come from nearby displaced camps, in a cash-for-work program 
that paid the villagers to do the projects that they had deemed 
the highest priority. In that instance, it was to clear the 
roads so they could reenter their villages to see what was left 
and, on a more gruesome note, to enable the Indonesian military 
to come in and retrieve the bodies that were still under the 
debris. It was a pretty sobering and pretty desolate sight.
    But, just yesterday, I received an e-mail from a member of 
our team on the ground, and he writes that since my visit, the 
recovery has really been remarkable. You would not believe this 
place, if you saw it, he writes. The village has a new well, a 
generator that runs the water pump, lights that extend the 
workday well into night. All the roads are cleared. People are 
returning home and beginning to rebuild. Small businesses that 
service the reconstruction effort are popping up. Jobs are 
being generated. Markets are open. The people in the village, 
he writes, are several steps ahead of the government and the 
international NGOs.
    I wanted to share that reflection with you because it 
captures a really important point that I would like to make, 
and that is, relief and recovery works best when it is planned 
and executed in close partnership with the communities affected 
by a disaster. Many of these community members, despite the 
considerable trauma that we have heard quite a bit about today 
and the enormous loss caused by this disaster, are at this 
point survivors, and many of them have the will and the know-
how to help shape the best response to the disaster.
    I was asked to reflect a little bit on where I thought the 
NGOs were most effective in this response. I would like to just 
hit three points.
    The first is that, because of the long-term investments in 
development that many of us have made, in partnership with the 
U.S. Government, in so many of these countries, we were able to 
respond quickly through our partnerships with local communities 
and local governments, with our own staff members who were 
poised and ready to go in, and with local knowledge, networks, 
and suppliers. A quick example is that Mercy Corps has worked 
in Sumatra for several years with a U.S. Department of 
Agriculture program. Because of our nearby location to Aceh, we 
were able to be at the border quickly with a seasoned team, 
with assets, trucks, motorcycles, and office supplies ready to 
go as the border opened. That is the result of long-term 
development investments.
    Second, I think we have done our best work when we are able 
to leverage the energy and the ingenuity of the local 
communities. I cited the cash-for-work example in Aceh. This 
means being able to see the best ways to support the community 
as they move forward in their own recovery. It means investing 
in their efforts. For example, seeing that there is a brick 
factory that, with a capital investment, can get back up and 
running, supply bricks for the effort, employ individuals, and 
give them the capacity to earn income and make their own 
decisions about how to move forward.
    In Meulaboh, for example, we very quickly helped local 
community members move, within the first 10 days, 28 boats back 
down to the ocean, repair them, and get them back out to sea. 
As one fisherman told me, I am still afraid to go too far out, 
but it feels good to get back into some routine.
    Third, as has been noted, there has been an unprecedented 
response by private donors throughout the world, and Americans 
have been extraordinarily generous. That incredible pipeline of 
flexible, fast money has enabled the NGOs to mobilize quickly. 
From the very first day, we were able to move in with resources 
and were able to undertake immediate distributions. It has 
enabled us to be so flexible that as the situation, which is 
extraordinarily dynamic, has changed, we have been able to 
adjust our programs to support recovery efforts as quickly as 
is needed. It has proven to be a remarkable asset, if we ever 
have had any doubt, in enabling that response.
    I would like to comment briefly on two challenges that 
remain, although, I think we have made great progress on both 
in this particular response. The first is the challenge of 
material aid. We have seen this in many emergencies stemming 
from extreme good will and wonderful motivation. Well-meaning 
people want to respond by providing things, medicines, clothes 
and items that, although well-intentioned, end up clogging up 
our logistical pipelines and are often not appropriate for the 
environment. For example, I met with a Sri Lankan village 
leader who was a bit perplexed at a shipment of ties and 
miniskirts that he had just received. There are many very 
important uses of material aid, but it has to be demand-driven, 
well-targeted, appropriate, and prioritized.
    The good news is we have made enormous progress with this 
response. We have seen messages in mainstream publications to 
please donate cash instead of goods. Great credit is due to 
Presidents Bush and Clinton for their carrying that message so 
effectively as well.
    Second, we have talked a lot through the morning about 
coordination, and I think that we were challenged to coordinate 
because of the enormity of the response. So, many groups and 
individuals who have not previously worked in emergency 
environments, through the best of intentions, showed up. But 
the good news is that the experienced actors, the U.N. and the 
NGO community, they were able to quickly, on the ground, 
reconstitute the international architecture that does exist.
    Just to give you a sense of what that looks like on the 
ground: In Indonesia, when I was there, every morning at 7 
o'clock, there was a meeting between U.N. representatives and 
NGOs to talk about the key issues for a half-hour, followed by 
sectoral and regional meetings that appropriate NGO 
representatives then attended through the day. There is also a 
humanitarian information center established by the United 
Nations. So, if you are new to the scene, you can plug in, see 
who is doing what, who has which resources and where.
    Just a quick example; a very small example of how that 
works. In Meulaboh, Mercy Corps was able to bring in several 
shipments of dried fish. We learned that Catholic Relief 
Services was distributing a food basket that lacked protein but 
they had the networks in the displaced camps. We were able to 
add our fish to their food basket so that there was a complete 
food basket distributed to those families. Those kinds of 
examples occur every day in many, many ways.
    One way in which all of this coordination becomes very 
helpful is that it gives us a mechanism to deal with the 
sensitive issues, one of which is shelter. The whole question 
of shelter is quite complicated in Aceh where there are 450,000 
displaced people. The United Nations, the NGOs, and the 
Indonesian Government have been able to form an integrated task 
force to look at how to ensure the best setting for the 
proposed barracks. So, some of the early concerns have not 
materialized, although it is an issue that we will all be 
looking at closely, but with good dialog and good coordination 
among all the various actors there.
    Finally, I would like to end with just two recommendations 
as we look forward. The first is to really urge that we look 
again at how to establish funding mechanisms that distribute 
money much more quickly and effectively over longer time 
periods. We had a great advantage because of the private 
resources that were available for the tsunami. We do not 
always, in fact, we rarely have that advantage. We see what a 
great benefit that is for ensuring a very fast and effective 
response that can move to meet changing needs as quickly as the 
situation demands.
    Second--and this is pertinent as you look at both the 
supplemental request and the FY 2006 budget--it is critical to 
maintain our solid investments in development. As important as 
these emergency responses are, it is critical that we do not 
forget the value of long-term development programming, the 
value that it played in this response, and also in meeting the 
many silent tsunamis around the world.
    I will not say more because I was very heartened to hear 
the concern among many of the Senators on this committee that 
we not forget either of those important areas.
    As we reflect on this first period of response, I think 
there is much to commend. I think that the international 
community drew together and we were able to avert some of the 
biggest fears that we had. We were able to access some of these 
very difficult areas and meet the immediate needs. Kids are 
back at school in Aceh and the risk of widespread disease has 
been averted.
    I will say, however, that now is when the hard work begins. 
These are extraordinarily complex situations and there will be 
rebuilding efforts that will take us through the next 5 to 8 
years. It is important that we not lose that focus. I would 
urge you all to consider holding a hearing in another 6 to 12 
months to check in how that longer term effort is going. In the 
meantime, we will continue to take our cue from the enormous 
courage of all the survivors with whom we are working.
    Thank you.
    [The prepared statement of Ms. Lindborg follows:]

     Prepared Statement of Nancy Lindborg, President, Mercy Corps, 
                             Washington, DC

    Mr. Chairman and members of the committee, thank you very much for 
inviting me to share my thoughts on the humanitarian response to the 
Indian Ocean earthquake and tsunami. The tsunami delivered a historic 
and devastating punch through a region that spanned 11 nations, 
requiring a fast and comprehensive response. This disaster severely 
tested the international relief infrastructure, and I believe we can 
draw from this experience valuable lessons that will inform our 
planning and response to future emergencies. I applaud the committee 
for taking the time to explore these issues, appreciate as always the 
leadership of Chairman Lugar and Senator Biden, and look forward to 
working with you to improve our capacity to respond to future 
disasters.
    A few weeks ago, I traveled to Sri Lanka and Indonesia. I stood 
with our field staff in the utterly devastated village of Miruk Lam 
Reudeup in the Aceh Province of Indonesia. I think it's fair to 
describe that area as Ground Zero for the disaster, as it was affected 
both by the earthquake and the massive tsunami that followed. Most of 
us have seen the images of churned debris and devastated landscapes. 
While I was there, Mercy Corps began working with the villagers in a 
cash-for-work program that paid them to do projects they identified as 
most important. They began by clearing the road into their village, so 
they could pick through the remains of their houses, and most 
importantly, the Indonesia military could gain access to recover the 
many bodies under the wreckage. It was a desolate scene, with villagers 
wearing face masks and laboriously clearing the way to their former 
homes.
    But just yesterday, I got an e-mail from Dan Curran, a member of 
the Mercy Corps team in Aceh. He writes that since my visit there, the 
recovery has moved quickly. ``You would not believe this place if you 
saw it,'' he wrote. The village has a new well, a generator that runs 
the water pump, and enough lights to extend the work day well into the 
night. The roads have been cleared. People are returning home and re-
building with whatever materials they can salvage. Small businesses 
that service the reconstruction effort are popping up around town, 
providing much needed jobs and building supplies. ``The people in this 
village,'' Dan wrote, ``are several steps ahead of the government and 
the international NGOs.''
    Dan's observation captures well one of my key points today: Relief 
and recovery works best when planned and executed in close partnership 
with the communities affected by a disaster, whether natural or man-
made. Many of these communities have the will and the know-how to shape 
the best response to the situation--the international community needs 
to fully use and support these local assets.
    In responding to the Indian Ocean tsunami, the international NGO 
community was most effective when it leveraged the energy and ingenuity 
of the affected communities, when we have made long-term investments in 
building local capabilities, and when we have the resources and 
flexibility to support local initiatives.
    We have passed the critical first month of response. As we reflect 
on the response to date, there is much to commend. The world has 
responded with incredible generosity. Many nations were able to work 
together to access difficult areas and provide essential services. 
Schools have reopened in Aceh. Conflicts have abated. Major disease 
outbreaks have been averted. I think we can be proud of the response.
    And now the really hard work begins.
    I would like to offer a few comments from the perspective of an 
NGO, about the NGO response to this tragedy:
1. Ongoing Investments in Longer Term Development Enabled a Fast, 
        Effective Response
    First, many of us had a fast and substantial immediate response to 
the emergency. Because many of us have been working on the ground in 
India, Sri Lanka, Sumatra and elsewhere, we were in a position to 
deploy the right people and resources on very short notice. We were 
able to do so because we have existing networks of local teams, local 
partners and suppliers. In those critical first hours after the 
emergency, it is the people on the ground who are able to reach those 
affected most quickly.
    For example, Mercy Corps teams were waiting at the Aceh border as 
government officials opened that border for the first time in a year 
and able to cross into Aceh with a seasoned team, an office set-up and 
supplies. We are able to do so thanks largely to the fact we have 
several ongoing development focused USDA programs in Sumatra. Through 
these programs, Mercy Corps distributes soy milk to more than 100,000 
schoolchildren and supports local NGOs in microfinance, water and 
sanitation, capacity building and relief activities. Due to these USDA 
programs, Mercy Corps was able to quickly redeploy staff, equipment, 
and resources to Aceh and provide immediate food, temporary shelter, 
and water to thousands of survivors. Our familiarity with Sumatra and 
working with the local NGO sector have also proved helpful in our 
effort to move quickly into community recovery activities, a process 
that will continue to rely on partnerships with local NGOs and 
community groups. Within the week, we were distributing food to more 
than 60,000 individuals using World Food Programme resources.
2. Early Developmental Relief Focus Supported Local Capacity
    Second, Mercy Corps, like some other NGOs, sought and implemented 
innovations that moved the response quickly into recovery programs. As 
always, Mercy Corps made an effort to be flexible and entrepreneurial. 
We looked for gaps in the response and moved immediately to fill them. 
Mercy Corps participated fully in the effort to meet urgent needs--
distribution of food, health and hygiene supplies, household kits and 
other essentials--but we also immediately started working with local 
communities to determine the necessary next steps for recovery. The 
cleanup and income needs in affected areas were tremendous, but so were 
the supply of labor and enthusiasm among local workers.
    As I noted earlier, Mercy Corps started a cash-for-work program 
that paid locals to clear roads, rebuild schools, and maintain IDP 
camps. We employed more than 1,600 people in Banda Aceh alone, giving 
families the income to buy much-needed staples and making communities 
livable again. The NGO community was able to work with communities, to 
assist kids to return to school, help fisherman repair their boats and 
support a return to their homes.
3. Ability to Mobilize Private Resources Enabled a Fast and Innovative 
        Response
    Third, we benefited from an unprecedented amount of private 
resources. If we ever had any doubt, this crisis proved the enduring 
value of fast, flexible resource pipelines. Without having to wait for 
institutional donors, many NGOs were able to move quickly into the 
affected areas and begin delivering vital assistance. We are 
essentially the arms and legs of the international response, and this 
time around, we were resourced so we could mobilize fully and quickly. 
All too often, we are scraping for funding early on in a crisis while 
institutional funding sources get underway.
    As importantly, as the situation changed, we were able to identify 
innovative solutions and work with communities to devise assistance 
options that most met their needs. For example, Mercy Corps was able to 
begin cash-for-work programs as soon as community members identified 
their desire to get back to work. We were then able to begin investing 
in small entrepreneurial efforts designed to jumpstart the local 
economies, providing income and jobs. Once these efforts demonstrated 
an effective approach, we could scale them up. A cash-for-work program 
that began with 100 villagers in Miruk Lam Reudeup is now employing 
more than 2,000 workers throughout Aceh, with support from OFDA, OTI 
and UNDP.
    Unfortunately, we can't count on this level of public support, 
especially for the more complicated and hidden emergencies we typically 
address.
4. Challenges of Material Aid Remain
    One of the chronic problems we face in highly publicized 
humanitarian efforts is too much material aid. Generous and well-
meaning people--though schools, workplaces, places of worship--want to 
contribute to the relief effort and send clothes, food, and other 
supplies. Unfortunately, those donated items tend to clog up our finite 
transportation and logistics systems with goods that may not always be 
a top priority. While in Sri Lanka, I spoke with one village leader who 
noted a supply of neckties and miniskirts he recently received. 
Although much can be done responsibly with material aid, it must be 
demand-driven, well-targeted, appropriate and prioritized.
    The good news is that we've made significant progress on this 
issue. Our collective public reminders that cash donations are most 
effective in such emergencies seem to be getting through. Mainstream 
publications carried this message as did Presidents Bush and Clinton. 
But we need to continue driving home that message because the wrong 
donated goods continue to gum up the works.
5. Coordination Systems Worked
    Despite the appearance of chaos, there is an effective 
international infrastructure for coordinating these responses. It 
occurs at many levels: Internationally between donors, at a country 
level, and in each region. Experienced responders know how to 
constitute this system in each new emergency.
    In India and Sri Lanka, the governments managed the coordination, 
while NGOs worked in sector and regional working groups to share 
information and resources. In Indonesia, the government designated its 
military leadership to coordinate with the many international 
militaries that responded, while asking the United Nations to 
coordinate the international NGOs and other international 
organizations.
    So what does this look like on the ground? In Indonesia for 
example, there are regular--at first daily--morning meetings with the 
key U.N. agencies and NGO representatives to identify top issues of the 
day. There are then a series of sector specific and regional meetings 
that appropriate U.N., NGO and government representatives attend. The 
U.N. Office for the Coordination of Humanitarian Affairs has set up a 
Humanitarian Information Center to facilitate information exchange. 
Finally, there is a group of NGOs that meets each week to identify 
critical issues as well.
    In practice this means that in Meulaboh, for example, Mercy Corps 
was able to procure several shipments of dried fish. Catholic Relief 
Services was distributing a food basket from the World Food Programme, 
and although they had established the distribution network, they lacked 
any protein component. Aware of this gap, we gave them the fish for 
their teams to distribute so villagers would receive a complete food 
basket.
    It also means that as difficult and complex issues such as shelter 
are addressed, there are mechanisms for working together. With nearly 
450,000 displaced people in Aceh, the question of shelter is enormous. 
The majority of those people are living with host families, in a 
remarkable tribute to the Indonesian concept of ``Pella Gandong'' or 
taking care of each other. But even so, there is a need to identify 
temporary options for nearly 150,000 of the homeless. The Indonesia 
government, U.N. and NGO community have set up a joint process for an 
integrated planning approach with the intention to ensure the best site 
selection, design and operation of the barracks now proposed in 24 
sites.
6. Collective Commitment to Accountability and Standards in Place
    NGOs have collaborated extensively with one another and with the 
U.N. community over the past 8 years to develop increased levels of 
accountability and effectiveness in our relief operations. The results 
are evident in the standards agreed by InterAction, an association of 
160 U.S.-based relief and development organizations, and in the Sphere 
Humanitarian Charter and Minimum Standards in Disaster Response. Mercy 
Corps field staff in Aceh report that the level of understanding and 
adherence to the Sphere standards among the established NGOs has been 
unprecedented, which has brought a greater degree of accountability and 
uniformity to the effort.
    Two critical challenges stem from the inevitable ranks of highly 
motivated often brand-new organizations and individuals that are 
compelled to respond. As is often the case, they flocked to the 
tsunami-affected areas, swelled the ranks and made coordination more 
difficult. This is not a new phenomenon and usually quiets down after 
the first few weeks, but it does increase an impression of chaos that 
can be misleading.
    In addition, many new or less experienced organizations that don't 
meet key standards undermine the effectiveness of our collective 
response and divert valuable resources from the collective effort.
    To conclude, I would offer the following recommendations as we 
assess our performance in the Indian Ocean region and explore ways to 
plan and execute better humanitarian responses in the future:
    1. Establish a mechanism for rapid disbursement of U.S. Government 
relief funds. As I mentioned above, this extraordinary tragedy brought 
about extraordinary generosity from individual donors; as a result, 
private funds financed our initial response and allowed us to be 
unusually nimble in our programming. In many of the most severe crises 
though, governments provide the vast majority of the funds. We need to 
streamline the mechanism for distributing fast, long-term and flexible 
response funds from the government.
    2. Make solid investments in developing countries. Local 
communities and governments were key to the sound responses in 
Indonesia, Sri Lanka and India. When we invest in long-term 
development--building stronger governance structures, expanding 
educational opportunities, enhancing the health infrastructure--we 
improve livelihoods and better equip beneficiary communities to deal 
with disasters.
    Furthermore, these investments allow NGOs like Mercy Corps to 
establish the kind of presence--a forward position, if you will--that 
enables us to quickly deploy knowledgeable local and international 
staff to the crisis area. Country experience among NGO staff was 
especially important in this crisis, since both Sri Lanka and the Aceh 
Province of Indonesia have longstanding internal conflict dynamics that 
affect response strategies and implementation.
    For these reasons, development assistance needs to be a top 
priority for the U.S. Government. As the discussion gets underway on 
the President's FY2006 budget request, please consider the need to 
ensure that core development accounts are maintained or improved.
    3. Focus immediately on development relief and restoring 
livelihoods. Delivering food aid and non-food emergency supplies will 
remain the immediate priority in humanitarian crises. But as Mercy 
Corps learned on the ground in Indonesia and Sri Lanka, we must 
simultaneously work to get people back on the job: Farmers to their 
fields, fishermen to their boats, merchants to their shops, teachers 
and students to their classrooms. Instead of focusing on a false 
distinction between ``relief'' and ``recovery'' phases, we need to 
manage the two in parallel.
    4. Prioritize local resources and community partnerships. In 
procuring relief supplies and staffing our missions, we should use 
local suppliers and talent whenever possible. That ensures the most 
locally appropriate goods and services and pumps much-needed money into 
the local economies. Most NGOs do their very best to develop local 
talent, which is especially important in the two hardest hit areas in 
the tsunami-affected regions: Because of the dynamics of local 
conflicts, governments are unlikely to permit international staff to 
stay indefinitely and we will need to rely heavily on local staff to 
accomplish recovery goals over the longer term.
    Partnerships with local groups and leaders help guarantee that our 
efforts are meeting the greatest community needs. Mercy Corps worked 
closely with survivors in the devastated Indonesian town of Meulaboh to 
determine how we could contribute. The town's profitable fishing fleet 
was all but demolished by the tsunami, so we worked with leaders to 
organize the fisherman and pay them to move and repair boats that could 
be salvaged. Within weeks, fishermen were back on the water generating 
income for their families.
Challenges Ahead
    As I noted earlier, the serious, complex and long-term effort of 
rebuilding these communities lies ahead. In Sri Lanka and Indonesia, 
there are tangled conflicts that remain just barely below the surface. 
These countries will have to grapple with the many complicated issues 
related to rebuilding an entire human and physical infrastructure. They 
will have to painstakingly restore whole cadres of government workers 
killed or wounded by the tsunami.
    The role that we as international NGOs can continue to play is a 
supportive one. We take our cue from the many people who have survived 
and now lead the way with their determination to rebuild their lives. 
We can and will continue to help people plug as quickly as possible 
back into a life in which they can begin the long process of healing, 
make a living and rebuild both their houses and their community.
                                 ______
                                 

           Summary of Mercy Corps Tsunami Response Operations

    Mercy Corps is concentrating its relief and recovery efforts in 
three nations: Indonesia, Sri Lanka, and India. At present, our tsunami 
response operations are assisting more than 250,000 people throughout 
the region, including over 130,000 in Sri Lanka, over 75,000 in 
Indonesia, and over 50,000 in India. More than 150 Mercy Corps staff 
members are engaged in these activities, which focus primarily on 
economic and livelihood recovery and, where necessary, ongoing 
emergency relief assistance. Mercy Corps is also exploring recovery 
needs in northern Somalia with an eye toward providing assistance to 
tsunami affected communities in that country.
    The emphasis during the initial phase of our response has been to 
meet the most urgent emergency needs through the provision of clean 
water and repair of sanitation facilities, as well as the provision of 
sanitation supplies, food, blankets, and other non-food items, shelter 
materials, tools, and medicines. In addition, we are assisting with 
psychosocial services, cleanup, and access to other basic services. 
From the start, we have worked to tie emergency relief with longer term 
development activities. Cash for work programs are repairing damaged 
infrastructure, while providing participants with an opportunity to 
earn income and regain a sense of normalcy. As always, we are working 
in coordination with other aid agencies, supporting local non-
governmental organizations (NGOs) responding to the disaster, and 
moving as quickly as possible to address the significant economic and 
livelihood challenges faced by these coastal communities.
    Following is a brief summary of Mercy Corps operations in the 
region:

                              INDONESIA
    A Mercy Corps team was among the first humanitarian workers to gain 
entry into Banda Aceh, an area of Indonesia that's been closed off to 
the world for years due to civil war. In addition to helping meet 
immediate food, water, and shelter needs, Mercy Corps has been making 
special efforts to address the long-term needs of children, the most 
vulnerable of those affected by the tsunami. On January 26--
1 month after the tsunami--Mercy Corps helped students in Banda Aceh 
return to 15 local schools. This ``back to school'' success was made 
possible by community mobilization and the hard work of local citizens 
employed in cash for work programs.
    Mercy Corps' cash for work programs pay local workers a fair daily 
wage to help clean up debris and repair critical infrastructure. This 
approach is helping accelerate economic recovery among Indonesian 
families, as well as providing a valuable service in rebuilding 
tsunami-damaged areas. Within 3 months, Mercy Corps plans to employ 
6,000 people in cash-for-work programs that will continue to clean up 
and restore communities. We are also working to facilitate the stable 
return of at least 1,000 displaced families to several villages by 
providing shelter materials and ensuring a clean water supply.
    In the coming months, Mercy Corps will increasingly focus its 
efforts on programs that stimulate local business and help communities 
rebuild. Programs already underway included business activities, such 
as pallet building and loans for brick enterprises, as well as the 
recapitalization of local businesses to expand employment. Along these 
lines, Mercy Corps aims to support at least 100 enterprises in 20 
villages in the coming months. Finally, we are supporting the return of 
at least 1,000 families in several villages, facilitating ``go-and-
see'' visits, distributing family kits for communities in their area of 
return, providing basic shelter materials, and conducting basic well 
water chlorination.

                               SRI LANKA

    Mercy Corps staff members are partnering with local organizations 
to ensure a rapid, efficient response in the areas where assistance is 
most needed, especially the hard hit Ampara District on the eastern 
coast of Sri Lanka. Currently, Mercy Corps has eight international aid 
workers in the country and offices in Colombo, Pottuvil and 
Trincomalee. Senior Mercy Corps staff members have years of experience 
in Sri Lanka, and Mercy Corps completed an assessment visit to Sri 
Lanka in mid-December, less than 2 weeks before the disaster. This 
presence and expertise allows us to build on a broad and deep 
foundation of local contacts.
    Mercy Corps has provided school materials to children, and 
supported children's recreation programs in the camps that many on Sri 
Lanka's eastern coast temporarily inhabit. Mercy Corps is also helping 
to rehabilitate the severely damaged local maritime economy, by 
supporting the repair of fishing boats. Mercy Corps has provided 
materials for cleanup, distributed shelter supplies, initiated a public 
health information campaign and is implementing cash for work programs 
in a number of communities throughout the country. Much of Mercy Corps' 
emergency relief support has been provided in partnership with local 
non-governmental organizations responding to the disaster.

                                 INDIA

    Working with local Indian organizations, Mercy Corps is assisting 
tens of thousands of people in Tamil Nadu, India. Mercy Corps has 
partnered with the DHAN Foundation to launch relief and recovery 
efforts in 20 of 73 villages in Tamil Nadu's Nagappattinam district 
(population 196,000). Efforts include distribution of temporary shelter 
and relief supplies, construction of community activity centers, and 
cash-for-work programs to help improve and reclaim agricultural land 
and livelihoods and improve local water sources. Working with the 
national humanitarian organization DMI (Disaster Mitigation Institute), 
Mercy Corps has completed construction of roughly 350 temporary 
shelters, with construction of a further 100 now underway. Mercy Corps 
has also distributed household kits and food to almost 800 tsunami-
affected families.

    Senator Murkowski. Thank you, Ms. Lindborg. I think your 
suggestion about a followup hearing in the not too distant 
future is a very important one. We do need to continue with the 
monitoring, knowing what is happening and knowing what else we 
could be doing better.
    Ms. Lindborg, both you and Ms. McClymont mentioned the 
issue of very good intentions, those who want to come to help 
but that the inexperience, perhaps some of the newer 
organizations or just individuals that want to assist can be, 
in fact, an impediment or get in the way of the operations. I 
actually had a conversation 2 weeks ago with some friends of 
the family. He is a dentist in Alaska, and they are looking to 
go to Indonesia over their son's spring break in March to do 
what they can to help. What I am gathering from this hearing is 
they should probably look for another opportunity during that 
spring break to do what they can to help unless they have 
already made advance arrangements to assist.
    How do you get the message out? We have been talking about 
coordination, collaboration, just educating people on what is 
needed to help. Instead you get ties and miniskirts. I read the 
article about the down jackets going, and they improvised and 
used them for diapers for some of the infants. How do we deal 
with this? Is it getting better as we are getting further from 
the actual tragedy itself? What is the message that needs to go 
out now?
    Ms. McClymont. Well, let me just begin, Senator, by 
appreciating your concern about this issue because it is a 
major one, as Nancy Lindborg has suggested. InterAction has on 
its website, for starters, a guide to appropriate giving. To 
the extent people are able to know about our website and come 
there and understand it better, that is a start.
    Second, we have produced a video news release and a radio 
news release that we have distributed to media outlets to try 
to get the word out on this. I think what, as Nancy suggested, 
was so critical this time around--many of us were speaking to 
the media about this concern. I know Members of Congress spoke 
to the public about this concern, and as Nancy suggested, it 
was the powerful voice of the President saying, cash is best. 
Please rely on the reliable NGOs that are out there doing the 
work.
    Again, I would hope that we could get the word out that, on 
our website are the list of our member organizations where they 
describe all they are doing overseas in this disaster and many 
others with great particularity. I think if people could find 
their way to these very reliable, sound organizations, at least 
that comprise our membership, they would find that they would 
be able to provide funding for certain activities those NGOs 
might be undertaking that, as your colleagues, they might find 
a volunteer opportunity. There is a particular website which 
gives guidance on those individuals who do wish to volunteer, 
but certainly they can come to our website to observe which of 
our member organizations might want to use their help. 
Admittedly, that is infrequent. You need to be trained. You 
need to be experienced to go out and work in these difficult 
situations.
    But I think the more we can use your help, the Members of 
Congress, and the President, to lay out these messages along 
with us, I think we have just got to keep at it. It certainly, 
as Nancy suggested, was better this time than it has been in 
other disaster incidents.
    Senator Murkowski. And I appreciate your comments, Ms. 
Lindborg, about relying on the local communities, relying on 
the locals first rather than us assuming that we know what to 
do, but to take that brick factory that is there, get it up, 
and get it integrated.
    You mentioned that you had morning meetings, I guess 
meetings between the U.N. agencies and the NGO representatives 
to identify top issues of the day. How did the local community 
play into that type of a meeting format? Were they involved?
    Ms. Lindborg. They were not involved in that meeting. The 
government was involved by virtue of the United Nations holding 
meetings every evening with the government, and they then 
brought that message forward to the NGOs. The NGOs would bring 
the community concerns from our meetings with community leaders 
and religious leaders throughout the course of our work.
    It is important to note, however, that one of the really 
devastating losses in Aceh was of so many of the leaders that 
comprised the government and community and religious leadership 
throughout the province. So they are trying to rebuild that, 
along with the physical infrastructure. But that morning 
meeting was an opportunity to bring those strands together and 
share what were the critical concerns and issues to focus on.
    Senator Murkowski. So they really were integrated, which is 
so important.
    You also spoke about some kind of a mechanism to get the 
funding out fast, and the fact that you had flexibility. With 
all of the private moneys that were coming in, it enabled you 
to move rapidly. But you believe you would not have had that 
flexibility had that private funding not been available, 
recognizing that we might not have it for the next event. How 
do you recommend that we provide for the flexibility while 
still having a level of accountability that, of course, we must 
have?
    Ms. Lindborg. I think that USAID, through the Office of 
Foreign Disaster Assistance, has moved this forward immensely 
in recent years, but there is still a lag time before the funds 
are actually flowing. During that lag time, the NGOs really 
rely on the private funds that we are able to raise, and we are 
not always able to do so if the conflict is not well known by 
the American public. Darfur presents a very instructive 
comparison to the tsunami.
    This is a conversation that we have had for a number of 
years, and we would appreciate the opportunity to continue the 
dialog about how we might structure some sort of prequalified 
mechanism that would have a fund that accountable partners with 
agreed-upon measures could draw down from and not just for the 
3 months that is often the case because it chews up a lot of 
time to have to resubmit proposals.
    What we found we could do with this emergency was, in a 
very entrepreneurial way, spot the needs, come up with creative 
solutions, test them, and then bring them to scale. That is not 
always possible with more restricted funding.
    Senator Murkowski. Mr. Toole.
    Mr. Toole. If I could just add to that. I think it is 
something that we have also lived through. I actually called 
our national committee here in Washington, as well as in London 
and Berlin, on the 27th and said, basically, I need cash now, 
and those national committees pull funds from the public 
sector, the individuals who give, my mother, aunts, et cetera. 
So I think we cannot underestimate the value of that public 
commitment.
    I would also, however, raise that for each of us and in our 
case, UNICEF, the U.S. contribution to our regular resources, 
so the regular budget contributions, are also what allow us to 
respond quickly. The United States is the largest governmental 
donor to UNICEF, and the fact that you give to the regular 
budget means that we have those funds ready to react quickly. 
So, yes, I agree that we need some sort of standby accounting 
facility where we can quickly mobilize funds either from the 
public sector or from governments, but also do not 
underestimate the value of your regular contributions to some 
of these organizations, and the fact that that gives us the 
flexibility we need.
    Thank you.
    Senator Murkowski. And, Mr. Toole, you had mentioned in 
your comments that UNICEF has been in these countries before 
the tragedy, during, and they will be there after. I think that 
that sets you up certainly to evaluate what we do in between 
the crises. You have mentioned just one very simple example of 
making sure that the fundraising is ongoing so that when there 
is a tragedy, when there is a crisis, you have some 
flexibility.
    What else can we do in these in-between times to make sure 
that we can, to the extent possible, be prepared? This is not 
only as it relates to how we deal with the natural disaster, 
but how we deal with the vulnerable populations, such as our 
children. It is kind of a big question. I do not know if there 
are easy answers.
    Mr. Toole. There are certainly not easy answers, but I will 
try anyway.
    I think, first, I would come back to your dentist. The one 
thing we should not do, in trying to reorient some of the 
enthusiasm, is squelch that enthusiasm. What we actually need 
is greater commitment to long-term issues. It is extraordinary 
to me that, for example, for the tsunami UNICEF requested $144 
million for the relief phase. We have raised $300 million in 
about a month. For Sudan, which is a longstanding difficult 
crisis, we asked for $288 million back in November. So far we 
have raised $20 million. So there is a very different level of 
commitment. So I think, on the one hand, we need to keep that 
enthusiasm and help to channel it toward issues that are 
perhaps more difficult to understand but still can help us.
    Second, I would focus on the preparedness. We talked about 
the early warning mechanisms that are possible for natural 
disasters. We in the United Nations, but I know also some of 
the NGOs, are working on similar early warning features for 
conflict, for changes in political situations and we track the 
world through our operation centers, et cetera, to do that.
    Could we have foreseen the tsunami? No. It is not possible, 
nor would it even be desirable to plan on a disaster at that 
scale, but I think we can look at the early warning systems for 
natural disasters. We can look and track the world for the 
kinds of changes that start to happen with markets, with 
children going to school, et cetera, to watch the world and 
make sure that we can respond quickly.
    Senator Murkowski. One of the things that you know you can 
count on in a natural disaster, whether it is an earthquake in 
Alaska or whether it is a tsunami in Indonesia, typhoons, you 
are always worried about your water source. You are always 
worried about the safety of your water. I am curious to know 
about UNICEF's efforts. And I really appreciated the leader's 
spotlight on how we deal with the water situation and really 
putting a focus on that for our developing countries.
    I am going to sit down with him and remind him that I still 
have some issues in my State where we do not have safe water 
and still are carrying our water. We have got to deal with 
that.
    But are we getting closer to that point where we have 
portable water systems that can move in and respond when we 
have these natural disasters, when we have these tragedies? 
That seems to be the one area that we just have not kind of got 
it right, and it leaves us vulnerable to disease, to infection, 
and to all kinds of horribles. Are we getting any better?
    Mr. Toole. Senator, I think we are. Are we there yet? No. I 
think what was good to see in this particular crisis, whether 
it was in the Maldives or in Aceh in Indonesia or in Sri Lanka, 
was that we did actually get water to people pretty quickly. 
Was it perfect water? No. For example, in Sri Lanka there has 
not been a single death from a preventable disease since the 
tsunami. That is extraordinary.
    Where we are doing less well is in the complex emergencies. 
So, for example, in Darfur we, with our partners, have drilled 
wells and provided water to 800,000 people. As director of 
emergencies, normally I would be thrilled. That is half the 
population that we are trying to reach. So we have got a very 
long way to go. So, I think, in natural disasters, particularly 
because of some of the military assets, because of the capacity 
to move in quite quickly, we are responding better than we are 
in some of the complex emergencies where we need to drill 
wells, we need to refit springs, have filters or 
desalinization. It becomes more complicated in those contexts.
    Ms. McClymont. Senator, if I may, just to add to what Mr. 
Toole said. I know that the United Nations, through the Office 
of Humanitarian Coordination that is headed by Jon Eglund, has 
been looking at this question of our capacity, our 
international response capacity with respect to the 
fundamentals of international response, water and medical care 
and so forth. They have determined through their inventory 
recently that there is a concern about the lack of water and 
sanitation capacity and resources. Medical care seems to be 
reasonable in terms of the capacity of the community to 
respond. But I know he will be following up and we, who work 
with the United Nations on this matter, will be following up 
and probably coming back to the Congress to discuss that 
further.
    I also just wanted to underscore that we, too, were 
encouraged by the leader's comments about the worry over clean 
water. We would simply suggest that even as we go forward and 
try to find more resources and capacity to do that, we cannot 
forget the accompanying pieces of the puzzle, the whole set of 
development and disaster response concerns, education, and 
health care and the like.
    I think in response to the question you posed just before, 
what do we do between crises; I think that it is so much about 
what Ms. Lindborg said and what we, as the InterAction 
community have been pushing for, that is to say, to have a very 
sustainable and adequate level of funding for longer term 
development assistance so that the members of InterAction and 
other NGOs that are out there can keep building their local 
partners on the ground. It is really through that local 
capacity that those on the ground can respond, and we work very 
closely with them.
    So I wanted to just underscore the point of the need for 
our attention to this longer term development assistance. We 
were concerned to see that in the fiscal year 2006 request, 
there was a cut in the development assistance accounts, part of 
which is about clean water. So we would want to draw attention 
to that and see if we can keep pushing ahead and doing better 
on that score too.
    Senator Murkowski. Good points.
    I appreciate the comments from the three of you. I 
appreciate your participation here in the hearing this morning. 
I think it has been informative for all of us, and I think I 
certainly will follow up with your suggestion, Ms. Lindborg, 
and will recommend to the chairman that we do a followup to 
just kind of check and see how things are going. Hopefully, we 
will have good reports and we will be able to say that we, 
indeed, have learned a great deal from this tsunami and how to 
better respond in the future.
    So I thank you for your time, and with that, we are 
adjourned.
    [Whereupon, at 12:42 p.m., the committee was adjourned.]
                              ----------                              


  Additional Prepared Statements and Other Material Submitted for the 
                                 Record


                Prepared Statement of Human Rights First

    Human Rights First would like to thank Chairman Lugar and Senator 
Biden for the opportunity to place this testimony on relief and 
reconstruction efforts in Aceh into the committee record. In this 
testimony we will address a fear in policy circles that raising human 
rights concerns will jeopardize the humanitarian mission. Our belief is 
that although this is a sensitive issue in Indonesia, as in many 
countries, such fear underestimates the positive impact of an informed, 
coordinated approach to human rights issues at an early stage and 
throughout the reconstruction process.
    Human Rights First recognizes that both the committee members and 
witnesses for this hearing have shown a willingness to publicly address 
human rights issues while tackling core development challenges in the 
tsunami-affected region. Deputy Secretary Wolfowitz has noted the need 
to support military reform, and Administrator Andrew S. Natsios is 
among the many participants who have addressed the need for 
accountability in the aid process. We would like to take this 
opportunity to add to these lessons by focusing on the role of civil 
society in Aceh both before and after the tsunami.
    Graffiti on a surviving shard of wall in Banda Aceh serves as a 
record of the disaster: ``The earthquake began at 7:55. The ocean rose 
at 8:30. Only the ruins remain.'' In Aceh, the tsunami seemingly came 
out of nowhere. But the relief and reconstruction that follows is 
taking place in a context of low-level conflict, military control, and 
weak respect for human rights that long predates December 26, 2004. 
This context provides lessons from the recent past, but also warning 
signs in the current environment and a few indications of what the next 
phase may bring.
    Human Rights First is a nonprofit, nongovernmental organization. 
Since 1978, it has worked to protect and promote fundamental human 
rights, holding all governments accountable to upholding the standards 
set forth in the Universal Declaration on Human Rights and other 
international human rights instruments. Our Human Rights Defenders 
program works to support the efforts of human rights activists around 
the world through advocacy campaigns on behalf of persecuted human 
rights activists, and activities designed to expand the practical 
realization of the right to promote and protect human rights.
                      the persistence of the past
    The Indonesian Government in Jakarta deserves credit for opening 
Aceh to foreign assistance in the days after the tsunami hit. The 
Indonesian military has also played an important role in relief 
activities to date, including food distribution and the recovery of 
bodies. The arrival of an astounding collection of aid workers and 
foreign militaries, including American troops, to a province largely 
closed to outsiders for nearly two years has been accompanied by major 
changes. These visitors have saved many lives and helped foster a level 
of openness, in those areas in which the international community is 
present, that one local activist could only sum up in the word 
``unbelievable.''
    But while many Americans first heard of Aceh in the aftermath of 
the tsunami, for those who follow human rights in Asia the name was all 
too familiar. While Aceh had been the site of anticolonial resistance 
and regional rebellions for much of the 20th century, the current 
conflict began with a declaration of independence in 1976 and the 
creation of the Free Aceh Movement (Gerakan Aceh Merdeka, or GAM). 
Counterinsurgency operations peaked in the 1990s and then again when 
martial law was declared in May 2003.
    The continuing impact of abuses committed during this separatist 
conflict will have important ramifications for the planning and 
execution of recovery plans. For example, any agency seeking working to 
address trauma, displacement, or lost livelihoods will find that these 
problems did not begin on December 26. Three decades of 
counterinsurgency operations, capped by two years of martial law and 
civil emergency, provide several important lessons for those working in 
Aceh today:
    The politicization of displacement and attacks on humanitarian 
workers: Throughout the years of war the Acehnese have acquired long 
experience with displacement. Even before martial law, villagers often 
fled the fighting to seek refuge at mosques or soccer fields in nearby 
towns. Civil society organizations, including women's organizations and 
student groups, played an important role in providing food and medical 
care and monitoring the situations in these temporary camps. The camps 
were viewed by the military as potential bases of support for GAM. 
Fearing that the guerrillas were using the camps to recruit members, 
obtain supplies, or maintain a presence in the towns, the military 
viewed the displaced population with suspicion and targeted those who 
sought to assist them. Members of student groups and local humanitarian 
organizations were harassed, beaten, and threatened with death by 
security forces and their civilian allies. In December 2000 three 
volunteers with Rehabilitation Action against Torture in Aceh (RATA) 
were killed together with the torture victim they were assisting, and 
staff members of the international aid organization Oxfam UK were 
tortured in August 2000.
    For its part, GAM forced many non-Acehnese migrants to seek safety 
outside the province, where many remain in cramped camps. GAM also 
reportedly used the IDP population for its own strategic and public 
relations ends, discouraging some from returning to their homes.
    The displaced civilian population was caught between the GAM rebels 
and the security forces. With as many as 100,000 displaced Acehnese 
scheduled to be moved to semipermanent relocation camps beginning next 
week, there is reason to fear that this vulnerable population will 
again be used as pawns. While access to affected populations has not 
been problematic to date, if the environment changes due to renewed 
conflict or tightened security, local organizations assisting or 
monitoring the relocation sites may be singled out for official 
harassment.
    Undermining civilian government and civil society: There is a 
common impression that the large military role in Aceh is due to the 
tsunami's destruction of the civilian bureaucracy and civil society 
organizations. The disaster did indeed cause major losses: Nearly 1,000 
civil servants are dead or missing at the provincial level alone, and 
54 of the 241 subdistrict governments are said to be nonfunctioning. 
More than 40 NGO activists, including several leading human rights 
defenders, are missing or dead, as well as journalists, teachers, 
religious leaders, and other community leaders. Several prominent human 
rights organizations have lost their offices and their records.
    But the military's dominance is also the legacy of years of 
military operations followed by martial law. Even before martial law 
the army's territorial command structure, reinforced by a series of 
military operations, created a parallel structure down to the village 
level that overshadowed the weak civilian bureaucracy. Even as military 
commanders took control of the economic and political life of the 
province, many civil servants fled their posts due to fear of GAM 
attacks. The court system outside of Banda Aceh had largely ceased to 
function long before the tsunami struck.
    Under martial law subdistrict heads in contested areas were 
replaced with retired military officers. Martial law also had a 
``humanitarian component'' that gave the Indonesian military a central 
role in assistance to IDPs and severely restricted NGO access. Local 
organizations were shut out of IDP camps they had worked in previously.
    Martial law was downgraded to civil emergency status in May 2004, 
but access by international organizations and journalists was still 
severely limited at the time of the tsunami. Under civil emergency the 
power was formally vested in civilian authorities (a governor later 
jailed on corruption charges), but troop strength and military 
operations were not necessarily scaled back. A respected Jakarta NGO 
has identified 84 civilian deaths and 47 disappearances in the first 
six months of civil emergency ending November 2004. What's more, 
authorities are still empowered to summarily restrict freedom of 
expression and assembly, carry out arbitrary searches, and restrict 
freedom of movement.
    A 6-month extension of civil emergency will end on May 19, the 
second anniversary of the declaration of martial law. The presidential 
decree that extended the status calls for a monthly evaluation, but the 
government has not used this feature to withdraw emergency status.

                         PRESENT WARNING SIGNS

The dominant role of the Indonesian military
    The Indonesian military has played an often welcome role in relief 
operations. Such a role was required immediately after the tsunami by 
the lack of alternatives in many areas and the need to reach people in 
need quickly. But especially as the emergency phase shifts to 
reconstruction, military participation in the context of Aceh raises 
serious questions.
    At the provincial level, the former commander of operations under 
martial law, Major General Bambang Darmono (a former martial law 
commander), serves as head of humanitarian operations for the army, 
distinct from the security operations. But in Meulaboh, the second 
biggest hub of humanitarian activity, one colonel has performed both 
functions. This meant he has run the nightly relief coordination 
meetings at the base while simultaneously bearing responsibility for 
ensuring that GAM was defeated militarily. While there is not yet 
evidence of discrimination impacting suspected GAM sympathizers, this 
dual role raises fears that food aid or relocation programs could be 
subordinated to military aims.
    In addition there have been several credible reports that local 
military commanders have required that aid be handed over in whole or 
in part to be distributed by the armed forces, citing fears that the 
aid would otherwise end up in guerrilla hands. But this practice could 
also lead to discrimination, bottlenecks in aid, and corruption.
    As the government begins massive relocation into semipermanent 
barracks, the possibility of an army role is also troubling. Although 
government officials stated there would be no army role beyond 
``securing'' the barracks, military documents and the military role in 
aid distribution, management, and security in existing camps raise 
concerns.

Signs of hostility to humanitarian workers
    Given the long track record of hostility toward IDPs and those 
working to help them, intimidation or other forms of restriction are a 
particular point of concern. Local and international NGOs have not 
reported that restrictions have significantly hampered their ability to 
operate. At the same time, however, there are signs that some in the 
military are uneasy with the role played by NGOs, especially local 
ones.
    It has been widely reported that the military has formally 
restricted access by foreign aid workers beyond the two cities of Banda 
Aceh and Meulaboh, ostensibly as protection from attack. International 
NGOs are expected to clear their travel in advance and accept a 
military escort if required. However, these rules are not strictly 
enforced, and so far appear to be a form of monitoring rather than 
control. It is important that these rules are not used to restrict 
access beyond that required by genuine security concerns. GAM has 
stated it will not attack foreign aid workers, a pledge that is 
consistent with its vested interest in a continued international 
presence in Aceh.
    Travel around some west coast towns such as Lamno is especially 
circumscribed. Indonesian volunteers and one international NGO were 
prevented from traveling in this region, although this problem was 
later remedied.
    Human Rights First has also learned of isolated, but nevertheless 
worrisome, efforts to intimidate local NGOs.

  <bullet> According to press reports on January 10 in the Mata Ie 
        section of Banda Aceh, a volunteer was beaten by soldiers and 
        needed stitches.
  <bullet> Several local NGOs have been visited by security officers 
        demanding information on their aid distribution activities. Two 
        of the most active NGOs in Banda Aceh were visited within half 
        an hour on the night of January 22, one by police and one by 
        members of the provincial military command in plainclothes.
  <bullet> Students carrying out a health assessment in Bireuen were 
        approached at an IDP camp by several soldiers. The officers 
        later came to their office and took them to the military post 
        where they were questioned for several hours about their 
        activities before being released.
  <bullet> The head of the watchdog organization Government Watch, 
        Farid Faqih, was detained on January 27 in Meulaboh, accused of 
        stealing supplies donated by army wives. He was badly beaten by 
        soldiers including an army captain. While his role in the 
        disappearance of the supplies is still unclear, his 
        mistreatment is a worrying sign.
Lack of local participation
    Acehnese have a saying that ``Buya krueng teudong-dong, buya tamong 
meuraseuki.'' This translates roughly as ``the crocodile in the river 
only watches while other crocodiles eat his food.'' Failure to 
participate in the benefit of Aceh's natural resources has long been 
one of the grievances driving separatism in Aceh. The influx of NGOs 
and businesses from other parts of Indonesia and around the world has 
raised fears that the main beneficiaries of the billions of dollars 
pledged for reconstruction will once again not be the Acehnese. Their 
exclusion from planning their own future led one Acehnese to tell me in 
frustration: ``Sometimes I think it would be better if the wave had 
just wiped us out, so these people could come and build whatever they 
want.''
    The provincial government has signaled its willingness to involve 
Acehnese society in the development of a ``blueprint'' for 
reconstruction. But participation is not just a matter of good 
development practice; in the Acehnese context it is also dependent on 
respect for fundamental human rights such as freedom of expression and 
assembly.
    Civil society organizations, including NGOs, academics, and 
religious organizations, should be given a central role in the design, 
delivery, and monitoring of aid efforts. The local nonprofit community 
is reeling from the destruction, and the loss of several of its leading 
members. But Aceh's development and human rights organizations have 
survived years of war, abuse, and martial law. If conditions allow they 
will continue to play an important role.

                             FUTURE ISSUES

    The Indonesian government is still developing a master plan for 
Aceh's reconstruction, and the international community has engaged 
government agencies in a dialog on internationally accepted principles 
and standards. However several issues have already been identified as 
important and potentially problematic. The role of human rights 
defenders and other NGO monitors will be critical to efforts to achieve 
transparency and accountability.
    Limits to access: Access in Banda Aceh, Aceh Besar district, and 
Meulaboh remains quite good. But even in those areas the fact that 
civil emergency status and restrictions on access remain officially in 
place, coupled with signs of suspicion of humanitarian workers, lead 
many to fear that the current levels of openness will not be sustained.
    Land rights: Land rights are contentious in Indonesia under the 
best of conditions. But the loss of documents by landowners and the 
destruction of offices of the regional land board further compounds the 
problem. An additional source of conflict and uncertainty is the 
proposed creation of a buffer zone of up to two kilometers from the 
shoreline, with limited construction along the coast. The displaced 
population has not received any clear information about this plan. If 
this situation leads to conflict, the military role in relief and 
reconstruction may become more problematic.
    Human rights defenders play a critical role in allowing people to 
defend their rights in the face of the state, the military, and a 
private sector that often relies on links to powerful state elites.
    Military-linked businesses: Due to a long history of economic 
exploitation of Aceh's resources by the military, there is widespread 
concern that army-controlled business and foundations will seek to play 
a role in reconstruction. Such a role could cause problems especially 
where reconstruction plans run into opposition from local communities. 
As early as January 11, the Artha Graha conglomerate, partly owned by 
the military, arranged an invitation by the local government to provide 
a blueprint for the reconstruction of the city of Meulaboh, although 
the offer was later rescinded in deference to the provincial master 
plan now under development.\1\
---------------------------------------------------------------------------
    \1\ The chair of Artha Graha's relief effort, the retired general 
Kiki Syahakri, was martial law administrator in East Timor during the 
worst of the violence and has been indicted for crimes against humanity 
by the United Nations Serious Crimes Unit in East Timor.
---------------------------------------------------------------------------
    Military involvement in underground activities such as illegal 
logging will also be relevant in the construction boom to come.

                            RECOMMENDATIONS

    In the face of these significant concerns, we would offer the 
following recommendations for all future assistance to Aceh:

1. Support an environment conducive to the participation of Acehnese 
        civil society
    The Indonesian Government should revoke civil emergency status and 
it's restrictions on freedoms of expression and assembly. Donors, such 
as the World Bank, USAID, and United Nations agencies, should include 
protections for human rights defenders in their dialog with Indonesia 
on Aceh's reconstruction as a necessary mechanism for transparency and 
accountability.

2. Ensure access by humanitarian and human rights organizations to all 
        regions of Aceh
    The fear that GAM's civilian supporters or even active members are 
among those seeking aid should not be used as an excuse to unreasonably 
restrict aid or to intimidate aid workers, whether foreign or domestic. 
For its part, GAM must not put the camps' civilian populations at risk 
by using them to operate in any way. Indonesian authorities should 
continue to give local and international humanitarian assistance groups 
and also human rights organizations full and free access to all IDP 
camps to help safeguard the rights of the displaced and ensure that new 
violations are not allowed to occur.
    Access is about more than the distribution of supplies. It is also 
important that information flows freely in both directions. Displaced 
people must be aware of their rights and their choices. Human rights 
defenders need to be able to obtain and provide information about 
conditions for IDPs and other vulnerable groups throughout Aceh. The 
Declaration on Human Rights Defenders states that everyone has the 
right ``freely to publish, impart or disseminate to others views, 
information and knowledge on all human rights and fundamental 
freedoms.''

3. Minimize the role of the Indonesian military in humanitarian 
        operations
    A central question for the international community is whether it 
will reinforce the dominance of the military or seek to empower civil 
society and the civilian government through its policies on aid and 
reconstruction. Any efforts to improve conditions in Aceh, whether in 
the area of human rights, development, or conflict-resolution, must 
attempt to reverse the marginalization of civil society.
    This debate reaches beyond Aceh. At the national level, a major 
obstacle to respect for human rights in Indonesia has been the 
resistance to military reform. And the biggest sign of military's 
failure to reform has been its role in Aceh since the declaration of 
martial law.
    Aid agencies and bilateral donors should require clear statements 
on the nature and extent of the military participation in 
reconstruction, including through military-linked businesses.
                                 ______
                                 

 Prepared Statement by Raymond C. Offenheiser, President, Oxfam America

    Mr. Chairman, Senator Biden, and members of the committee, thank 
you for the opportunity for Oxfam America to submit written testimony 
for the record. We appreciate your interest in gathering a variety of 
perspectives on the important issues of the tsunami response and 
lessons learned when providing relief in the wake of the terrible 
tsunami tragedy.
    Oxfam America is an international development and relief agency 
committed to developing lasting solutions to poverty, hunger, and 
social justice. We are part of a confederation of 12 Oxfam 
organizations working together in more than 100 countries around the 
globe with an annual budget over $400 million dollars.

                            OXFAM'S RESPONSE

    In response to the tsunami, Oxfam has assisted over 300,000 people 
across the disaster zone. In Indonesia we are working with the 
Government of Indonesia and UNICEF to oversee the development and 
management of water and sanitation projects. Nearly 50 percent of the 
water pipe network was damaged in Meulaboh and 70 percent in Banda 
Aceh. In India we are working with local partners distributing 
thousands of hygiene kits, repairing water sources and funding a health 
institute to train volunteers in psychosocial counseling. In Sri Lanka 
we are rehabilitating water sources and constructing temporary 
shelters. We also have programs and are providing assistance in 
Thailand, Maldives and Somalia.

                         INTERNATIONAL RESPONSE

    The United States Government, local charities, and the American 
public have responded to the tsunami with unprecedented promises of aid 
and donations demonstrating our country's compassion and generosity.
    It is now over a month after the tsunami and more than 1 million 
people living in the Indian Ocean region remain displaced. The death 
toll is over 200,000 and could still increase unless the humanitarian 
response continues to reach all those in need with appropriate and 
effective life-saving assistance.
    It is important to remember that beyond the immediate threats to 
life nearly two million people may face the threat of living in poverty 
unless the massive reconstruction effort of the next few months and 
years specifically aims to reduce poverty.

                QUALITY OF AID NOT QUANITY MATTERS MOST

    Aid groups for the most part have done an admirable job in saving 
as many lives as possible, and providing survivors with the basic 
necessities--food, water, clothing, shelter, and medical care. Quick 
action has so far prevented major outbreaks of waterborne disease that 
could have doubled the death toll from the disaster.
    But the sheer scale and complexity of the humanitarian response 
have also caused problems that threaten to overwhelm fragile economies 
and civil society organizations in the affected countries, exacerbate 
religious and ethnic tensions, and lead to bitterness and 
recriminations among survivors and their neighboring communities.
    Oxfam is working to ensure a more successful outcome. But it will 
be impossible to mitigate these threats unless steps are taken to 
ensure that aid programs are designed and implemented as effectively as 
possible.
    First, tsunami survivors must be full participants in planning the 
rebuilding of their communities. While the emergency phase of relief 
delivery is mostly a top-down process, the rehabilitation and 
reconstruction programs now under way must be designed with input from 
the people whom they are intended to benefit. Too often, their wishes 
are an afterthought at planning meetings.
    Better coordination by the U.N. and government agencies is also 
essential. The hundreds of aid organizations that flocked to southern 
Asia vary widely in their experience levels, skills, missions, and 
operating styles. Without better guidance in coordinating their 
activities, aid will be distributed unevenly, leading to resentments 
among beneficiaries. To be successful, aid agencies need comprehensive 
information about the needs in each affected community to help guide 
plans for the rebuilding phase and make sure that no community is 
passed over because of politics or confusion.
    National governments, with support from the United Nations, should 
implement a system to accredit international humanitarian 
organizations, to ensure that their experience qualifies them for the 
scope and duration of the work they propose to do. Not every group that 
shows up at a disaster scene is qualified to help out, and their well-
meaning efforts can end up hampering relief.
    Aid groups, for their part, should stick to doing what they know 
best. Faced with myriad urgent needs and fueled by a donation bonanza, 
some organizations have been tempted to expand their programs into 
areas where they have little experience and less expertise. With a 
surfeit of groups on the ground, they should focus on their core 
competencies, leaving other tasks to those with the capacity to do them 
well.
    Best practices in humanitarian response have changed a lot in the 
past couple of decades, with the creation of internationally recognized 
standards set by the International Committee of the Red Cross and the 
Sphere Project, among others. Yet many aid groups still don't comply 
with--or even know about--such benchmarks. Thus we continue to see aid 
distributed without the benefit of proper assessment of needs and 
resources. Too many groups are simply throwing items out of the back of 
a truck to an assembled crowd, without any systematic attempt to ensure 
that they benefit the neediest people.
    Finally, too much money reaching an impoverished area can be almost 
as debilitating as too little. International aid organizations must be 
careful not to overtax a fragile system of domestic NGOs that lack the 
capacity to absorb large grants. Nor should they hire away key staff 
members from domestic groups, but instead should consider recruiting 
highly trained expatriates to return to their country to help manage 
rebuilding projects for a specific term. We've already seen how a flood 
of U.S. dollars in developing economies has caused a steep appreciation 
of local currencies like the rupee and bhat against the dollar. If not 
managed closely, that trend could lead to rapid inflation that could 
cause further economic calamity on par with the tsunami itself.
    The large volume of aid available should enable countries affected 
by the tsunami not only to recover but to put their people on a path 
toward sustainable long-term development. To merely return survivors to 
the marginal lives of poverty many of them led before the waves came 
would be unthinkable, leaving them just as vulnerable as they were on 
that terrible day.
    Each successive major disaster offers the humanitarian aid 
community lessons in how we can improve our work. But unless those 
lessons are implemented by the scores of aid groups flocking to 
southern Asia, our collective ``best practices'' will be submerged in 
an anarchy of altruism. That would be a discouraging return indeed on 
the world's massive investment in rebuilding the lives and communities 
devastated by the tsunami.

                            LESSONS LEARNED

    It is already possible to draw some lessons from the tsunami, 
albeit provisional. Oxfam and many others will want to revise these in 
the coming months, but these six lessons are already clear and should 
not be ignored.
    1. The survivors need appropriate aid, not any aid. Some of the aid 
provided has not been appropriate. The two fundamental things that must 
be remembered are the need to ask people what they want--and to meet 
the internationally accepted ``Sphere Humanitarian Charter and Minimum 
Standards for Disaster Relief.'' This is not happening as widely as it 
should and levels of consultation with beneficiaries must be increased.
    2. The aid effort must do more to apply the lessons from previous 
crises. International humanitarian agencies have learned more from the 
inconsistent humanitarian response to the crises in central Africa in 
the mid 1990s, than most other emergencies. In order to maintain a 
consistent response humanitarian guidelines and principles should be 
followed. As well as the Sphere technical standards for relief, the 
Code of Conduct for Disaster Relief sets out acceptable principles for 
relief, the People in Aid program outlines acceptable care of aid 
workers, and the U.N.'s Guidelines for Internally Displaced People 
highlights the rights of internally displaced people under 
international law. All of these are deeply relevant to the post-tsunami 
response and should be consistently upheld by agencies.
    3. The collapse in international attention does not bode well for 
sustained aid. It may take 5 years--the planning period for Oxfam's 
Aceh program--or more to rebuild the affected areas. But we have 
already seen a gap between what is promised and delivered. On paper, 93 
percent of the U.N.'s humanitarian appeal has been funded. In reality, 
governments have donated only about half the total amount needed. 
Though more than $4 billion has been promised for reconstruction, will 
these promises mean more than massive promises of aid after previous 
disasters in Iran, Mozambique and Central America?
    4. The need is just as much to find durable solutions for the 
displaced survivors as for better early warning to mitigate future 
disasters. An early warning system may be ready within 18 months. This 
is vital. But it is easy to ignore the needs of those rebuilding their 
lives after the tsunami. For example, the 600,000 people displaced in 
Aceh need more than temporary aid or the temporary camps that are 
planned. They must be given a genuine choice in the short, medium and 
long term to overcome poverty. The Indonesian Government and all 
warring parties should ensure the end to violence, and commit to 
negotiating a long-term settlement to Aceh's conflict. In Sri Lanka, 
those that have been displaced need their leaders, on all sides, to 
show the same commitment to ensure that life after the tsunami will not 
be the same as before. Many survivors of the tsunami remain extremely 
vulnerable to abuse. They need to be protected as well as given 
immediate aid.
    5. Reconstruction plans should look at the needs of women, men and 
children differently. In Sri Lanka many women who were on beaches or in 
markets lost their lives. There appears to be large numbers of 
households in which the father is suddenly a single parent--or the 
woman a new single mother. So far, there has been insufficient 
attention placed on the specific needs of these men, women and 
children, facing surviving the tsunami under very new circumstances.
    6. Aid is only the first kind of international support that the 
survivors of disasters need. To a certain extent this was recognized 
rather quickly. The Paris Club of creditors welcomed initiatives on 
debt relief and the access to the EU of tsunami-affected countries' 
exports. These steps have not yet gone far or wide enough but they show 
a very positive awareness that a wide range of international policies 
should be used to help countries recover after catastrophic crises. 
This could be followed more widely in future crises--after conflicts as 
well as natural disasters.

                       RECOMMENDATIONS TO THE USG

  <bullet> Stay the course. Oxfam commends President Bush's commitment 
        to public efforts to mobilize funding and long-term 
        reconstruction in the tsunami affected region. However, we have 
        already seen a gap between what has been promised by donors and 
        what has been delivered. On paper 93 percent of the U.N.'s 
        tsunami Flash Appeal has been funded. In reality, governments 
        have donated only about half the total amount needed. The USG 
        still has a critical role to play as a generous funder for 
        relief and long-term rehabilitation.
  <bullet> Don't forget about other emergencies. The death toll in 
        Darfur has reached 200,000 with close to 2 million people 
        displaced. While we must respond to the tsunami, we can't 
        forget about the millions of people caught up in the midst of 
        other crises. The U.N. global consolidated appeal of $1.7 
        billion for the world's 14 other major humanitarian crises has 
        only been 26 percent funded.
  <bullet> Confirm that all tsunami-related aid will not be taken from 
        current aid budgets underfunding other emergencies. Oxfam is 
        asking for the President's tsunami supplemental to Congress to 
        include a minimum of $1 billion in emergency assistance to meet 
        the needs of tsunami victims as well as others affected by 
        crises. This would include $500 million for the relief and 
        reconstruction efforts surrounding the tsunami and $500 million 
        for other emergencies such as Sudan and Ethiopia.
  <bullet> Trade and Debt Relief. Reconstruct livelihoods not poverty 
        by providing debt relief to affected countries in addition to 
        money for relief and reconstruction and reduce textile and 
        apparel tariffs:

    <bullet> Debt relief. The Paris Club of creditors offered to freeze 
            debt repayments from tsunami-affected countries but should 
            go beyond this and cancel debts above a sustainable level, 
            so long as the proceeds are spent on reconstruction and to 
            reduce poverty. For example, Indonesia spends ten times 
            more on debt repayment than health. Debt relief could 
            potentially release billions of dollars for reconstruction.
    <bullet> Trade. In order to ensure that the people in the countries 
            that were affected by the tsunami can begin the process of 
            reconstructing their lives and economies, the United States 
            should reduce textile and apparel tariffs for those 
            countries. Oxfam is supporting S.191--the ``Tariff Relief 
            Assistance for Developing Economies Act of 2005'' 
            introduced by Senators Smith, Feinstein, Baucus and 
            Santorum that will provide tariff relief to some of the 
            tsunami-affected countries.

                               CONCLUSION

    In the face of this terrible tragedy we commend the United States 
for its leadership and hope that you will consider these thoughts to 
ensure a comprehensive and effective response for the millions of 
people who are victims of this catastrophe as well as other disasters 
where people are suffering. Thank you again for this chance to share 
Oxfam's perspectives.
                                 ______
                                 

   Prepared Statement of Veena Siddharth, Washington Director, Human 
                           Rights Watch/Asia

    I would like to thank Chairman Wolf, Chairman Lantos and the 
members of the House Human Rights Caucus for the opportunity to share 
information we have collected on human rights in Aceh since the 
tsunami. Human Rights Watch appreciates your recognition of the links 
between human rights and post-tsunami reconstruction. Prior to the 
tsunami, Human Rights Watch had documented a range of abuses in Aceh, 
including the systematic use of torture against detainees by Indonesian 
security forces. Because of pre-tsunami prohibitions on access to Aceh, 
our reports may have underplayed the scale of human rights abuses. Aceh 
will not successfully rebuild unless there is recognition of the human 
rights abuses and steps taken to prevent them in the future.
    I will briefly list six issues that we are monitoring in this 
reconstruction phase:

    1. Access
    2. The role of the military
    3. Lack of choice in registration and relocation
    4. Land Rights
    5. Protection of Internally Displaced Persons (IDPs)
    6. Need for coordination and transparency of aid

                               1. ACCESS

    Although there has been access to tsunami-affected areas, it is 
limited.

  --The Indonesian military continues to designate most of the province 
        as insecure for foreign access and is strictly enforcing a no-
        travel policy to those areas.
  --We cannot verify if there are tsunami IDPs in any of these no-
        travel areas. The general consensus from agencies on the ground 
        was that there are not, but given the difficulties of access, 
        Human Rights Watch cannot confirm this.

                      2. THE ROLE OF THE MILITARY

    We remain concerned by the continued involvement of the military in 
camp management, coordination and distribution of aid. As a party to 
the conflict their involvement cannot be viewed as impartial.

  --In Banda Aceh a facade of civilian control is apparent but on the 
        west coast all coordination is still done through the military.
  --In Meulaboh the United Nations has its office located directly 
        inside the local military battalion compound, and continues to 
        have daily coordination meetings with the local military 
        commander, Col. Gerhan Lentara, despite the presence of a local 
        civilian head of district. Colonel Lentara was infamously 
        involved in the East Timor Santa Cruz massacre of 1991.
  --At the moment, several international NGOs regularly accept 
        ``military security escorts'' when visiting IDPs.
  --While much of the civilian infrastructure was decimated on the west 
        coast, there continues to be an overreliance on the military 
        for logistical support, even when there are alternatives. There 
        are real concerns that if the aid community pushes too hard on 
        access they will lose their position altogether. This may 
        explain why there has not been strong opposition to the 
        military's assertion that there are no IDPs, tsunami or 
        otherwise, in the no travel zones.

    3. REGISTRATION AND RELOCATION OF IDPS: LACK OF INFORMED CHOICE

    We are concerned about the manner in which the registration is 
being carried out, by whom, and the method in which the relocation will 
be implemented.

  --IDPs lack information. According to credible sources on the ground, 
        IDPs are often not aware that the tsunami had affected other 
        countries, let alone the plans for relocation or what their 
        options were.
  --Other issues facing IDPs include criteria for site selection, 
        impact on livelihoods, protection mechanisms, sensitivity of 
        the data and fear of military involvement in relocation and 
        camp management.

    4. LAND RIGHTS: COMPENSATION, REHABILITATION AND RECONSTRUCTION

  --Disputes over land rights could affect long-term stability in Aceh. 
        This is an area ripe for corruption and arbitrary 
        decisionmaking.
  --Compensation: There is still no articulated policy on how 
        compensation will be decided, to whom, and under what criteria. 
        It seems most likely that compensation will be provided on a 
        sliding scale depending on the destruction of property; but 
        this is not clear.

                         5. PROTECTION OF IDPS

    Despite the amount of money, agencies, and others in Aceh, up to a 
month after the tsunami many IDPs still had not received supplementary 
food or nonfood items. Protein and staples are lacking.

  --There has been no effort at all to consider protection of IDPs in 
        the current spontaneous camps.
  --With regards to the relocation barracks, we are concerned that IDPs 
        have already been moved by the government before donors have 
        sorted out minimum standards.
  --Barracks are ill designed, crowded, and without child friendly or 
        community spaces. Aside from a UNICEF initiative there are no 
        reporting mechanisms for the protection of women and children 
        in camps. While there appear to be no problems at the moment it 
        is expected that IDPs will be in these crowded facilities for 
        up to 2 years, in conditions that are ripe for abuse.
  --All distribution of aid is being conducted through heads of 
        communities and through heads of households. Both are 
        traditionally male held positions. This process has the 
        potential to exclude women, unaccompanied children, and other 
        vulnerable groups. Very little aid is being distributed 
        directly to IDPs.

            6. AID: DELIVERY, COORDINATION AND TRANSPARENCY

    Accountability and transparency of the $4.5 billion that has been 
pledged for tsunami relief will be essential. While we appreciate that 
the military has permitted access to Aceh for tsunami relief, we are 
concerned about their long-term presence and involvement in aid 
coordination, given their history in the province.

  --Given the history of corruption in Aceh, there are concerns that 
        most of the reconstruction contracts will be given to military 
        or government owned businesses.
  --There are credible reports of looting by the police and the 
        military.
  --While there is still no road access on the west coast (something 
        like 87 bridges out on that road alone), it seems that slow and 
        ineffective coordination is the main reason for the delay in 
        delivery of aid.

                            RECOMMENDATIONS

    While the tsunami has certainly resulted in unprecedented access to 
some parts of Aceh it does not change the underlying causes and reasons 
for the ongoing conflict. The TNI continue to wage their war against 
GAM. While the reported 200 killings since the tsunami is undoubtedly 
an exaggeration, civilians are still being killed. We call on the U.S. 
Government to:

  <bullet> Call for access to all parts of Aceh to ensure that pre-
        tsunami IDPs receive assistance and that there is a monitoring 
        of potential abuses on either side of the conflict;
  <bullet> Call for a phase-out of the military's role in camp 
        management, coordination and distribution of aid;
  <bullet> Ensure that U.S. and multilateral assistance incorporates 
        steps for protection of and equitable treatment of IDPs, 
        including pre-tsunami IDPs;
  <bullet> Ensure that there is a clear and fair policy on compensation 
        for those who have lost land and property;
  <bullet> Work with other donors to build in transparency and 
        anticorruption mechanisms into the reconstruction package with 
        genuine involvement of Acehenese civil society in monitoring 
        and shaping the reconstruction process.

    Aceh has gone through a tremendous catastrophe with unimaginable 
loss and devastation. Indonesia's long-term stability rests on 
confidence by the Acehenese people in the reconstruction process.
                                 ______
                                 

International Organization for Migration (IOM) Briefing to Staff of the 
                   Senate Foreign Relations Committee

1. Introduction to IOM
  <bullet> Intergovernmental organization, HQ in Geneva
  <bullet> Created in 1951--outside of the U.N. system--more 
        responsive, flexible
  <bullet> 2005 budget is app. US$800 million of which 92 percent is 
        earmarked for operational activities and funded by voluntary 
        contributions
  <bullet> Service-oriented: working with migrants of all sorts--
        displaced persons, refugees, asylum-seekers; economic or labor 
        migrants, trafficked migrants
  <bullet> Primarily operational, logistical--we see migration as a 
        positive force which can benefit both migrants and societies
2. IOM Activities in Indonesia and Sri Lanka
<bullet> Transport and logistics
  <bullet> Indonesia--The total number of IOM trucks operating between 
        Jakarta-Medan-Banda Aceh and Medan-Meulaboh currently stands at 
        350. Since the first deployment of trucks on 30 December 2004, 
        IOM has moved and distributed some 10,324 Metric Tons (MT) of 
        relief items from Medan in north Sumatra to Nanggroe Aceh 
        Darussalam Province. Of that total, IOM has transported 1,670 
        MT of relief goods to Meulaboh in convoys which began operating 
        on 8 January. IOM relief good delivery routes also include 
        Medan-Biruen, Medan-Nias and Medan-Lhokseumwe. IOM Banda Aceh's 
        truck fleet currently comprises 21 trucks which are used to 
        distribute relief goods in and around Banda Aceh for IOM, U.N. 
        agencies and international and national NGOs. IOM Banda Aceh 
        has distributed humanitarian relief items to more than 20 IDP 
        camps and communities hosting Tsunami affected populations 
        throughout the Districts of Banda Aceh, Aceh Besar, Aceh Jaya 
        and Pidie.
  <bullet> Sri Lanka--IOM continues to provide free emergency transport 
        assistance to the Government of Sri Lanka, IOs, NGOs and 
        donors. For this purpose 10M currently leases a vehicle fleet 
        of 45 trucks, each with cargo capacity of 10 Metric Tons. 
        Specialized trucks for container shipments, passenger buses, 
        trailers and vans can be supplied on request. To date, IOM has 
        operated 820 round trips for transportation of bottled water, 
        food items, water purification equipment, fishing boats, 
        medical supplies and various other relief items to numerous 
        locations throughout the country. Vans/four-wheel-drive 
        vehicles have been provided 64 times, 20ft container trucks/
        trailers have been arranged on 7 occasions and 19 passenger 
        buses, transporting a minimum of 435 relief workers have been 
        dispatched.
<bullet> Shelter
    In both Sri Lanka and Indonesia, IOM has been asked by the 
respective Governments to coordinate and implement shelter activities:

                              IN SRI LANKA

Batticaloa district:

  <bullet> IOM has committed to provide temporary shelter for 327 
        families in Onthachimadam, Kaluwanchikudy DS division. 
        Construction of temporary shelters for 20 families in the 
        division has been completed. Development of other sites is in 
        the initial stages with land leveling and site preparation 
        taking place. Identification of additional land suitable for 
        shelter construction is ongoing.

Ampara district:

  <bullet> The construction of 100 temporary family shelters (for 100 
        families) is progressing in Ullai, Pottuvil DS division. A 
        further total of 45 temporary shelters, each consisting of four 
        family units (to house 180 families) are currently under 
        construction on various other sites/divisions in the district.
  <bullet> Construction of five temporary schools is progressing in 
        Pottuvil, Thambiluvil, Thampattai and Akkaraipattu DS 
        divisions.

Trincomalee district:

  <bullet> Development of a temporary shelter site for 180 families is 
        in the final stages in Mutur DS division. The site holds 45 
        temporary shelters, each consisting of four family units. All 
        shelters are completed and ready for occupation while 
        construction of a community centre and additional toilets is 
        still in progress.

Kalutara district:

  <bullet> IOM agreed to construct temporary shelters for 168 families 
        in Katukurunda and Paiyagala south and north. The families all 
        have land within the 100m ``no building zone'' so 43 shelters, 
        each consisting of four family units will be built on 
        government allocated land further from the sea. IOM is 
        currently discussing/identifying suitable shelter sites.

Transitional shelters:

  <bullet> IOM is examining three different designs of transitional 
        shelters in terms of suitability, cost and availability of 
        materials. The designs will be presented at an agencies shelter 
        coordination meeting at TAFOR (Task Force for Relief) tomorrow.
  <bullet> IOM is currently committed to constructing 5,608 
        transitional shelters in Trincomalee (1,200), Batticaloa 
        (1,539), Ampara (2,200) and Kalutara (769) districts.

                              IN INDONESIA

  <bullet> The first IOM model temporary shelter unit arrived by truck 
        from Jakarta on 5 February. Assembly was completed by 7 
        February. The model temporary shelter unit is now on display at 
        the IOM office in Banda Aceh.
  <bullet> The Ministry of Public Works has proposed to IOM five 
        temporary shelter sites. IOM's shelter experts are currently 
        assessing the viability of the sites. IOM's shelter experts are 
        also traveling to Meulaboh to map sites for the shelter 
        program.
<bullet> Health
  <bullet> To date, IOM's medical team has provided immunizations and 
        Vitamin A supplements to a total of 3,442 children. (Banda Aceh 
        1,792; Teunom, 1,559 and Lamno 91.) Figures on children 
        immunized in Calang by the IOM medical team will be available 
        shortly.
  <bullet> At this point in time there are three IOM immunization teams 
        fielded: (1) Ministry of Health, UNICEF, IOM and GOAL. This 
        team targets schools in a sweeping operation to follow up on 
        missed cases. (2) The second team comprises Ministry of Health, 
        IOM, Japanese Self Defense Force (JSDF) which is focused on 
        Teunom. (3) The third team comprising IOM and GOAL is currently 
        in Panga, on the west coast close to Teunom, on an assessment 
        mission. The vaccination campaign in Panga is due to begin this 
        week.
  <bullet> A six month pilot project entitled ``Aceh Mental Health 
        Capacity Building Project,'' has been funded by IOM and 
        approved by the Indonesian Ministry of Health/Directorate for 
        Mental Health Services. This three-tier training course on 
        basic counseling and early detection of mental health disorder 
        skills is aimed at raising awareness and building competency 
        amongst mental health care personnel, public health caregivers 
        and community leaders. IOM's psychiatrist attended a WHO/
        Ministry workshop entitled: ``Psycho Social and Mental Health 
        Agenda on Aceh'' in Jakarta on 7 February.
  <bullet> IOM's health care specialist continues to liaise and 
        coordinate IOM's proposed rehabilitation of five health care 
        centers and training of staff and administrators with the 
        Government of Indonesia and potential partners.
3. Observations on Protection for Vulnerable Persons
  <bullet> With respect to IDPs--Ensuring the voluntariness of 
        relocations of IDPs from public buildings into temporary or 
        transitional shelter is an important area of concern. IOM works 
        closely with the displaced individuals and the Government 
        authorities to assure that all needs are met.
  <bullet> Documentation to replace lost IDs is a paramount need to 
        ensure everyone is restored their proper identity--and so are 
        able to register their property and livelihood losses, 
        especially as regards land rights.
  <bullet> Important to use the media better, and assure that they are 
        educated on the issues; if media is more informed, then media 
        coverage would be of assistance, rather than letting them focus 
        on nonissues or trying to get new angles on a story.
  <bullet> In Sri Lanka, early reports of child abductions, and sexual 
        exploitation and abuse of children that were carried widely in 
        the media have not been verified by either the National Child 
        Protection Authority or the police. Sexual and gender-based 
        harassment and violence has been reported from many camps and 
        hospitals, but only two formal complaints (by adult women) have 
        so far been made to police.
  <bullet> With respect to trafficking, IOM is implementing a rapid 
        response trafficking awareness raising project in two of the 
        tsunami-affected countries, i.e., Indonesia and Sri Lanka, with 
        a primary focus on the over one million internally displaced. 
        Utilizing its long-term countertrafficking experiences and its 
        efficient emergency logistics networks already existing in the 
        two countries, IOM will aim to reduce vulnerability and 
        incidences of trafficking of vulnerable populations, 
        particularly women and orphaned children, from and within the 
        tsunami-affected areas, through multilevel mass information 
        campaigns tailored to country-specific post-tsunami realities, 
        in close coordination with national governments, U.N. agencies 
        and NGOs.
4. Lessons Gathered
    IOM Director General was just in Sri Lanka and Indonesia and offers 
his experienced voice with a few key points:

  <bullet> The international players must not neglect close 
        coordination with host governments at all levels. This sounds 
        obvious, but there are many instances where agencies went 
        blithely ahead without checking and got themselves in trouble. 
        Both Sri Lanka and Indonesia have real governments that will 
        not be brushed aside. One key to IOM's successful response is 
        precisely our careful attention to working with the host 
        government, at all levels.
  <bullet> Using national staff in implementing activities can give an 
        agency a big boost. IOM has benefited enormously from having 
        large numbers of Indonesian, Acehnese, and Sri Lankan employees 
        in our ranks.
  <bullet> From the Sri Lanka experience: what is needed is for the 
        country to establish a response capacity to future sudden 
        natural disasters. But this capacity should be built not only 
        at the national level, but at all levels--even to the level of 
        ordinary people as well so they can depend on their own 
        resources.
  <bullet> The existence of civil conflict in both Sri Lanka and Aceh 
        is another complication, requiring deft handling by relief 
        agencies. Of course not all agencies can be ``old pros'' in a 
        particular disaster-struck nation, but it sure helps to have 
        been there and to know some people in advance.
  <bullet> Coordination of donor responses: Donors often insist that 
        agencies assure proper coordination so as to avoid duplication; 
        they need to learn to practice what they preach and be sure to 
        avoid duplication of contributions in some areas, with other 
        areas experiencing huge gaps. In Sri Lanka, for example, UNICEF 
        and WFP have been overfunded while other agencies have not 
        received enough funds.
                                 ______
                                 

 Prepared Statement of Nancy Yuan, Vice President, Director, the Asia 
                       Foundation, Washington, DC

    The international response to the earthquake and tsunami that hit 
South and Southeast Asia on December 26, 2004, has been unprecedented. 
The efforts to date have, of course, largely focused on immediate and 
basic food, water, and shelter needs, and maintaining public health. 
While these priorities continue, many agencies and governments are also 
turning to the challenges of the medium and long term.
    Over the past 6 weeks, the Asia Foundation has focused on medium 
and long-term reconstruction in the tsunami affected areas of 
Indonesia, Sri Lanka, Thailand, and India. Some relief activities have 
been supported through its affiliate organization, Give2Asia.\1\ 
Notably, the Foundation has also been contacted by a few of the larger 
international NGOs focused on relief as a potential grantee for medium- 
and long-term programs.
---------------------------------------------------------------------------
    \1\ Give2Asia, a U.S. nonprofit organization established by the 
Asia Foundation, facilitates private giving to charitable causes 
throughout the Asia region. Give2Asia has raised $1.2 million to date 
for the Tsunami Recovery Fund. See www.Give2Asia.org for more 
information.
---------------------------------------------------------------------------
    In each affected region, the Foundation has chosen to work with 
local organizations, as is its usual practice, in order to reach the 
largest number of people possible and to rebuild the capacity of local 
institutions. The Foundation is also working to encourage local 
involvement in planning, by establishing a meaningful dialog with local 
and central government officials reviewing reconstruction strategies 
and developing a mechanism for community participation. In some cases, 
it also means building the capacity of local governments through 
technical assistance given the number of local government officials 
lost in the tsunami. Finally, the Foundation is providing technical 
assistance for disaster preparedness and management to improve the 
planning and training capacity of disaster management. Since 1995, the 
Foundation has operated a disaster preparedness training program in the 
Pacific Islands with the goal of building self-reliance in disaster 
management.

                               INDONESIA

    In Indonesia, the Asia Foundation is channeling most of its Aceh 
relief program through Muhammadiyah, one of its long-term local 
partners. Muhammadiyah is Indonesia's second largest mass-based Muslim 
organization, with a membership of approximately 25 million. Its main 
function is to deliver social services at the community level--health 
and education as well as its religious services. In their nationwide 
programs, Muhammadiyah has consistently shown their commitment to 
democratic values of pluralism and tolerance. They are effective in 
actively promoting these values as they have credibility as well as 
access to their mass-based extensive network.\2\
---------------------------------------------------------------------------
    \2\ For example Muhammadiyah produced more than 6,000,000 leaflets 
focusing on the issue of tolerance and pluralism (e.g. Accepting 
Differences: Deliberation and Democracy) and distributed through their 
network of mosques. Muhammadiyah has also been successful in their 
nonviolence campaigns among the youth--a perennial problem among urban 
youths, particularly in Jakarta. In Aceh, for nearly five years, 
Muhammadiyah has trained activists to identify and report on human 
rights violations in the province's conflict-ridden areas. Likewise, in 
various partnerships with the Foundation, Muhammadiyah has been on the 
forefront of nonreligious issues such as sound elections, good 
governance, nonviolence, and civic education.
---------------------------------------------------------------------------
    In the Aceh context, the Foundation's decision to work with and 
through Muhammadiyah is based on our understanding of two important 
factors: (1) Aceh is and was the site of a serious conflict between the 
Government of Indonesia and the Free Aceh Movement (GAM) prior to the 
disaster; (2) Islam plays a heightened role in Aceh, and is the primary 
social and cultural force there. Muhammadiyah is one of the most 
credible and trusted Islamic groups in Indonesia and, crucially, is 
accepted on both sides of Aceh's conflict. Such community trust and 
confidence is and will be crucial to the success of relief efforts.
    Aside from the government and the military, Muslim-based 
organizations such as Muhammadiyah are among the very few organizations 
with an extensive network throughout Aceh. One of the three major 
universities in Aceh is a Muhammadiyah University, and Muhammadiyah 
runs almost 60 schools and eight boarding schools for the poor in the 
province. Because it is a nationwide organization, the Aceh branch of 
Muhammadiyah has strong backup support from the central board of 
Muhammadiyah. Precisely because of the nationwide support and extensive 
activities in pre-tsunami Aceh, Muhammadiyah was one of the first local 
organizations to mobilize an effective response to the disaster. Its 
four-level University building, which was not damaged by the disaster, 
has been transformed into a vital base camp for Muhammadiyah relief 
operations--including a temporary clinic, a radio station, and a 
volunteer center.
    As part of its near-term response in Aceh, the Foundation provided 
funding for 150 skilled volunteers--doctors, nurses, forensic 
specialists, paramedics, child care experts--drawn from Muhammadiyah 
institutions nationwide for the first month after the disaster. During 
this time, for example, eight paramedics served over 12,000 people in 
the IDP camps and assisted IOM with logistics in Banda Aceh.
    Communication networks in the affected regions of Indonesia have 
been devastated by the tsunami, creating a massive obstacle to recovery 
and relief efforts. With private funding, the Foundation has already 
been able to help reestablish communications networks through support 
for Radio 68H, which has established radio communications in 50 IDP 
camps in Banda Aceh, broadcasting public service announcements about 
aid distribution, emergency relief coordination, and a missing persons 
service. A program in Meulaboh has also been established.
    Coordination among both local and international organizations 
responding to the crisis has often been lacking in Aceh. To help 
address this problem, the Foundation has been leading a collaboration 
with Save the Children, Oxfam, Hivos and Mercy Corps, to support a 
website, www.indotsunamirelief.com. The website, dedicated to 
coordination among funding agencies and civil society organizations 
working in Aceh, is up and running, though the official launch will be 
on February 16 in Banda Aceh.
    Another concern raised in the field has been how to ensure that 
there is active participation by Acehnese in the reconstruction and 
planning phase. The Asia Foundation has also been working with the 
major organizations active in Aceh, (CARE, Save the Children, PCI, CRS, 
Oxfam), in the development of a document outlining Common Operating 
Principles and Guidelines for Tsunami Reconstruction in Aceh. We expect 
that other organizations, including bilateral donors, will also sign on 
in the coming weeks.

                               SRI LANKA

    In Sri Lanka, the Foundation has provided assistance through faith-
based and private voluntary organizations, including Buddhist, Hindu 
and Christian groups, along with the Rotary and Lions Clubs. These 
efforts have included the provision of basic relief supplies and 
transport in the East and South, and relocation of people from 
churches, temples and schools which served as refugee camps, to homes 
and other temporary housing. These organizations will also help to 
rebuild homes and schools, and purchase fishing boats.
    With USAID funding, the Foundation has supported the Legal Aid 
Commission in Sri Lanka to assist survivors with lost documents and 
pressing legal issues. Special help desks have been established and LAC 
lawyers are providing assistance to local government officials and 
volunteers from local NGOs to help victims obtain documents, and solve 
legal issues related to property, adoption, insurance, banking, and 
other matters.
    With OTI funding through the Asia Foundation, psychosocial services 
are being provided through the Psychosocial Support Programme and 
Psychosocial Forum. These organizations are providing a range of 
services, including training, counseling materials for local and 
international CSOs, translations of materials from Singhalese into 
Tamil, a website for district level services, a Missing Persons Desk, 
and a database within the Psychosocial desk at the Center of National 
Operations.
    In Sri Lanka, we have also been in discussions with donors about 
operational principles for Tsunami reconstruction, which have been 
incorporated into a World Bank/ADB/JBIC needs assessment. These 
principles focus on conflict sensitivity, local elected government 
involvement in planning, demand driven response, communication and 
transparency, and coordination between stakeholders.

                                THAILAND

    In Thailand, the Foundation's programs have focused largely on 
legal aid for tsunami survivors, and involve a range of legal NGOs, 
Shariah law experts, universities and government officials. A handbook 
will be developed to detail a variety of government programs available 
to victims. The Foundation plans to support a one-stop legal aid 
service center, a call center, and website to provide pro bono service 
to victims. The Foundation is also working specifically on issues 
related to the protection of women and children through needs 
assessments conducted by the Ministry of Social Development and 
prominent women's groups, such as the Women and the Constitution 
Network and the Children and Family Affairs Committee of the Islamic 
Center of Thailand.

                                 INDIA

    In India, through private funding raised through Give2Asia, the 
Foundation has supported CAF India, a local nongovernmental 
organization, to provide relief supplies, purchase fishing boats and 
nets, and help local governments to review land use for reconstruction 
projects such as schools, hospitals, and microenterprise.
    As the U.S. Government, in concert with other international donors, 
national and local governments in the affected regions, and private 
organizations like the Asia Foundation, work to address the medium- and 
long-term needs of those areas devastated by the tsunami, it is 
important to keep a number of important points in mind.
    First, recovery will require large-scale reconstruction that 
addresses the massive destruction of physical infrastructure and the 
loss of valuable human resources. National governments and local 
communities have some resources, but the majority of the resources for 
reconstruction will come through two channels--international donor 
assistance and private investment, both foreign and domestic. Given the 
scale of the disaster and the magnitude of the anticipated resource 
flows, coordinating donor assistance and attracting and accommodating 
investors will be an enormous challenge, and requires substantial and 
thoughtful planning.
    Second, effective and responsive government will be essential if 
successful, accelerated reconstruction is to take place. Central 
governments will play a key role, but local governments in coastal 
areas will also have major responsibilities. Local government, 
particularly at the municipal, district, and provincial levels, was 
weak in many of the affected regions prior to the crisis, and in many 
areas, capacity has been diminished, or destroyed, by the loss of local 
government staff. Governing institutions, particularly at the local 
level, will need substantial and timely assistance if they are to 
undertake critical large-scale planning and management roles that will 
be required of them over the next few years.
    Third, local credibility and trust will be vital, particularly 
regarding longer term efforts in areas that have been wracked by 
conflict in recent years. The Foundation's efforts (both short-term 
tsunami relief and other long-term program areas) in Aceh, have been 
successful to date in large part due to the local trust conferred on 
its local partner, Muhammadiyah.
    Finally, consistent and substantial local input must be an 
essential element of long-term recovery efforts. To further this goal, 
building the capacity of civil society organizations will also be 
critical, as such groups can play an important role in launching 
ongoing public-private dialog for reconstruction and recovery, helping 
to encourage local ownership, coordination, and effective action at all 
levels.
    In responding to the tsunami tragedy, both in terms of short-term 
relief efforts and longer term planning, the Asia Foundation has drawn 
on its years of experience in the region and lessons learned from 
programs such as enhancing interfaith dialog in Indonesia; managing 
conflict in Sri Lanka; and promoting legal aid and rights in Thailand. 
Utilizing the valuable experiences, insights, and credibility of local 
networks of partner organizations and individuals has been a core 
element of the Foundation's long-term effectiveness--and likewise such 
experience can greatly enhance the efficiency and efficacy of long-term 
recovery efforts on the part of the United States and the entire 
international community.
    Thank you.
                                 ______
                                 

  Responses of Secretary of Defense Paul Wolfowitz to Questions from 
                             Senator Lugar

    Question. In coordinating the military relief efforts, has the U.S. 
strategy of ``places not bases'' in Southeast Asia proven itself 
valuable? How have the facilities and bases in Thailand and Singapore 
affected relief operations?
    Answer. We have close military relationships with many Southeast 
Asian nations. These relationships are important to us in many respects 
and help us to achieve many of our objectives in the region. In the 
case of Operation Unified Assistance, the tsunami relief operation, our 
longstanding relationships and habits of cooperation in the region were 
critical to our ability to quickly set up an international coordination 
center in Utapao and create other staging areas within the region from 
which we were able to direct the relief operations. Without the close 
relationship with Thailand, Singapore, Malaysia and others in the 
region, our relief efforts would have certainly been slower and far 
less effective. Our efforts likely would have been further enhanced if 
we had similar ties with other nations in the region, most notably 
Indonesia.
    I should point out as well that this relief operation was a prime 
demonstration of the validity of our concept of ``seabasing'' where 
U.S. forces can be stationed on board U.S. naval vessels offshore while 
still projecting our capabilities ashore. In this case, seabasing 
allowed the U.S. military to effectively provide humanitarian 
assistance and disaster relief without creating a large, intrusive, and 
vulnerable footprint ashore in the affected regions.

    Question. Please provide the committee with your impressions of the 
changing role of TNI during this phase of the transition to democracy 
in Indonesia. Also, what is your assessment of the level of cooperation 
being provided to the U.S. authorities reviewing the Timika murder case 
by Indonesia military authorities?
    Answer. The Indonesian military (TNI) continues to wrestle with 
defining its new role since the fall of Suharto's authoritarian regime 
in 1998, as do all the other parts of the Government of Indonesia and 
most parts of Indonesian society.
    This is clearly still a work in progress, but important and 
sustained reforms have been made by the TNI. The TNI has remained a 
neutral player throughout two electoral processes and political crises. 
TNI active duty officers can no longer hold government offices and 
there are no longer any TNI officers sitting in the Parliament as 
appointed military representatives. In addition, we have seen important 
and significant steps taken toward accountability for Suharto-era 
abuses and an increased emphasis on respect for human rights and 
professionalism. The TNI's reform is by no means complete, but I 
believe that progress has been and will continue to be made. Indonesian 
Minister of Defense Juwono Sudarsono has specifically requested U.S. 
assistance in supporting reform through the provision of International 
Military Education and Training (IMET). We should support him in 
helping the process of reform, just as the United States is doing for 
other institutions within the central and local governments in 
Indonesia.
    I would refer you to the FBI for a full assessment of the level of 
cooperation being provided to the U.S. authorities by the Government of 
Indonesia and the TNI. Secretary of State Rice on February 25, 2005, 
made the assessment in a certification to Congress that the Indonesian 
Government and armed forces are cooperating with the FBI investigation 
into the August 31, 2002, murders of two American citizens and one 
Indonesian citizen in Timika, Indonesia.
                                 ______
                                 

  Responses of Under Secretary Alan Larson to Questions From Senator 
                                 Lugar

    Question. In identifying the remains of victims from dozens of 
countries through DNA testing, the Thai authorities face a challenge 
similar to the United States following the 9/11 attacks. Are there 
lessons to be learned from these two experiences that would better 
prepare us for disaster responses in the future?
    Answer. The December 26, 2004, Indian Ocean Tsunami destroyed major 
tourist areas in southern Thailand and left over 5,000 people dead and 
3,000 missing, including 10 confirmed American citizen deaths and 14 
Americans who are presumed dead. More than 30 countries provided 
assistance to the Royal Thai Government (RTG) to establish the Thailand 
Tsunami Victims Identification (TTVI) center in Phuket, Thailand, to 
handle the enormous task of identifying the remains of the victims. The 
United States has assisted in this international effort by deploying 
forensics experts from the Joint POW/MIA Accounting Command (JPAC), the 
FBI and the medical examiner's office in Onondaga County, New York.
    In order to better prepare the United States to respond to a future 
mass casualty event, consideration should be given to clearly 
identifying and assigning to a USG agency, with the know-how and 
personnel, the authorization to provide immediate victim identification 
services to affected areas overseas. While FEMA possesses many of the 
capabilities for mass casualty and mass fatality response, its 
authority for providing assistance is limited to domestic disasters. 
Currently no USG agency has clear authority or funding to provide 
mortuary and forensic identification services and assistance to foreign 
countries in need.

    Question. From information we have collected throughout the federal 
government, it appears at least seven task forces (and perhaps more), 
have been in operation at the federal level of our government connected 
to earthquake/tsunami relief. These various task forces have been 
operating out of USAID, Pacific Command (PACOM), the National Security 
Council, and the State Department, among others.
    Please outline for the committee the total number of U.S. federal 
task forces which were or are still operating in connection with the 
earthquake/tsunami disaster and advise as to whom (what person) in the 
U.S. Federal Government is ultimately responsible to assure proper 
coordination of these various task forces.
    Answer. The U.S. Government mounted a rapid and comprehensive 
response to the Indian Ocean earthquake and resultant tsunamis. In the 
immediate aftermath of the disaster, seven agencies and departments 
stood up task forces to offer direct assistance in accordance with 
their mandates and expertise, and to communicate with the international 
community and multilateral institutions. As affected countries moved 
from the relief phase to rehabilitation and reconstruction, the United 
States responded in parallel, standing up a coordination system to 
assist tsunami victims with rebuilding their shattered lives. The 
attached diagrams visually display the relationship between the task 
forces established in the immediate aftermath of the disaster (Diagram 
A), as well as the structure for the relief and reconstruction phase 
(Diagram B).
Immediate Aftermath
    The following agencies stood up task forces. All of these entities 
have stood down:

  <bullet> Department of State (DOS): DOS stood up 3 task forces within 
        24 hours of the disaster.

    <bullet> Task Force 1: The Bureau of Consular Affairs (CA) assisted 
            American citizens to locate the welfare and whereabouts of 
            loved ones. CA received over 30,000 calls, which generated 
            over 15,000 cases that required action. Over the course of 
            8 weeks, CA narrowed the unaccounted for to four cases.
    <bullet> Task Force 2: The East Asia and Pacific (EAP) Bureau 
            headed a task force that facilitated interaction between 
            the U.S. military and host governments, accelerated the 
            entry of relief goods into affected countries and acted as 
            the main clearinghouse for information from embassies, 
            other government agencies, and the media.
    <bullet> Under Secretary Marc Grossman established the senior level 
            international Core Group (Australia, Japan, India, Canada, 
            the Netherlands, and the United Nations).
    <bullet> On 6 January 2005, the Bureau of Intelligence and Research 
            (INR) created the Tsunami Humanitarian Sharing (THIS) 
            Interagency Working Group to facilitate the management of 
            interagency geospatial information and to coordinate 
            support for field needs related to tsunami relief efforts.

  <bullet> USAID: USAID's Office of Foreign Disaster Assistance stood 
        up a Response Management Team (RMT) as per standard procedure 
        in a natural disaster scenario. The RMT is activated to provide 
        full support to a Disaster Assistance Response Team (DART). The 
        DART provides a presence on the ground capable of carrying out 
        sustained response activities. The RMT provides the necessary 
        support to a DART from USAID headquarters and manages USAID 
        response activities and coordinates interagency cooperation in 
        the initial response phase. USAID also stood up an Agency 
        Tsunami Task Force which is responsible for setting overall 
        USAID policy in response to the disaster in Asia, providing 
        operational guidance of program activities, and recommending 
        resource allocations for all programs.
  <bullet> Pacific Command (PACOM): PACOM activated the Combined 
        Support Force (CSF) 536, headquartered in Utapao, Thailand as 
        part of the DOD's Operation UNIFIED ASSISTANCE. CSF-536 was the 
        on-scene military headquarters responsible for U.S. forces 
        involved in relief operations. Additionally, PACOM stood up 
        three Combined Support Groups--in Indonesia, Sri Lanka, and 
        Thailand--to transport relief supplies via ground and air to 
        distribution points and remote locations in support of relief 
        agencies and the host governments.
  <bullet> Department of Defense (DOD): The DOD response was in support 
        of the larger U.S. Government response led by the USAID Office 
        of Foreign Disaster Assistance (OFDA) and in cooperation with 
        the Department of State and the National Security Council. DOD 
        provided support to indigenous efforts in areas where unique 
        military capabilities could be of use, for example: logistics, 
        air and sea borne transportation, search and rescue, water 
        purification capabilities, and medical support/supplies. In 
        addition, this multifaceted response also involved the host 
        nations, U.N. organizations, partner states, other military 
        forces, and nongovernmental organizations.
  <bullet> National Security Council (NSC): Beginning December 27 and 
        continuing daily through the first weeks of the crisis, NSC 
        chaired a working level humanitarian response coordination 
        meeting that addressed needs from the field and ensured 
        interagency issues regarding the humanitarian response were 
        addressed. Participants met via secure video teleconference and 
        included all the operational agencies (USAID, Department of 
        Defense, Pacific Command, State, Department of Homeland 
        Security and Department of Health and Human Services). The NSC 
        group was disbanded February 8, 2005, as response coordination 
        no longer required senior level attention.
  <bullet> Department of Health and Human Services (HHS): HHS created a 
        small headquarters working group on tsunami relief efforts. The 
        working group was led by the Office of Global Health Affairs in 
        the Secretary's Office. Its efforts were coordinated by the NSC 
        as part of the interagency group.
  <bullet> Department of Homeland Security (DHS): DHS stood up a small 
        workgroup to support the needs expressed by the Department of 
        State and the Department of Defense in their humanitarian 
        relief efforts. For example, in the immediate aftermath, the 
        U.S. Coast Guard deployed air assets in support of the DOD 
        mission to deliver water and food to the impacted region. USCG 
        also provided medical personnel to serve aboard the Mercy.
Relief and Reconstruction
    The State Department, in close coordination with USAID, is 
responsible for coordinating the U.S. Government's response in the 
relief and reconstruction phase. Specifically, Ambassador Doug 
Hartwick, based in State's Economic Bureau (EB) has been designated as 
the Tsunami Coordinator. State and NSC convened January 7 the first of 
a now weekly interagency working group (IAWG) meeting on tsunami 
reconstruction.
    The State Department is working across the U.S Government to set 
U.S. reconstruction priorities, coordinating especially closely with 
USAID's tsunami task force, which is responsible for setting USAID 
policy in response to the disaster in Asia, providing operational 
guidance of program activities, and recommending resource allocations 
for all programs in the affected countries. As necessary, smaller 
interagency working groups on thematic issues (e.g., early warning 
systems) are convened and report to Ambassador Hartwick. Externally, 
DOS and USAID will work with other bilateral donors, the United 
Nations, the multilateral development banks and the international 
financial institutions to help tsunami victims rebuild their 
communities and livelihoods. Affected countries and regions have the 
lead in reconstruction, and the United States will work to respond to 
the needs and priorities as identified by these national and local 
authorities.
    [Diagrams A and B follow:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
  Response of USAID Administrator Andrew S. Natsios to Question From 
                             Senator Lugar

    Question. Is humanitarian aid reaching all affected areas in Sri 
Lanka sufficiently, including those areas that have majority Tamil and/
or Muslim populations in the North and East of the country?
    Answer. The USAID/DART has deployed teams to all nine tsunami-
affected districts. These teams have met with the Government of Sri 
Lanka (GOSL) officials, implementing partners and internally displaced 
persons (IDPs) in camps. By and large, all affected people are 
receiving assistance from one organization or another.
    USAID/DART assessments have shown that emergency needs for food, 
shelter, water, and clothing are being met, although with difficulty in 
some areas. Given the disaffection between ethnic communities in Sri 
Lanka, it would be hard to imagine any major operation by the GOSL 
going uncriticized. For example, a February 7 World Food Program report 
noted that, ``On Friday 4 February a large number of tsunami affected 
Muslims, mainly fisherman, protested simultaneously in several towns of 
Ampara district. They claimed that after 41 days since the tsunami 
struck they had not received adequate relief supplies. They also asked 
that in the east, Muslims be permitted to handle the distribution of 
relief supplies as well as the LTTE.'' The USAID/DART has not 
encountered any documented cases of malfeasance. USAID does not feel 
that any community will go without support given the tremendous 
response to this disaster by the international community.
    The infrastructure and agriculture assets of the country are 
intact, with damage restricted to a narrow band of between 100 meters 
and 1 km inland from the coast. Therefore, the same support resources 
are available now that were available prior to the tsunami. That said, 
the USAID mission in conjunction with the USAID/DART will continue to 
monitor the situation and report on any developments.
                                 ______
                                 

                 Indian Ocean--Earthquake and Tsunamis

USAID Fact Sheet No. 32, Fiscal Year (FY) 2005, February 8, 2005

------------------------------------------------------------------------

------------------------------------------------------------------------
Indonesia............  114,000 dead,\1\  413,000 displaced \2\
                        126,000 missing
                        \1\.
Sri Lanka............  30,974 dead,      553,287 displaced \3\
                        4,698 missing
                        \3\.
India................  10,749 dead,      112,558 displaced \4\
                        5,640 missing
                        \4\.
Maldives.............  82 dead, 26       12,698 displaced \6\
                        missing \5\.
Thailand.............  5,393 dead,       N/A
                        3,062 missing
                        \7\.
Malaysia.............  68 dead, 6        8,000 displaced \8\
                        missing \8\.
Somalia..............  150 dead \8\....  5,000 displaced,\8\ 54,000
                                          affected \9\
Seychelles...........  3 dead \8\......  40 households displaced \10\
------------------------------------------------------------------------
Source Legend:
\1\ Government of Indonesia, 2/7/05.
\2\ Government of Indonesia, 2/7/05.
\3\ Government of Sri Lanka, Center for National Operations, 2/1/05.
\4\ Government of India, Ministry of Home Affairs, 1/18/05.
\5\ Maldives National Disaster Management Center, 1/23/05.
\6\ Maldives National Disaster Management Center, 1/23/05.
\7\ Government of Thailand, 2/4/05.
\8\ U.N. Office for the Coordination of Humanitarian Affairs (OCHA), 1/
  18/05.
\9\ U.N. Consolidated Appeal, 1/6/05.
\10\ U.N./Seychelles and USAID, 1/12/05.

Total USG Humanitarian and Recovery Assistance Pledged......$350,000,000
Total USAID/OFDA Humanitarian Assistance Committed............82,970,096
Total USG Humanitarian Assistance Committed \1\..............123,009,940

\1\ This figure includes assistance from USAID (including USAID/OFDA), 
the U.S. Department of State, and the U.S. Department of Agriculture. 
The value of assistance provided by the U.S. Department of Defense is 
not included in total USG assistance committed.
---------------------------------------------------------------------------
                           CURRENT SITUATION

Indonesia Update
  <bullet> According to the U.N. World Food Program (WFP), the 
        Government of Indonesia (GOI) declared on February 4 that the 
        first phase of the emergency relief operation in Aceh Province 
        was over and reconstruction and recovery activities will begin 
        after the planning phase is completed.
  <bullet> WFP reported on February 4 that the GOI will register all 
        displaced persons and catalogue their skills in order to 
        facilitate temporary job placements during the reconstruction 
        period. In addition, the GOI indicated that a number of 
        relocation barracks will be built throughout affected areas of 
        Aceh Province for internally displaced persons (IDPs). 
        International media report that the GOI plans to build 754 
        barracks in 39 locations with 401 barracks scheduled for 
        completion by the end of February. As of February 8, the USAID/
        Disaster Assistance Response Team (DART) reports that 13 
        barracks have been constructed.
  <bullet> According to the USAID/DART, no comprehensive psychological 
        and social assessment of the affected populations has been 
        undertaken to date. However, preliminary results from a Save 
        the Children study of parents and caretakers in the worst 
        affected areas of Banda Aceh and Pidie suggest that there is 
        not a mental health crisis as result of the tsunami. According 
        to focus groups in the study, parents were aware of how their 
        children's attitudes and behaviors have changed. In addition, 
        the study found very few serious cases of impairment or 
        dysfunction among children. Instead, children displayed common 
        reactions to a traumatic event, such as the fear that something 
        bad will happen again and that they will not be with their 
        parents when it does.
  <bullet> On February 5 and 6, USAID/DART members visited a USAID/
        OFDA-funded community health clinic and mobile health services 
        in Darussalam, and Rumah Sakit Umum Hospital, the primary 
        referral hospital for Aceh Province. Although international 
        medical personnel continue to provide emergency services to 
        tsunami-affected populations, USAID/OFDA's implementing 
        partners are making a concerted effort to increase local 
        capacity and transition activities to local health providers.
  <bullet> On February 4, the U.S. Embassy in Jakarta announced the 
        departure of the USS Abraham Lincoln, the aircraft carrier that 
        dispatched the first helicopters to provide assistance to Aceh 
        after the tsunami. Since the U.S. military began providing 
        tsunami relief assistance, U.S. military personnel have flown 
        more than 2,800 relief missions, provided medical treatment to 
        more than 2,200 people, and delivered 4,000 tons of supplies.
Sri Lanka Update
  <bullet> In late January, the Ministry of Urban Development and Water 
        Supply issued a public notice stipulating guidelines for 
        development in coastal areas in government-controlled areas in 
        Sri Lanka. According to the guidelines, residential and 
        commercial construction along the western and southern coastal 
        zones from Point Pedro to Dondra must be 100 meters inland from 
        the coast. In the eastern and northern coastal zones, no 
        construction is allowed within 200 meters of the coast. 
        According to the Center for National Operations, the difference 
        in buffer zones between the east and west coasts is due to the 
        high population density in western coastal areas. According to 
        local media reports, the Liberation Tigers of Tamil Eelam 
        (LTTE) has established a buffer zone of between 300 to 500 
        meters for construction in LTTE-controlled areas.
India Update
  <bullet> The Supreme Court of India has relaxed an order banning the 
        removal of timber from protected forests in the Andaman and 
        Nicobar Islands for a period of six months in order to meet the 
        immediate requirement for reconstruction/
        repair of houses. Local officials have stated that temporary 
        housing will be ready for displaced populations by April, the 
        start of the monsoon season in the islands. The local 
        administration reports that 40,962 persons remain in camps in 
        the islands as of February 6.
Maldives
  <bullet> According to the U.N. country team, multi-sectoral relief 
        activities are underway throughout the islands. The Government 
        of Maldives (GOM) indicates that transport and logistical 
        coordination remain priority concerns given the dispersion of 
        the affected areas and difficult conditions for aid deliveries. 
        Humanitarian assistance must be delivered to each of the 200 
        islands individually and can only be provided through the use 
        of small boats or other light transport. As a result, the U.N. 
        Resident Coordinator's Office has requested the deployment of 
        U.N. Joint Logistics Center (UNJLC) staff to support logistic 
        coordination between the GOM and U.N. agencies in Maldives.

                             USG ASSISTANCE

USAID Regional Response
  <bullet> The USAID/DART and the U.S. military continue to conduct 
        needs assessments and provide supplies and essential logistic 
        support for the relief efforts in affected countries.
Indonesia
  <bullet> To date, the USG has provided more than $41.1 million in 
        emergency food assistance, relief supplies, shelter, water and 
        sanitation, health, livelihoods recovery, psychological and 
        social support, logistics and coordination, and rehabilitation 
        activities for affected communities in Indonesia.
  <bullet> On February 7, USAID/OFDA committed nearly $4.1 million for 
        activities in Aceh: $1.3 million to Mercy Corps for community 
        infrastructure rehabilitation (cash-for-work), micro-finance, 
        and livelihood recovery projects; approximately $1.3 million to 
        Project Concern International for health, water and sanitation, 
        and livelihood recovery programs; and nearly $1.5 million to 
        International Relief and Development, Inc. (IRD) for water and 
        sanitation, micro-finance, and livelihood recovery projects.
Sri Lanka
  <bullet> To date, the USG has provided more than $62.0 million in 
        emergency food assistance, relief supplies, shelter, water and 
        sanitation, health, livelihoods recovery, psychological and 
        social support, protection and anti-trafficking, logistics and 
        coordination, and cleanup and rehabilitation activities for 
        affected communities in Sri Lanka. USAID/OFDA-funded cash-for-
        work and micro-finance programs are fully operational. The 
        USAID/DART in Sri Lanka is now focusing on program monitoring 
        and evaluation and ongoing situational assessments.
India
  <bullet> On January 31, the USAID/DART in India closed out more than 
        four weeks of operations, after providing approximately $4.1 
        million for shelter, water and sanitation, cleanup and 
        rehabilitation, education, and cash for work activities for 
        tsunami-affected residents. During the transition to the 
        recovery phase, USAID/India will oversee USAID/OFDA-funded 
        programs, and USAID/OFDA and USAID/India will share 
        responsibility for monitoring.
Maldives
  <bullet> On January 28, the USAID/DART Field Officer posted to Male' 
        closed out operations in Maldives. USAID staff and military 
        personnel were stationed on the ground in Maldives since 
        January 10, conducting assessments and coordinating and 
        consulting with government officials. During that time, USAID/
        OFDA provided more than $1.3 million for health, nutrition, 
        water and sanitation, and emergency relief supplies.
Department of Defense (DOD) Humanitarian Assistance
  <bullet> As of February 8, 3,594 U.S. military personnel are involved 
        in delivering more than 24.0 million pounds of relief supplies 
        and equipment to the affected region. Of the 688 military 
        personnel currently on the ground, 675 are in Thailand, 8 in 
        Sri Lanka, and 5 in Indonesia. With 8 ships and 25 aircraft, 
        the U.S. military has delivered a total of 9,259,209 pounds of 
        relief supplies to the governments of Indonesia, Sri Lanka, 
        Thailand, and other affected nations in the last 24 hours.

                               BACKGROUND

  <bullet> A magnitude 9.0 earthquake on December 26, off the west 
        coast of Northern Sumatra, Indonesia, triggered massive 
        tsunamis that affected several countries throughout South and 
        Southeast Asia, as well as Somalia, Tanzania, Kenya, and the 
        Seychelles in East Africa. Aftershocks from the December 26 
        earthquake continue to occur in the region.
  <bullet> Based on initial findings of USG assessment teams and on the 
        recommendation of Secretary of State Powell and USAID 
        Administrator Natsios, on December 31, President Bush committed 
        $350 million toward earthquake and tsunami relief and recovery 
        efforts. Dollar amounts in this Fact Sheet are part of the 
        total pledge of $350 million and refer to specific funding 
        actions that have been committed and programmed.

             USAID REGIONAL HUMANITARIAN ASSISTANCE TO ASIA
------------------------------------------------------------------------
    Implementing
      partner             Activity            Location          Amount
------------------------------------------------------------------------
                         USAID/OFDA ASSISTANCE*
------------------------------------------------------------------------
IFRC...............  Response to         Regionwide........   $4,000,000
                      emergency appeal.
U.S. Embassy/JTF...  Emergency relief    Regionwide........      196,631
                      supplies (In-kind
                      contribution).
AirServ............  Aerial assessment,  Regionwide........    2,436,681
                      transport of
                      relief personnel
                      and light cargo.
WFP................  Logistics, air      Regionwide........    5,000,000
                      support and
                      coordination.
Multiple...........  Transport of        Regionwide........      523,260
                      relief supplies.
                     Administrative....  ..................      468,460
                                                            ------------
------------------------------------------------------------------------





      Total USAID/OFDA assistance to region................   12,625,032
========================================================================
Total USG assistance to region.............................  $12,625,032
========================================================================

* A11 USAID/OFDA funding represent committed and/or obligated amounts as
  of February 8, 2005.



               USAID HUMANITARIAN ASSISTANCE TO INDONESIA
------------------------------------------------------------------------
    Implementing
      partner             Activity            Location          Amount
------------------------------------------------------------------------
                         USAID/OFDA ASSISTANCE*
------------------------------------------------------------------------
ACF/France.........  Water and           Aceh Province.....     $400,000
                      sanitation and
                      emergency
                      household kits.
CARE...............  Water purification  Aceh, North             256,276
                                          Sumatra.
Christian            Child protection    Aceh Province.....      396,728
 Children's Fund      and psychological
 (CCF).               and social
                      support.
Church World         Psychological and   Aceh Province.....      221,375
 Service.             social support
                      for children.
DAI................  Immediate relief    Aceh Province.....    5,000,000
                      and
                      rehabilitation
                      interventions
                      through local and
                      international
                      NGOs.
                     $62,688--Muhammadi
                      yah for school
                      clean-up and cash-
                      for-work in Banda
                      Aceh.
                     $15,000--SATORLAK
                      for disaster
                      management
                      training in Aceh
                      Province.
                     $74,725--Yayasan
                      Rumpun Bambu for
                      cash-for-work and
                      rehabilitation in
                      Aceh Province.
                     $750,000--Mercy
                      Corps for cash-
                      for-work
                      activities in
                      Banda Aceh and
                      Meulaboh.
                     $13,900--LPPM for
                      clean-up in
                      Campus Darussalam
                      Complex.
                     $237,000--Project
                      Concern
                      International
                      (PCI) for cash-
                      for-work in West
                      Aceh Province.
                     $132,000--Panglima
                      Laot for cash-for-
                      work in Aceh
                      Jaya.
                     $79,465--BEM Sya
                      Kuala for cash-
                      for-work in Banda
                      Aceh.
                     $47,802--IOM for
                      airport
                      rehabilitation in
                      Banda Aceh
                      Airport.
IFRC/Indonesian Red  Emergency relief    Aceh, North           2,200,000
 Cross.               supplies.           Sumatra.
Indonesian Red       Emergency relief    Aceh, North              99,050
 Cross.               supplies (In-kind   Sumatra.
                      contribution).
IMC................  Health............  Banda Aceh........      292,129
IMC................  Mobile health       Aceh and North        2,000,000
                      units,              Sumatra.
                      rehabilitation of
                      local health
                      clinics, malaria
                      control, and
                      psychological and
                      social activities.
IOM................  Provision of        Aceh, North           1,000,000
                      emergency relief    Sumatra.
                      supplies,
                      shelter, food,
                      water, and
                      medicine.
IRC................  Water and           Aceh Province.....    2,564,729
                      sanitation,
                      mobile health
                      clinics, support
                      for public health
                      networks, and
                      psychological and
                      social activities.
IRC/IOM............  Emergency relief    Aceh, North             523,260
                      supplies (In-kind   Sumatra.
                      contribution).
IRD................  Water and           Aceh, North             285,428
                      sanitation.         Sumatra.
IRD................  Water and           Aceh Province.....    1,499,769
                      sanitation, micro-
                      finance, and
                      livelihoods
                      recovery.
Johns Hopkins/       Maternal and child  Aceh, North             254,023
 JHPIEGO.             health.             Sumatra.
Mercy Corps........  Emergency response  Aceh, North             292,060
                      activities.         Sumatra.
Mercy Corps........  Community           Aceh Province.....    1,321,771
                      infrastructure
                      rehabilitation
                      (cash-for-work),
                      micro-finance,
                      and livelihoods
                      recovery.
PCI................  Mobile health       Aceh, North             236,929
                      clinics.            Sumatra.
PCI................  Health, water and   Aceh Province.....    1,327,321
                      sanitation, and
                      livelihoods
                      recovery.
SC/US..............  Emergency health,   ..................      288,533
                      sanitation,
                      shelter, and
                      protection.
SC/US..............  Emergency relief    Aceh Province.....      901,239
                      activities.
USAID/Indonesia**..  Emergency grants    Aceh, North             136,766
                      for water and       Sumatra.
                      sanitation,
                      health, and
                      shelter.
UNICEF.............  Child protection    Aceh Province.....    1,500,000
                      and psychological
                      and social
                      activities.
UNHCR..............  Shelter...........  Aceh, North           2,000,000
                                          Sumatra.
WHO................  Health              Aceh, North             291,500
                      surveillance.       Sumatra.
WVI................  Shelter and         Aceh, North             249,985
                      household kits.     Sumatra.
Multiple...........  Transport of        Aceh, North             256,002
                      relief supplies.    Sumatra.
                     Administrative....  ..................      114,500
                                                            ------------
------------------------------------------------------------------------





      Total USAID/OFDA assistance to Indonesia.............   25,909,373



------------------------------------------------------------------------

------------------------------------------------------------------------
                          USAID/FFP ASSISTANCE
------------------------------------------------------------------------
WFP................  3,000 MT of P.L.    Sumatra...........    2,438,560
                      480 Title II
                      emergency food
                      assistance.
                                                            ------------
------------------------------------------------------------------------





      Total USAID/FFP assistance to Indonesia..............    2,438,560



------------------------------------------------------------------------

------------------------------------------------------------------------
                       USAID/INDONESIA ASSISTANCE
------------------------------------------------------------------------
CARDI..............  Emergency response  Aceh Province.....       99,960
                      teams.
CARE...............  Water and           Aceh Province.....       98,889
                      sanitation.
ICMC...............  Targeting/          Aceh Province.....      100,000
                      monitoring of
                      emergency relief
                      supplies.
IOM................  Logistics.........  Aceh Province.....      208,452
I0M................  Emergency relief    Aceh Province.....    1,650,000
                      activities.
IRD................  Emergency food      Aceh Province.....       99,974
                      assistance.
Mercy Corps........  Shelter, health,    Aceh Province.....      250,000
                      water, and trauma
                      counseling.
Naval Medical        Procurement and     Banda Aceh........      579,000
 Research Unit.       staffing of
                      reference
                      laboratory.
Nurani Dunia.......  Emergency relief    Aceh Province.....       99,669
                      supplies.
SC/US..............  Emergency relief    Aceh Province.....      100,000
                      supplies and
                      health.
Multiple***........  Emergency relief    Aceh Province.....    2,087,000
                      activities.
                                                            ------------
------------------------------------------------------------------------





      Total USAID/Indonesia assistance to Indonesia........    5,372,944



------------------------------------------------------------------------

------------------------------------------------------------------------
                             USDA ASSISTANCE
------------------------------------------------------------------------
WFP................  9,417 MT of P.L.    Sumatra...........    7,533,600
                      416(b) Title I
                      emergency food
                      assistance.
                                                            ------------
------------------------------------------------------------------------





      Total USDA assistance to Indonesia...................    7,533,600



------------------------------------------------------------------------

------------------------------------------------------------------------
                          STATE/PRM ASSISTANCE
------------------------------------------------------------------------
IOM................  Anti-Trafficking    Aceh and Medan....      200,000
                      Initiatives.
                                                            ------------
------------------------------------------------------------------------





      Total State/PRM assistance to Indonesia..............      200,000
========================================================================
Total USG assistance to Indonesia..........................  $41,454,477
========================================================================

* A11 USAID/OFDA funding represent committed and/or obligated amounts as
  of February 8, 2005.
** USAID/OFDA funding, provided to USAID/Indonesia, will be allocated to
  implementing partners based on assessments.
*** USAID/Indonesia is using existing funds earmarked for activities in
  Aceh Province to support grants in response to the earthquake and
  tsunami.


               USAID HUMANITARIAN ASSISTANCE TO SRI LANKA
------------------------------------------------------------------------
    Implementing
      partner             Activity            Location          Amount
------------------------------------------------------------------------
                         USAID/OFDA ASSISTANCE*
------------------------------------------------------------------------
ACF/France.........  Emergency relief    Trincomalee,           $403,763
                      supplies and        Mulaitiva, Jaffna.
                      water and
                      sanitation.
American Center for  Psychological and   All Affected            350,000
 International        social support      Districts.
 Labor.               including
                      antitrafficking.
The Asia Foundation  Child protection    All Affected            199,408
                      and psychological   Districts.
                      and social
                      activities.
CARE...............  Emergency relief    Ampara............    1,941,787
                      supplies, water
                      system
                      rehabilitation.
CCF................  Cash-for-work and   Ampara, Matara,       2,310,294
                      community           Hambantola,
                      rehabilitation.     Trincomalee,
                                          Galle.
CHF International..  Cash-for-work,      Kalutara, Galle,      3,000,000
                      debris clean-up,    Matara.
                      repair of schools
                      and public
                      buildings,
                      latrine
                      construction, and
                      water and
                      sanatation.
CRS................  Transitional        Batticaloa, Ampara    3,048,000
                      shelter, home
                      repair, latrine
                      construction.
USAID/OTI..........  Relief and          Affected areas....    2,500,000
                      recovery projects
                      through existing
                      DAI contract with
                      USAID/OTI.
GOAL...............  Shelter, water and  Ampara,               3,280,423
                      sanitation, and     Hambantota,
                      cash-for-work       Matara.
                      activities.
IFRC...............  Emergency relief    Affected areas....      750,699
                      supplies (In-kind
                      contribution).
IOM................  Provision of        Northern, Eastern,      500,000
                      emergency relief    and Southern
                      supplies,           coastal areas.
                      shelter, food,
                      water, and
                      medicine.
Mercy Corps........  Cash-for-work and   Trincomolee,          1,509,447
                      community           Batticaloe,
                      rehabilitation.     Ampara,
                                          Hambantota,
                                          Matara.
Nathan Associates..  Community           Affected areas....   10,000,000
                      rehabilitation,
                      livelihoods, and
                      microfinance
                      projects.
SARVODAYA..........  Cash-for-work,      Galle, Hambantota,    1,748,120
                      debris clean-up,    Ampara.
                      repair of
                      buildings, and
                      water and
                      sanitation.
SC/UK..............  Shelter, water and  Trincomalee,            630,620
                      sanitation, and     Matara, Galle.
                      emergency relief
                      supplies.
Shelter for Life...  Transitional        Trincomalee.......    1,026,185
                      shelter and
                      latrine
                      construction.
Sri Lanka Red Cross  Emergency relief    Ampara, Mulaitiva.      356,655
                      supplies, health,
                      and cash-for-work
                      activities.
UNICEF.............  Water and           All Affected          1,000,000
                      sanitation and      Districts.
                      emergency school
                      kits.
UNICEF.............  Child protection    Affected areas....      500,000
                      and psychological
                      and social
                      activities.
UNHCR..............  Shelter...........  Affected areas....    1,000,000
USAID/Sri Lanka....  Emergency relief    Affected areas....      100,000
                      activities.
USAID/Sri Lanka**..  Emergency relief    Affected areas....       95,449
                      activities.
US Navy............  Emergency relief    Affected areas....        5,225
                      supplies (In-kind
                      contribution).
WVI................  Emergency relief    Trincomalee,            499,849
                      supplies and        Ampara.
                      shelter.
Multiple...........  Transport of        Affected areas....      657,553
                      relief supplies.
                     Administrative....  ..................       76,512
                                                            ------------
------------------------------------------------------------------------





      Total USAID/OFDA assistance to Sri Lanka.............   37,489,989



------------------------------------------------------------------------

------------------------------------------------------------------------
                          USAID/FFP ASSISTANCE
------------------------------------------------------------------------
WFP................  18,220 MT of P.L.   Affected areas....   20,028,340
                      480 Title II
                      emergency food
                      assistance.
                                                            ------------
------------------------------------------------------------------------





      Total USAID/FFP Assistance to Sri Lanka..............   20,028,340



------------------------------------------------------------------------

------------------------------------------------------------------------
                             USDA ASSISTANCE
------------------------------------------------------------------------
WFP................  5,583 MT of P.L.    Countrywide.......    4,466,400
                      416(b) Title I
                      emergency food
                      assistance.
                                                            ------------
------------------------------------------------------------------------





      Total USDA assistance to Sri Lanka...................    4,466,400
========================================================================
Total USG assistance to Sri Lanka..........................  $61,984,729
========================================================================

* A11 USAID/OFDA funding represent committed and/or obligated amounts as
  of February 8, 2005.
** USAID/OFDA funding, provided to USAID/Sri Lanka, is being allocated
  to implementing partners based on assessments.



                 USAID HUMANITARIAN ASSISTANCE TO INDIA
------------------------------------------------------------------------
    Implementing
      partner             Activity            Location          Amount
------------------------------------------------------------------------
                         USAID/OFDA ASSISTANCE*
------------------------------------------------------------------------
Prime Minister's     Emergency relief    Countrywide.......      $50,000
 Relief Fund.         activities.
IFRC/Implemented by  Emergency relief    Countrywide.......       50,000
 Indian Red Cross.    activities.
ACTED..............  Livelihoods.......  Tamil Nadu........      297,934
CARE...............  Water and           Tamil Nadu and          686,759
                      sanitation, cash-   Andhra Pradesh.
                      for-work, and
                      livelihoods.
CRS................  Water and           Tamil Nadu and        1,069,566
                      sanitation,         Andhra Pradesh.
                      psychological and
                      social support.
EXNORA.............  Cash-for-work and   Tamil Nadu........      115,195
                      water and
                      sanitation.
FHI................  Livelihoods and     Tamil Nadu........      280,147
                      debris removal.
GOAL...............  Cash-for-work and   Tamil Nadu........      250,112
                      rehabilitation of
                      agricultural land.
PCI................  Shelter,            Tamil Nadu........      440,295
                      livelihoods, and
                      training.
WVI................  Shelter and cash-   Tamil Nadu........      859,992
                      for-work.
                     Administrative....  ..................       33,000
                                                            ------------
------------------------------------------------------------------------





      Total USAID/OFDA assistance to India.................    4,133,000
========================================================================
Total USG assistance to India..............................   $4,133,000
========================================================================

* A11 USAID/OFDA funding represent committed and/or obligated amounts as
  of February 8, 2005.



              USAID HUMANITARIAN ASSISTANCE TO THE MALDIVES
------------------------------------------------------------------------
    Implementing
      partner             Activity            Location          Amount
------------------------------------------------------------------------
                         USAID/OFDA ASSISTANCE*
------------------------------------------------------------------------
UNICEF.............  Emergency relief    Countrywide.......      $94,600
                      supplies (In-kind
                      contribution).
UNICEF.............  Health, nutrition,  Countrywide.......    1,200,000
                      water and
                      sanitation.
Multiple...........  Transport of        Countrywide.......       68,400
                      relief supplies.
                                                            ------------
------------------------------------------------------------------------





      Total USAID/OFDA assistance to Maldives..............    1,363,000
========================================================================
Total USG assistance to Maldives...........................   $1,363,000
========================================================================

* A11 USAID/OFDA funding represent committed and/or obligated amounts as
  of February 8, 2005.



                USAID HUMANITARIAN ASSISTANCE TO THAILAND
------------------------------------------------------------------------
    Implementing
      partner             Activity            Location          Amount
------------------------------------------------------------------------
                         USAID/OFDA ASSISTANCE*
------------------------------------------------------------------------
Thai Red Cross.....  Procurement and     Countrywide.......     $100,000
                      distribution of
                      relief items.
                     Administrative....  ..................      215,371
                                                            ------------
------------------------------------------------------------------------





      Total USAID/OFDA assistance to Thailand..............      315,371
========================================================================
Total USG assistance to Tailand............................     $315,371
========================================================================

* A11 USAID/OFDA funding represent committed and/or obligated amounts as
  of February 8, 2005.



                USAID HUMANITARIAN ASSISTANCE TO MALAYSIA
------------------------------------------------------------------------
    Implementing
      partner             Activity            Location          Amount
------------------------------------------------------------------------
                          USAID/OFDA ASSISTANCE
------------------------------------------------------------------------
Malaysia Red         Procurement/        Northwest Malaysia      $50,000
 Crescent National    distribution of
 Disaster             relief items and
 Management and       shelter materials.
 Relief Committee.
                                                            ------------
------------------------------------------------------------------------





      Total USAID/OFDA assistance to Malaysia..............       50,000
========================================================================
Total USG assistance to Malaysia...........................      $50,000
========================================================================




               USAID HUMANITARIAN ASSISTANCE TO SEYCHELLES
------------------------------------------------------------------------
    Implementing
      partner             Activity            Location          Amount
------------------------------------------------------------------------
                         USAID/OFDA ASSISTANCE*
------------------------------------------------------------------------
Seychelles Red       Emergency relief    Countrywide.......      $50,000
 Cross.               activities.
                                                            ------------
------------------------------------------------------------------------





      Total USAID/OFDA assistance to Seychelles............       50,000
========================================================================
Total USG assistance to Seychelles.........................      $50,000
========================================================================

* A11 USAID/OFDA funding represent committed and/or obligated amounts as
  of February 8, 2005.



                USAID HUMANITARIAN ASSISTANCE TO SOMALIA
------------------------------------------------------------------------
    Implementing
      partner             Activity            Location          Amount
------------------------------------------------------------------------
                         USAID/OFDA ASSISTANCE*
------------------------------------------------------------------------
UNICEF.............  Health............  Puntland..........      $50,000
UNICEF.............  Health............  ..................      250,000
OCHA...............  Coordination......  Countrywide.......      141,369
World Concern......  Emergency Relief    ..................      392,962
                      Activities.
UNHCR..............  Shelter...........  Puntland..........      200,000
                                                            ------------
------------------------------------------------------------------------





      Total USAID/OFDA assistance to Somalia...............    1,034,331
========================================================================
Total USG assistance to Somalia............................   $1,034,331
========================================================================

* A11 USAID/OFDA funding represent committed and/or obligated amounts as
  of February 8, 2005.

      
                  further information on usg response
    More detailed information on USG assistance already provided, 
including DOD resources, in response to the disaster may be found in 
previous USAID/OFDA
Fact Sheets: http://www.usaid.gov/our_work/humanitarian_assistance/
disaster_
assistance/countries/indian_ocean/et_index.html.
                      public donation information
Making a Donation to Relief Efforts
  <bullet> The most effective way people can assist relief efforts is 
        by making cash contributions to humanitarian organizations that 
        are conducting relief operations.
  <bullet> For a list of humanitarian organizations accepting donations 
        for South Asia relief operations, please see ``Tsunami Relief'' 
        at www.usaid.gov or www.usafreedomcorps.gov. Or call the Center 
        for International Disaster Information at (703) 276-1914.
  <bullet> USAID encourages cash donations because they allow aid 
        professionals to procure the exact items needed (often in the 
        affected region); reduce the burden on scarce resources (such 
        as transportation routes, staff time, warehouse space, etc.); 
        can be transferred very quickly and without transportation 
        costs; support the economy of the disaster-stricken region; and 
        ensure culturally, dietary, and environmentally appropriate 
        assistance.
Additional Information
  <bullet> Information on making effective donations can be found on 
        the following websites:

    <bullet> USAID: www.usaid.gov, Keyword: Donations
    <bullet> The Center for International Disaster Information: 
            www.cidi.org
    <bullet> InterAction: ``Guide to Appropriate Giving'' at 
            www.interaction.org

  <bullet> Information on choosing a charity to support can be found on 
        the following websites:

    <bullet> Better Business Bureau: www.give.org
    <bullet> GuideStar (A National Database of Nonprofit 
            Organizations): www.guidestar.org
    <bullet> The American Institute of Philanthropy: 
            www.charitywatch.org
    <bullet> Charity Navigator: www.charitynavigator.org

  <bullet> Information on relief activities of the humanitarian 
        community can be found at www.reliefweb.int.

                                  <all>

</pre></body></html>
